<html>
<title> - OVERSIGHT HEARING ON EXAMINING THE CONSEQUENCES OF EXECUTIVE BRANCH OVERREACH OF THE ANTIQUITIES ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




   EXAMINING THE CONSEQUENCES OF EXECUTIVE BRANCH OVERREACH OF THE 
                            ANTIQUITIES ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     SUBCOMMITTEE ON FEDERAL LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                          Tuesday, May 2, 2017

                               __________

                            Serial No. 115-5

                               __________

       Printed for the use of the Committee on Natural Resources



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-372 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  Jimmy Panetta, CA
Garret Graves, LA                    A. Donald McEachin, VA
Jody B. Hice, GA                     Anthony G. Brown, MD
Aumua Amata Coleman Radewagen, AS    Wm. Lacy Clay, MO
Darin LaHood, IL
Daniel Webster, FL
David Rouzer, NC
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
            COLLEEN HANABUSA, HI, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Stevan Pearce, NM                    Alan S. Lowenthal, CA
Glenn Thompson, PA                   Norma J. Torres, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  Jimmy Panetta, CA
Bruce Westerman, AR                  A. Donald McEachin, VA
  Vice Chairman                      Anthony G. Brown, MD
Darin LaHood, IL                     Vacancy
Daniel Webster, FL                   Raul M. Grijalva, AZ, ex officio
David Rouzer, NC
Jack Bergman, MI
Liz Cheney, WY
Rob Bishop, UT, ex officio























                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, May 2, 2017.............................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     7
        Prepared statement of....................................     8

    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     9
        Prepared statement of....................................    10

    Hanabusa, Hon. Colleen, a Representative in Congress from the 
      State of Hawaii............................................     4
        Prepared statement of....................................     6

    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Clarke, Kathleen, Director, Utah Public Lands Policy 
      Coordinating Office, Salt Lake City, Utah..................    16
        Prepared statement of....................................    17
        Questions submitted for the record.......................    19

    LePage, Hon. Paul, Governor of the State of Maine, Augusta, 
      Maine......................................................    11
        Prepared statement of....................................    13
        Questions submitted for the record.......................    14
        Supplemental testimony submitted for the record..........    16

    Marshall, Knox, Vice President of Resources, Murphy Timber 
      Investments LLC, Eugene, Oregon............................    29
        Prepared statement of....................................    31

    St. Clair, Lucas, President, Elliotsville Plantation Inc., 
      Portland, Maine............................................    23
        Prepared statement of....................................    25
        Questions submitted for the record.......................    28

Additional Materials Submitted for the Record:
    Herbert, Gary R., Governor of the State of Utah, May 1, 2017 
      Letter to Chairman Bishop and Ranking Member Grijalva......    66

    Kobseff, Michael N., Chair, County of Siskiyou, California 
      Board of Supervisors, February 14, 2017 Letter to President 
      Trump......................................................    58

    List of documents submitted for the record retained in the 
      Committee's official files.................................    69

    Moore, Hunter, Natural Resources Policy Advisor to Arizona 
      Governor Doug Ducey, testimony.............................    67
                                     


 
  OVERSIGHT HEARING ON EXAMINING THE CONSEQUENCES OF EXECUTIVE BRANCH 
                    OVERREACH OF THE ANTIQUITIES ACT

                              ----------                              


                          Tuesday, May 2, 2017

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 1324, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Pearce, Thompson, 
Labrador, Tipton, Westerman, LaHood, Bergman; Hanabusa, 
Tsongas, Lowenthal, Torres, Gallego, Panetta, McEachin, Brown, 
and Grijalva.
    Also present: Representatives Gosar, LaMalfa; Huffman, and 
Beyer.
    Mr. McClintock. The Subcommittee on Federal Lands of the 
House Natural Resources Committee will come to order.
    The Committee today is meeting to hear testimony on 
examining the consequences of executive branch overreach of the 
Antiquities Act.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, the Ranking Minority 
Member, and the Vice Chairman. However, I would ask unanimous 
consent that the Chairman and Ranking Member of the Full 
Committee can be recognized for 5 minutes for an opening 
statement.
    Without objection, so ordered.
    Therefore, I would ask unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Subcommittee Clerk by 5:00 p.m. 
today.
    Without objection, so ordered.
    I would also ask unanimous consent that the following 
members of our Committee be allowed to participate in today's 
Subcommittee proceedings and sit at the dais and ask questions: 
Congressman Gosar, Congressman Cook, Congressman LaMalfa, 
Congressman Huffman, and Congressman Beyer.
    Without objection, so ordered.
    As I said, the Subcommittee on Federal Lands meets to hear 
testimony on abuses of the Antiquities Act of 1906, and 
possible reforms to prevent such abuses in the future. We will 
begin with opening statements, and I will begin.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. The Antiquities Act provides the President 
the authority to designate national monuments on Federal land 
containing ``historic landmarks, historic and prehistoric 
structures, and other objects of historic or scientific 
interest.''
    The law also specified that national monuments ``be 
confined to the smallest area compatible with proper care and 
management of the objects to be protected.''
    Furthermore, the President could only designate national 
monuments ``upon the lands owned or controlled by the 
Government of the United States.''
    The purpose of the Act was to give presidents the ability 
to quickly protect archeological sites from looting. In the 
original congressional debate over the bill, Congressman 
Stevens asked whether this bill could ever be used to lock up 
large areas of land as provided under the forest reserve bill. 
In response, the bill's sponsor, Congressman Lacey stated, 
``Certainly not. The object is entirely different. It is to 
preserve these old objects of special interest in the 
Southwest, while the other reserves the forests and the water 
courses.''
    President Theodore Roosevelt first used this authority to 
declare 1,200 acres around the Devil's Tower in Wyoming as a 
National Monument. Since that time, presidents broadly 
interpreted the Antiquities Act to expand both the size and 
justifications for national monument designations.
    Today, the Subcommittee will hear testimony surrounding the 
designation of millions of acres under an authority that limits 
them to the smallest area compatible with proper care and 
management of the objects to be protected. Indeed, in the last 
8 years, the Obama administration used this Act to declare 
national monument status over 553.4 million acres of land and 
water. That is equivalent to the entire states of Texas, 
California, Montana, New Mexico, and Arizona, combined, with an 
extra 50,000 square miles to spare.
    As we will hear, these designations were often imposed in 
spite of local opposition, without consultation with Congress 
or the state or local governments affected, and without regard 
to the economic damage these designations have had on 
surrounding communities. The restrictions on public use, 
resort, and recreation under these designations can be severe, 
in many cases prohibiting road access to the public, and 
imposing specific prohibitions against hunting, fishing, and 
other traditional recreational pursuits.
    Management of forests within these national monuments is 
also often so restricted that forest-thinning projects for 
habitat health and fire prevention become impossible. Land set 
aside to support financing of public purposes no longer produce 
that income. As we will hear today, the economic impacts can 
often devastate local communities by shutting down resource 
development projects upon which these communities depend.
    The Constitution gives to Congress alone the jurisdiction 
over public lands. Consistent with this authority, this 
Subcommittee serves three over-arching objectives: to restore 
public access to public lands; to restore proper management to 
public lands; and to restore the Federal Government as a good 
neighbor to those communities impacted by public lands. Ongoing 
abuses of the Antiquities Act are antithetical to these goals, 
and make a mockery of the clear intention of Congress in 
originally adopting this Act.
    Possible reforms to prevent these abuses include acreage 
limitations on this authority and a requirement that local and 
state governments be included in the decisions.
    It has been falsely asserted in several forums that the 
Antiquities Act is what creates national parks. While several 
national monuments have later become national parks, that 
authority rests entirely with Congress, and for good reason. 
While the executive should be able to move swiftly to protect 
small archeological sites from imminent threat of looting or 
desecration, the decision over whether to set aside vast 
portions of land in perpetuity should only be made after the 
lengthy debate, public input, and accountability that are the 
unique attributes of the legislative branch.
    Clearly, this was intended both by the American founders 
and by the authors of the Antiquities Act. But, as is often the 
case with small grants of power made to the executive, those 
grants can gradually expand to absurd overreaches.
    The kings of England once seized one-third of the English 
countryside as the King's Forests, making them the exclusive 
preserves of the government and its favored aristocrats, and 
placing them off limits to the common people. America's public 
lands are exactly the opposite. They are set aside, in the 
words of the original Yosemite charter, ``for the public's use, 
resort, and recreation for all time.''
    This Subcommittee has become increasingly concerned with 
government-imposed restrictions on the public's use, resort, 
and recreation of the public lands. Preserving these lands for 
future generations does not mean closing them to the current 
generation.
    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    This Subcommittee has set three over-arching principles for this 
Congress: To restore public access to public lands; to restore sound 
management to public lands; and to restore the Federal Government as a 
good neighbor to local communities directly impacted by public lands.
    Perhaps no current law is more antithetical to those goals than the 
Antiquities Act. Throughout the Act's 111-year history, presidents have 
distorted it from its noble intention of preventing the destruction of 
Native American antiquities into a law that allows million-acre land 
grabs with little to no public input or support.
    In the original congressional debate over this bill, Congressman 
Stephens asked whether this bill could ever be used to lock up large 
areas of land, like the forest-reserve bill before it. In response, the 
bill's sponsor, Congressman Lacey, stated: ``Certainly not. The object 
is entirely different. It is to perverse these old objects of special 
interests in the Southwest, whilst the other reserves the forests and 
the water courses.''
    No president strayed further away from this intent than President 
Obama, who used the Act to lock up over 553.4 million acres of land and 
water. That's equivalent to the entire states of Texas, California, 
Montana, New Mexico, and Arizona combined, with an extra 50,000 square 
miles to spare. Or, to put it a different way, his total acreage was 
almost 25 times the size of the state of Maine. Something I'm sure 
Governor LePage finds frightening!
    The national monuments the Subcommittee will hear testimony about 
today stretch from coast to coast, from the dense forests of central 
Maine to the rocky canyons of Utah, but all share one common problem: 
The previous administration prioritized legacy building over the lives 
and livelihoods of small, rural communities. In many cases, these 
designations were excessively large, overly restrictive, overwhelmingly 
unpopular, or all of the above!
    Perhaps no state is more familiar with the abuses and consequences 
of the Antiquities Act than Utah. Both Grand Staircase-Escalante and 
Bears Ears were designated in the face of unanimous opposition from the 
congressional delegation, the governor, and local counties. In the case 
of Grand Staircase, elected officials in Utah found out from the 
Washington Post about the designation and watched the President sign 
the proclamation in Arizona, not their own state. In Bears Ears, the 
administration repeatedly ignored local tribes in Utah who vehemently 
opposed this designation and worked tirelessly with Chairman Bishop to 
craft an alternative solution. The midnight designation was a slap in 
the face to their years of hard work, and a sad reminder of the powers 
of out-of-state special interest groups with deep pockets.
    In Oregon and my home state of California, President Obama expanded 
the Cascade-Siskiyou National Monument just 8 days before he left 
office. This new, and potentially illegal, expansion makes sound and 
scientific management of the land impossible by virtually eliminating 
active forest management. If the forests within this National Monument 
are not actively managed, then catastrophic wildfire will not be a 
matter of ``if,'' but ``when.'' Congress already designated the 40,000 
acres of O&C Lands captured by this expansion as land for permanent 
forest production and the sustained yield of timber. An executive 
proclamation should not, and cannot, over-rule this congressionally 
mandated use of the land.
    In Maine, President Obama designated the Katahdin Woods and Waters 
National Monument over the strong objections of the governor, members 
of the congressional delegation, and local residents in surrounding 
communities. Mainers have a long history and heritage of responsibly 
stewarding their land, while also allowing open and free recreational 
access. Considering that the previous landowner, in her quest to create 
a National Park, shut down the entire area to hunting and snowmobiling 
while also evicting campers and burning their cabins to the ground, I 
don't blame Mainers one bit for thinking this National Monument puts 
that rich heritage in jeopardy.
    These abuses point to a simple truth: that no one person should 
have the authority to lock up millions of acres of land with the stroke 
of a pen. The public should expect more from the person who holds the 
highest elected office in this Nation. They should expect more than one 
listening session when a decision affects millions of acres of land. 
They should expect their president to listen to them, not out-of-state 
special interest groups, on the land management decisions happening in 
their backyard. And finally, they should expect, and demand, that 
Congress stop the abuses of power and end this authority.
    And we will.
    I yield back and recognize the Ranking Member for her opening 
statement.

                                 ______
                                 

    Mr. McClintock. With that, I now recognize the Ranking 
Member for her opening statement.

  STATEMENT OF THE HON. COLLEEN HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you, Mr. Chairman. Since taking office, 
President Trump has issued 29 Executive Orders, the most 
attention received by his two attempts to ban Muslims from 
entering the country.
    Notwithstanding the most relevant to this Committee are his 
orders last week calling for a review of monuments established 
under the Antiquities Act, acts of presidents, Republican and 
Democrats alike. I think a review, if done in good faith, might 
actually teach us something about the broad base of support for 
national monuments and the Antiquities Act. Instead of 
vilifying the Antiquities Act, the tremendous array of 
cultural, historical, and natural resources protected for 
future generations because of this law should be recognized.
    For example, Honouliuli National Monument in Hawaii, where 
one of my grandfathers was interned during World War II, serves 
as part of our American history and a reminder that American 
citizens should never be treated the way so many Japanese-
Americans were at that time. Thanks to President Obama and his 
use of the Antiquities Act, this site will be managed and 
interpreted by the National Park Service in a manner that 
honors the sacrifices and struggles of Asian-Americans unjustly 
imprisoned, to ensure their legacy forever remains part of our 
national story. It is important to note that my grandfather 
made clear to me that in Hawaii it was not only Japanese-
Americans, but also Italian and German-Americans alike, who 
were interned.
    With the establishment of sites like the World War II Valor 
in the Pacific National Monument, the Cesar Chavez National 
Monument, the Stonewall National Monument, and the Birmingham 
Civil Rights National Monument, thanks to the Antiquities Act, 
President Bush and President Obama were able to diversify and 
broaden representation across our public lands. These monuments 
are about the acknowledgment and inclusion of all Americans, 
including veterans and ecosystem advocates. All of these were 
possible because of the Antiquities Act.
    Also thanks to the Antiquities Act we have the Katahdin 
Woods and Waters National Monument in Maine, which we will hear 
more about this morning from Lucas St. Clair, the president of 
the Elliotsville Plantation. This Monument was a generous gift 
to the American people that will protect a majestic national 
and natural place and expand opportunities for recreation 
activities like hunting, fishing, skiing, and snowmobiling.
    Americans support national monuments and the Antiquities 
Act. A recent poll found that 80 percent of western voters 
support keeping existing monument designations. That is because 
these designations tell our American story, protect our most 
cherished landscapes and ecosystems, and provide countless 
opportunities for outdoor recreation--not to mention the fact 
that they drive tourism and are great for the economy.
    According to the Outdoor Industry Association, outdoor 
recreation generates $887 billion in economic activity and 
supports 7.6 million jobs nationwide.
    While Secretary Zinke has said that this Executive Order 
does not strip any monument of its designation, I am concerned 
that this Executive Order and this hearing are the beginning of 
future efforts to erode or strip away the authority of the 
Antiquities Act. Let me say that, any executive act to abolish 
existing monuments will be met with significant opposition from 
the American people, similar to many of the President's 
signature efforts from the first 100 days of this 
Administration.
    No President has ever unilaterally revoked a national 
monument. An attempt to do so will surely end in court, where 
the authority to establish new monuments under the Antiquities 
Act has routinely been upheld. Congress, on the other hand, 
does have the authority to modify or completely disband 
monument boundaries. But even in the current political 
landscape, efforts to repeal or modify existing monuments may 
have a difficult time getting across the finish line. After 
all, our national monuments are popular, and will not go down 
without a fight.
    I recognize that there are concerns with the designation 
process for some monuments, but I do not think that gives us 
license to cause or revoke existing monuments or gut the 
Antiquities Act itself. I look forward to hearing today's 
testimony, and with that I yield back, Mr. Chairman.
    [The prepared statement of Ms. Hanabusa follows:]
   Prepared Statement of the Hon. Colleen Hanabusa, Ranking Member, 
                     Subcommittee on Federal Lands
    Within the first 100 days of the Trump administration, calling out 
previous uses of the Antiquities Act as executive overreach or abuse is 
a serious case of the pot calling the kettle black.
    Since taking office, President Trump has issued (29) Executive 
Orders, including attempts to ban Muslims from entering the country, 
scale back national efforts to address the causes and effects of man-
made climate change and even punish municipal governments for local 
decisions on how best to police their own communities.
    After all that, the President initiated a review of national 
monuments established under the Antiquities Act last week. I actually 
think that a review--if done in good faith--may actually teach this new 
administration about the broad base of support for national monuments 
and the Antiquities Act.
    Instead of vilifying the Antiquities Act, the tremendous array of 
cultural, historical and natural resources protected for future 
generations because of this law should be recognized. For example, 
Honouliuli National Monument in Hawaii, where one of my grandfathers 
was interned during World War II, serves as part of our American 
history and a reminder that American citizens should never be treated 
the way so many Japanese-Americans were at that time. Thanks to 
President Obama and his use of the Antiquities Act, this site will be 
managed and interpreted by the National Park Service in a manner that 
honors the sacrifice and struggle of the Asian-Americans unjustly 
imprisoned and ensures their legacy forever remains part of our 
national story.
    With the establishment of sites like Cesar Chavez National 
Monument, Stonewall National Monument and Birmingham Civil Rights 
National Monument, thanks to the Antiquities Act, President Obama was 
able to diversify and broaden representation across our public lands. 
These monuments are about the acknowledgement and inclusion of ALL 
Americans. This was possible because of the Antiquities Act.
    Also thanks to the Antiquities Act we have the Katahdin Woods and 
Waters National Monument in Maine, which we will hear more about this 
morning from Lucas St. Clair, the president of Elliotsville Plantation. 
This monument was a generous gift to the American people that will 
protect a majestic natural place and expand opportunities for 
recreation activities like hunting, fishing, skiing and snowmobiling.
    Americans support national monuments and the Antiquities Act. A 
recent poll found that 80 percent of Western voters support keeping 
existing monument designations.
    That's because these designations tell our American story, protect 
our most cherished landscapes and ecosystems, and provide countless 
opportunities for outdoor recreation--not to mention the fact that they 
drive tourism and are great for the economy. According to the Outdoor 
Industry Association, outdoor recreation generates $887 billion in 
economic activity and supports 7.6 million jobs nationwide.
    While Secretary Zinke has said that this ``Executive Order does not 
strip any monument of a designation,'' I am concerned that this 
Executive Order and this hearing are merely window dressing for future 
efforts to erode or strip away the authority of the Antiquities Act. 
Let me say that, any executive action to abolish existing monuments 
will be met with significant opposition from the American people, 
similar to many of the President's signature efforts from the first 100 
days of this administration. No President has ever unilaterally revoked 
a national monument--an attempt to do so will surely end in court where 
the authority to establish new monuments under the Antiquities Act has 
routinely been upheld.
    Congress, on the other hand, does have the authority to modify or 
completely disband monument boundaries. But even in the current 
political landscape, efforts to repeal or modify existing monuments 
will have a difficult time getting across the finish line. Despite the 
narrative of my Republican colleagues, our national monuments are 
popular and will not go down without a fight.
    I recognize that there ARE concerns with the designation process 
for some monuments, but I do not think that gives us license or cause 
to revoke existing monuments or gut the Antiquities Act itself.
    I look forward to hearing today's testimony.

                                 ______
                                 

    Mr. McClintock. The Chair is now pleased to recognize the 
Chairman of the House Natural Resources Committee, Congressman 
Rob Bishop of Utah, for 5 minutes.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman. Everyone knows that I 
really don't like to give opening statements at these hearings, 
but I felt compelled today to speak out about the 
misrepresentations that have surrounded the so-called Bears 
Ears National Monument. Never in my years of Congress have I 
seen such a concerted effort to suppress the voices of local 
tribes by powerful, deep-pocketed opponents. No local tribe in 
San Juan County, Utah, where the Monument is located, supported 
this designation. But most do not know this, because it is 
barely reported.
    When my staff has called to correct reporters on their 
misrepresentation, they have been told that the voices of these 
local Navajos are unpersuasive. Some members of this Committee 
have called Rebecca Benally, the Navajo woman elected to 
represent this area as a County Commissioner, a token Navajo 
who opposes the designation. I cannot even begin to describe 
how disrespectful and demeaning this dismissive language was to 
her, and to the local people and the tribes of this area.
    So, today, instead of using my time to give an opening 
statement, I would like to read some comments from local tribes 
in Utah, so that people will finally be able to hear them and 
listen to them.
    The Aneth Chapter of the Navajo, which is the only Navajo 
chapter made up of tribal members exclusively from Utah, and 
represents 50 percent of the Navajo in San Juan County, stated 
in a resolution, ``The National Monument would prevent San Juan 
County Navajos and Ute Tribes from using the lands for the 
practicing of ceremonies, spiritual rejuvenation, gathering of 
herbs, firewood, cedar poles/posts, hunting, and caretaking of 
sacred places.''
    In a unanimously passed resolution from the Blue Mountain 
Dine' Community, they stated that they ``specifically disclaim 
the notion put forward by various environmental groups that 
their creation, the Dine Bikeyah, speaks for all local 
Navajos--they do not.'' They went on to say, ``We respect their 
intentions and their efforts, but we disagree that the creation 
of an Inter-Tribal National Monument will be in the best 
interests and welfare of not only local Navajo people, but of 
all locals who love the land of their heritage.''
    After the designation, Suzette Morris, a Ute Mountain Ute 
member, said, ``We have cemeteries up there, and I don't want 
our ancestors to be put in museums. We all have a fight, and we 
all are going to continue to fight for this to be rescinded.''
    At our PLI hearing last September, Commissioner Benally 
stated, ``Bears Ears National Monument campaign is a cynical 
political stunt that, if successful, will deny grassroots Utah 
Navajos access to their sacred and spiritual grounds. 
Traditional Utah Navajo people depend on that land for their 
necessities of life: to gather medicinal plants, firewood, 
pinon nuts, as well as to hunt and practice sacred 
ceremonies.''
    ``Traditional Utah Navajo people are not conspiring with 
lawyers in boardrooms in Salt Lake and San Francisco. 
Traditional Utah Navajo people are not collecting $20 million 
from the Hewlett Packard Foundation and Leonardo DiCaprio to 
sponsor this toxic divide-and-conquer campaign. Traditional 
Utah Navajo people are not magazine environmentalists, but are 
real stewards of the land, whose interests will be destroyed by 
a Bears Ears National Monument.''
    ``Grassroots Utah Navajo people do not support this effort 
to convert our sacred lands into a Federal designation that 
will subject them to micromanagement by bureaucrats in 
Washington, DC.''
    And finally, a local group known as the Stewards of San 
Juan, who represent diverse interests including tribal 
representation, in their letter to Secretary Zinke stated the 
following, ``The majority of Navajo and Ute residents in San 
Juan County overwhelmingly oppose the monument designation, in 
contrast to out-of-county and out-of-state tribes who know very 
little of this area, and will simply not be affected by this 
monument. It is appalling that non-local voices have drowned 
out those who treasure this land the most.''
    They continued, ``This monument was designated in order to 
appease outside special interest groups. It was done without a 
robust consultation with the stakeholders who actually live in 
San Juan County. Voices of life-long residents and tribal 
members have been, and continue to be, blatantly ignored. Non-
government organizations such as the Bears Ears Inter-Tribal 
Coalition, Southern Utah Wilderness Alliance, and Conservation 
Lands Foundation should never have power to trump sovereign 
state rights, nor duly elected officials, no matter how big 
their wallets are. When the former Interior Secretary visited 
our state, she prioritized her time to meet with those outside 
groups and those that would only be marginally affected by the 
monument itself.''
    I hope those who are listening today will remember those 
voices. Those are the voices that have been excluded from the 
conversation. Those are the ones President Obama ignored when 
he designated Bears Ears National Monument. And it is about 
time those voices were actually heard. I yield back.
    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    Anybody who knows me knows that I typically don't like to give 
opening statements at these hearings. But I felt as though I must speak 
out at today's hearing about the misrepresentations surrounding Bears 
Ears National Monument.
    Never in my 14 years of Congress have I seen such a concerted 
effort to suppress the voices of local tribes by such powerful, deep-
pocketed opponents. No local tribe in San Juan County, Utah, where the 
National Monument is located, supported this designation. But most do 
not know this, because it is barely reported.
    When my staff has called to correct reporters on their 
misrepresentations, they've been told the voices of these local Navajo 
are ``unpersuasive.''
    Members of this Committee have called Rebecca Benally, the Navajo 
woman elected to represent this area as a County Commissioner, a 
``token'' Navajo who opposes the designation.
    I cannot even begin to describe how disrespectful and demeaning 
this dismissive language is to her, and to the local people and tribes 
in this area.
    So, today, instead of using this time to give my opening statement, 
I'd like to read some comments from the local tribes in Utah, so that 
people will finally listen to them.
    The Aneth Chapter of Navajo, which is the only Navajo chapter made 
up of tribal members exclusively from Utah and represents 50 percent of 
the Navajo in San Juan County, stated in a resolution that the National 
Monument would prevent ``San Juan County Navajos and Ute Tribes from 
using the lands for the practicing of ceremonies, spiritual 
rejuvenation, gathering of herbs, firewoods, cedar poles/posts, 
hunting, and caretaking of sacred places.''
    In a unanimously passed resolution from the Blue Mountain Dine' 
Community, they stated that they ``specifically disclaim the notion put 
forward by various environmental groups that their creation, the Dine 
Bikeyah, speaks for all local Navajos--they do not. We respect their 
intentions, and their efforts, but we disagree that the creation of an 
Inter-Tribal National Monument will be in the best interests and 
welfare of not only local Navajo people, but of all locals who love the 
land of their heritage.''
    After the designation, Suzette Morris, a Ute Mountain Ute member, 
stated, ``We have cemeteries up there and I don't want our ancestors to 
be put in museums'' and ``We all have a fight and we all are going to 
continue to fight for this to be rescinded.''
    At our PLI hearing last September, Commissioner Benally stated, 
``Bears Ears National Monument campaign is a cynical political stunt 
that, if successful, will deny grassroots Utah Navajos access to their 
sacred and spiritual grounds. Traditional Utah Navajo people depend on 
that land for their necessities of life: to gather medicinal plants, 
fire wood, pinon nuts, as well as to hunt and practice sacred 
ceremonies. Traditional Utah Navajo people are not conspiring with 
lawyers in board rooms in Salt Lake City and San Francisco. Traditional 
Utah Navajo people are not collecting $20 million from the Hewlett and 
Packard foundations and Leonardo DiCaprio to sponsor this toxic divide-
and-conquer campaign. Traditional Utah Navajo people are not magazine 
environmentalists but are real stewards of the land whose interests 
will be destroyed by a Bears Ears National Monument. Grassroots Utah 
Navajo people do not support this effort to convert our sacred lands 
into a Federal designation that will subjugate them to micromanagement 
by bureaucrats in Washington, DC.''
    And finally, a local group known as the Stewards of San Juan, who 
represent a diverse set of interests in the County and have local 
tribal representation on their Board of Directors, sent a letter to 
Secretary Zinke stating the following: ``The majority of Navajo and Ute 
residents in San Juan County overwhelmingly oppose the monument 
designation, in contrast to out-of-county/state tribes who know very 
little of this area and will simply not be affected by this monument. 
It is appalling that non-local voices have drowned out those who 
treasure this land the most.''
    They continued that: ``This monument was designated in order to 
appease outside special interest groups. It was done WITHOUT a robust 
consultation with the stakeholders who actually live in San Juan 
County. Voices of life-long residents and tribal members have been, and 
continue to be, blatantly ignored. Non-government organizations such as 
the Bears Ears Inter-Tribal Coalition, Southern Utah Wilderness 
Alliance, and Conservation Lands Foundation should never have the power 
to trump sovereign state rights, nor duly elected officials, no matter 
how big their wallets are. When the former Interior Secretary visited 
our state, she prioritized her time to meet with these outside groups 
and those that would only be marginally affected by the monument.''
    I hope that those listening today will remember these voices, the 
ones that have been excluded from this conversation and the ones that 
President Obama ignored when he designated Bears Ears National 
Monument.

                                 ______
                                 

    Mr. McClintock. The Chair is now pleased to recognize the 
Ranking Member of the House Natural Resources Committee, 
Congressman Grijalva of Arizona, for 5 minutes.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. I ask unanimous consent to submit my 
statement for the record. And also to submit a letter from 450 
organizations and millions of members to those organizations 
across the country to President Trump and Secretary Zinke and 
Secretary Ross, expressing their unified opposition to any 
efforts to remove or decrease protections of any national 
monument. I would like to enter those two in the record, my 
statement and the letter.
    Mr. McClintock. Without objection.
    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Since Congress passed the Antiquities Act in 1906, giving 
presidents the authority to set aside Federal lands for their historic 
and scientific interest, 16 of 19 presidents have done so.
    That list of monuments includes places as diverse as the Grand 
Canyon in my home state of Arizona, to the Birmingham Civil Rights 
National Monument in Alabama. That enduring legacy is why monuments are 
so popular. A recent Colorado College poll found that 80 percent of 
western voters support existing monument designations.
    You can't find a more popular government program. And yet we're 
here today because my colleagues in the Majority want to destroy the 
law and potentially even abolish existing national monuments.
    The American people want a strong economy, well-preserved public 
lands and plenty of natural open spaces. Contrary to what you hear from 
my Republican colleagues, we can and we will do all three. We know that 
national monuments provide all of those things. Just last week, the 
Outdoor Retailers Association released a new report that found outdoor 
recreation supports more than 7.6 million American jobs and leads to 
$887 billion in direct consumer spending.
    That's why the President's Executive Order to ``review'' some 
national monument designations was so unusual and so upsetting. One 
would have expected a self-proclaimed business expert to recognize the 
tremendous economic potential of conserving our public lands, but it 
appears he does not.
    If President Trump insists on managing our national parks and 
monuments like he managed his business ventures, he will bankrupt 
America's outdoor legacy and the many local economies and small 
businesses that depend on public lands. The sheer diversity of 
historic, cultural, and natural treasures that have been protected by 
the Antiquities Act is the primary reason local communities, from Maine 
to Hawaii, oppose Trump's Executive Order and view an attack on one 
national monument as an attack on them all.
    As we saw with the planning process for Bears Ears, national 
monuments are established after years of close Federal consultation 
with multiple local stakeholders. After it became clear that the 
legislative effort to protect this area fell short, overwhelming tribal 
support for the designation became evident. Thirty Native American 
tribes--including the Hopi Tribe, the Navajo Nation, the Ute Mountain 
Ute Tribe, Pueblo of Zuni and the Ute Indian Tribe--support the 
presidential proclamation.
    Elections have consequences, and if President Trump has no interest 
in joining the long line of his predecessors who identified and 
preserved new national monuments, that is his decision. If the only 
monuments Donald Trump wants are hotels, so be it. But the national 
monuments established by his predecessors are not subject to Donald 
Trump's whims. Attempting to wipe national monuments off the map with 
the stroke of a pen would be illegal and unpopular, and this review 
will show as much.
    No President has attempted to revoke a national monument--for good 
reason. Congress has not delegated the authority to rescind a national 
monument to the President. Only Congress can reverse a national 
monument designation.
    This hearing is likely the start of a prolonged debate over the 
future of the Antiquities Act--a law signed by President Roosevelt, who 
once said that ``natural resources must be used for the benefit of all 
our people, and not monopolized for the benefit of a few.'' Without 
that wisdom and foresight, who knows what our system of public lands 
would look like today.
    The Antiquities Act, national monuments and our public lands have 
long endured attacks from extraction companies and their allies in the 
White House and Congress. Industry railed against Roosevelt's 
designation of Grand Canyon National Monument--it is now one of our 
most cherished public places.
    Sometimes it takes leadership and vision to prioritize long-term 
conservation of our most treasured resources, over the allure of short-
term economic gains. That's exactly why the Antiquities Act is so 
important. It allows the President to put preservation over profits, 
something that Congress isn't always able or even willing to do.
    When President Trump and House Republicans seek to destroy the 
Antiquities Act and the special places it has protected, they place 
themselves squarely on the wrong side of history. Those of us who 
support monuments and the Act intend to prove that.

                                 ______
                                 

    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. McClintock. The gentleman yields back?
    Mr. Grijalva. I yield back, sorry.
    Mr. McClintock. Very well. That concludes the opening 
statements, and we will now hear from our witnesses. I want to 
remind them that, under our Committee Rules, oral statements 
are limited to 5 minutes, but your full statements will be 
included in the Committee record.
    The microphones are not automatic. You will need to press 
the on button when you begin your testimony. We have a helpful 
lighting system to keep you within the 5-minute guardrails. At 
1 minute the light will turn yellow, and at red it means we 
have all stopped listening, so you might as well stop talking.
    So, I thank you all for being here today, and the Committee 
is honored to have with us as our first witness, the governor 
of the state of Maine, the Honorable Governor LePage.

  STATEMENT OF THE HON. PAUL LePAGE, GOVERNOR OF THE STATE OF 
                     MAINE, AUGUSTA, MAINE

    Governor LePage. Good morning, Chairman McClintock, Ranking 
Member Hanabusa--sorry if I don't pronounce your names 
correctly--Chairman Bishop, Ranking Member Grijalva, and 
distinguished members of the House Subcommittee on Federal 
Lands. I appreciate your invitation to address the Committee 
today.
    I would like to take this valuable opportunity to share the 
concerns of myself and most Maine citizens with regard to the 
recent designation of the Katahdin Woods and Waters National 
Monument in northern Maine by former President Obama. I hope my 
testimony and recommended changes to the Antiquities Act would 
be beneficial to the Committee's review of this law, as well as 
to the American people.
    Maine has a long history of prudent stewardship of its 
forest resources with minimal Federal assistance. This is 
because Maine citizens and landowners show great respect for 
our natural resources, and they understand the importance of 
conserving it for future generations. Our state is committed to 
supporting the forest products industry, while at the same time 
strategically conserving valuable tracts of land.
    Maine State Parks have been an excellent example of 
conserving land, while also balancing commercial needs, 
recreation, and resource values. Mainers understand the 
benefits of our 17 million acres of forest to our economy, and 
we have historically supported the industries that rely on this 
land without interference from the Federal Government.
    That is why it should be no surprise that the designation 
of this Monument on a former working forest by former President 
Obama is very concerning to Maine residents living in the area 
and around the state. The National Park Service seems to 
blatantly disregard key indicators of this opposition.
    In 2015, three local communities held non-binding 
referendums to measure the support for a national park in the 
area. All three of these communities voted overwhelmingly 
against it. East Millinocket voted 63 percent to 37 percent 
against it. Medway voted 71 percent to 29 percent against it. 
Patten voted 70 percent to 30 percent against it.
    The Quimby family, who owned much of this cutover 
forestland that was proposed for a national park then 
immediately moved to plan B, which was to lobby Washington, DC, 
for the designation of a national monument instead.
    In response to this change of tactic, the Maine Legislature 
in 2015 enacted bipartisan legislation which I submitted 
requiring legislative approval for a national monument 
designation in Maine. Unfortunately, the former president and 
the National Park Service did not let these facts get in the 
way. Instead, they sided with special interest groups over the 
views of the Maine people and a State law.
    The only major selling point to attracting visitors to this 
newly established National Monument is the view of Mount 
Katahdin. This is somewhat ironic, because Mount Katahdin is 
already under conservation in Maine's premiere Baxter State 
Park, which I would argue is one of the greatest wilderness 
parks east of the Rocky Mountains.
    This beautiful park has some interesting history. Former 
Maine Governor, Percival Baxter, purchased Mount Katahdin and 
the land around it, then donated it to the state of Maine in 
1931, with the condition that it be kept forever wild. Baxter 
State Park has held to that condition. It is now over 200,000 
acres in total size, and is located just west of the designated 
Monument. Governor Baxter was a strong opponent of the Federal 
Government controlling land in the Katahdin region, and for 
good reason.
    Baxter State Park can support its current level of use, 
while still being able to preserve its mandated mission of 
protecting the forest resource. I fear that if the visitors of 
Katahdin Woods and Waters National Monument become uninspired 
by this portion of cutover forestland, there will be an 
unmanageable surge of demand to Baxter State Park.
    Not long after the former president designated the National 
Monument, Maine residents started to feel negative effects of 
having the Federal Government as their new master. The National 
Park Service re-decked the bridge, which has crossing rights 
over with little or no notice to the bridge owners. The 
National Park Service also conducted culvert work on some roads 
without sufficient notice to the public, causing long delays 
for some logging trucks. There have also been reports of near 
collisions between passenger cars and timber trucks in this 
area. This land does not have the adequate infrastructure to 
meet the needs of commercial vehicles and visitor traffic.
    Another impact by the monument designation is the loss of 
connectivity to ATV trails in the area. My administration is 
working with ATV clubs and private landowners to remedy this 
issue quickly.
    I will answer questions at your request.
    [The prepared statement of Governor LePage follows:]
 Prepared Statement of Hon. Paul LePage, Governor of the State of Maine
    Chairman McClintlock, Ranking Member Hanabusa and distinguished 
members of the House Subcommittee on Federal Lands, I appreciate your 
invitation to address the Committee today.
    I would like to take this valuable opportunity to share the 
concerns of myself and most Maine citizens with regard to the recent 
designation of the Katahdin Woods and Waters National Monument in 
northern Maine by former President Obama. I hope my testimony and 
recommended changes to the Antiquities Act will be beneficial to the 
Committee's review of this law, as well as the American People.
    Maine has a long history of prudent stewardship of its forest 
resources with minimal Federal assistance. This is because Maine 
citizens and landowners show great respect for our natural resources, 
and they understand the importance of conserving it for future 
generations. Our state is committed to supporting the forest products 
industry, while at the same time strategically conserving valuable 
tracts of land. Maine's State Parks have been an excellent example of 
conserving land, while also balancing commercial needs, recreation and 
resource values.
    Mainers understand the benefits of our 17 million acres of forests 
to our economy, and we have historically supported the industries that 
rely on this land without interference from the Federal Government. 
That is why it should be no surprise that the designation of this 
Monument on a former working forest by former President Obama is very 
concerning to Maine residents living in this area and around the state. 
The National Park Service seemed to blatantly disregard key indicators 
of this opposition.
    In 2015, three local communities held non-binding referendums to 
measure the support for a National Park in the area. All three of these 
communities voted overwhelmingly against it. East Millinocket voted 
63%-37%, or 320-191 against; Medway voted 71%-29%, or 252-102 against; 
and Patten voted 70%-30%, or 121-53 against Federal control of state 
land.
    The Quimby family, who owned much of this cutover forestland that 
was proposed for a National Park, then immediately moved to Plan B, 
which was to lobby Washington, DC for the designation of a National 
Monument instead. In response to this change of tactic, the Maine 
Legislature in 2016 enacted bipartisan legislation--which I submitted--
requiring legislative approval for a National Monument designation in 
Maine. Unfortunately, the former President and the National Park 
Service didn't let these facts get in the way. Instead, they sided with 
special-interest groups over the views of most Maine people and a state 
law.
    The only major selling point to attracting visitors to this newly 
established National Monument is the view of Mt. Katahdin. This is 
somewhat ironic because Mt. Katahdin is already under conservation in 
Maine's premier Baxter State Park, which I would argue is one of the 
greatest wilderness parks east of the Rocky Mountains. This beautiful 
park has some interesting history.
    Former Maine Governor Percival P. Baxter purchased Mt. Katahdin and 
land around it, then donated it to the state of Maine in 1931 with the 
condition that it be kept forever wild. Baxter State Park has held to 
that condition. It is now over 200,000 acres in total size and is 
located just west of the designated Monument. Governor Baxter was a 
strong opponent of the Federal Government controlling land in the 
Katahdin region--and for good reasons.
    Baxter State Park can support its current level of use, while still 
being able to preserve its mandated mission of protecting the forest 
resource. I fear that when the visitors to the Katahdin Woods and 
Waters National Monument become uninspired by its portions of cutover 
forestland, there will be an unmanageable surge of demand to Baxter 
State Park.
    Not long after the former President designated the Monument, Maine 
residents started to feel the negative effects of having the Federal 
Government as their new master. The National Park Service re-decked a 
bridge, which it has crossing rights over, with little or no notice to 
the owner of the bridge.
    The National Park Service also conducted culvert work on some roads 
without sufficient notice to the public, causing long delays for some 
logging trucks. There have also been reports of near collisions between 
passenger cars and timber trucks in the area. This land does not have 
adequate infrastructure to meet the needs of commercial vehicles and 
visitor traffic.
    I expect the $40 million endowment offered by the Quimby family 
will be spent much faster than expected. As a comparison, Acadia 
National Park in Maine had a deferred maintenance backlog in 2015 of 
over $60 million which has already completely burnt flat back in 1948.
    Another impact by the monument designation is the loss of 
connectivity for ATV trails in the area. My administration is working 
with ATV clubs and private landowners to remedy this issue as quickly 
as possible.
    I believe, along with many other Maine residents, that former 
President Obama never should have designated this area as a National 
Monument. The original intent of the Antiquities Act was to ``reserve 
the smallest area compatible with the proper care and management'' of 
the land. Further, it was intended to protect endangered areas and 
artifacts that were immediately threatened. This cutover forestland was 
not worthy of any such designation--I believe it was simply the product 
of Washington politics.
    I would like to respectfully offer some recommendations to this 
Committee as it reviews the Antiquities Act. I believe the law should 
be amended to require local approval before the President can 
unilaterally designate a National Monument. This support should include 
approvals from the state's governor and legislature.
    There should also be clear evidence that such a designation is 
needed to protect endangered areas or areas of historic or scientific 
interest, which is what the original purpose of the Antiquities Act 
was. These kinds of checks and balances will ensure a good relationship 
between states and the Federal Government.
    In conclusion, I hope the issues I have raised today are helpful to 
Committee members during your review of the Antiquities Act. I would be 
pleased to answer any questions the Committee may have.

                                 ______
                                 

Questions Submitted for the Record to Hon. Paul R. LePage, Governor of 
                                 Maine
        Questions Submitted by the Subcommittee on Federal Lands
    Question 1. Do you think the National Park Service has the adequate 
expertise to manage this land, which has historically been a working 
forest and requires active management to maintain its health and 
resiliency in the face of wild fires, insects, and disease?

    Answer. I do not believe that the National Park Service (NPS) has 
the adequate expertise to manage this land which was a former working 
forest. The state of Maine and private landowners have a better 
understanding of how to properly maintain our forest and protect them 
from wildfires, insects and diseases.
    The state currently has over 800,000 acres of fee ownership 
predominately in forestland. These lands are dedicated to specific uses 
with about 100,000 acres dedicated to wildlife management, 94,000 acres 
dedicated to ecological reserves, 85,000 acres of developed parks, 
430,000 acres of multiple use forests dedicated to low impact and 
backcountry recreation--and the remainder is in water, wetlands, steep 
areas and very rough terrain.
    As I mentioned during the hearing, I would support having the state 
manage this land. With the state's expertise in managing forestland for 
multiple uses and the proximity of about 10,000 acres of such land 
adjacent to the Monument, there exists a tremendous opportunity for the 
state to enhance the usefulness of the Monument land to Maine and the 
Nation.
    As the Committee knows, forest fires are a major concern to the 
management of forests. The National Interagency Fire Center has 
statistics to show that in 2016 the total number of state jurisdiction 
fires was 40,705 and Federal jurisdiction fires were 27,038. However, 
the amount of state jurisdiction acreage burned was 1,678,538 compared 
to 3,831,457 acres burned under Federal jurisdiction. These stats show 
that states do a much better job protecting their forest land. 
Management of this land by the state could help to further protect this 
land from forest fires.
    Maine is also threatened by the spruce budworm which will be 
entering Maine from our northern border with Canada in 3-5 years. I saw 
firsthand the devastation from the last outbreak in the 1970s-1980s 
which killed millions of acres of spruce-fir forests and cost the Maine 
economy hundreds of millions of dollars. In order to combat this insect 
private landowners and the state need to harvest as many of these 
species of trees as possible before they are killed. I am afraid that 
these species within the Monument will suffer devastating losses when 
the Spruce Budworm takes full grip in Maine because timber harvesting 
is prohibited within the Monument. The Maine Forest Service and private 
landowners are well aware of this upcoming epidemic and are much better 
prepared to handle it than the NPS.
    The state of Maine has a proven record of being good stewards of 
our natural resources. This land could be managed by the state in a way 
that conserves valuable areas while also increasing opportunities for 
timber harvesting and recreational activities. The National Park 
Service would not be able to manage it in this way.

    Question 2. If the state managed this land, how much would be open 
to recreational activities such as hunting or snowmobiling?

    Answer. All of it with the exception of any land that may be 
subject to deed restrictions, and any areas determined by management 
planning to require special protection. The land would be managed to 
allow for both commercial harvesting and public recreation.
    The state would immediately move to restore the many miles of 
snowmobile and ATV trails that were eliminated when the Quimby family 
purchased the land. I have attached a map which clearly shows the 
snowmobile and ATV trails which were eliminated when the Quimby family 
took over the land and also the areas where hunting was eliminated. I 
have also attached a letter from the Maine Professional Guides 
Association with their concerns that the Park System is not ``guide 
friendly.'' The letter goes on to say ``. . . the promised economic 
benefit from the new Monument will not be accruing to our member's 
businesses in the short term even after the issue was brought up in an 
open public meeting.'' Attached please also find correspondence from 
constituents expressing their concerns with a national park or monument 
in northern Maine.
                  Questions Submitted by Rep. Hanabusa
    Question 1. Can you confirm the percentage of Maine 's income based 
on tourism?

    Answer. The estimated percentage of Maine's income based on tourism 
was about 6.6 percent in 2016. Total earnings supported by tourism was 
about $2.6 billion and the total earnings by place of work was about 
$39 billion. I have attached some supporting documents showing that 
about \2/3\ of visitor spending is along the coast of Maine. I believe 
that even with the designation of the Katahdin Woods and Waters 
National Monument it will be difficult to attract those coastal 
visitors to northern Maine.

    Question 2. Please explain the type of timber harvesting activity 
authorized in Baxter State Park and what percentage of the 200,000 
acres it entails. Please include a description of active timber sales 
and forest management projects.

    Answer. Governor Baxter decided late in the acquisition of the park 
to include an area for timber harvesting. His allowance for timber 
harvesting coincided with his acquisition of forestland that supported 
mature timber. About 14 percent of the Park is available for harvesting 
with such activity located in the northwest corner.
    Simply put, harvest levels on Baxter State Park are sustainable 
indefinitely with entries to harvesting on the same area done 
infrequently. Forest management relies on timber harvesting to perform 
all cultural work. Natural regeneration is solely relied on and no 
chemical methods are used to control vegetation issues. The harvesting 
vendor or contractor markets the wood to various mills and pays Baxter 
State Park at a negotiated price. The contractor also builds and 
maintains the roads used for harvesting purposes.

    Question 3. Are hunting and fishing allowed in Baxter State Park?

    Answer. Hunting and trapping is allowed on 54,682 acres which is 
approximately 26 percent of the park.

                                 *****

[The following documents were submitted as attachments to Governor 
LePage's responses. These documents are part of the hearing record and 
are being retained in the Committee's official files:]

    --  Letter dated May 24, 2017 from Governor LePage to Secretary 
            Ryan Zinke, Department of the Interior

    --  ``What Maine Has Lost,'' Map of Katahdin Woods and Waters 
            National Monument

    --  Letter dated May 22, 2017 from the Maine Professional Guides 
            Association to Governor LePage.

    --  Correspondence from constituents expressing their concerns with 
            a national park or monument in northern Maine.

                                 ______
                                 

  Supplemental Testimony from Governor LePage Submitted for the Record

    Dear Chairman McClintock and Ranking Member Hanabusa,

    I greatly appreciated the invitation extended by your Committee to 
me to present testimony during the ``Examining the Consequences of 
Executive Branch Overreach of the Antiquities Act'' on May 2, 2017. The 
hearing was a great opportunity for members of the Committee to hear 
firsthand how some recent National Monument designations by former 
President Obama have negatively affected states around the country. I 
applaud your efforts to review the Antiquities Act and to consider 
reforms which will ensure the integrity of the law. I encourage the 
Committee to seriously consider reforms that will ensure stakeholder 
input is considered by the President.

    I would like to address a statement during the hearing from Lucas 
St. Clair who I believe misrepresented the outreach extended to me. My 
office cannot find any written correspondence from him addressed to me 
inviting my input on the consideration of a national monument in 
northern Maine. He did meet with one of my staff members, but as a 
courtesy he should have asked for the sitting Governor's opinion.

                                 ______
                                 

    Mr. McClintock. Great. Governor LePage, thank you again for 
your testimony and for being here today.
    The Chair is now pleased to recognize Ms. Kathleen Clarke, 
Director of the Utah Public Lands Coordinating Office.

   STATEMENT OF KATHLEEN CLARKE, DIRECTOR, UTAH PUBLIC LANDS 
        POLICY COORDINATING OFFICE, SALT LAKE CITY, UTAH

    Ms. Clarke. Thank you, Chairman Bishop, Chairman 
McClintock, Ranking Members Hanabusa and Grijalva, members of 
the Committee. Thank you for this opportunity to speak to you 
today about national monuments, clearly a subject of intense 
and emotional discussion.
    Specifically, I want to discuss two National Monuments in 
the state of Utah that are landscape-scale: Grand Staircase-
Escalante National Monument, which was created in 1996; and 
Bears Ears National Monument, created recently. I do not wish 
to go into the legality of these presidential proclamations, 
nor do I intend to address the politics that fostered them, 
although I am convinced that in both cases politics was a 
greater factor than was protection of antiquities.
    What I want to discuss with you this morning are the actual 
effects these monuments have had and will continue to have on 
individuals and communities that are directly impacted, and 
upon the very objects that they are ostensibly intended to 
protect.
    Utah has been both a beneficiary and a victim of the 
Antiquities Act. With respect to Grand Staircase and Bears 
Ears, the burdens outweigh the benefits, largely due to the 
enormous size of these monuments. To put the enormity into 
perspective, the area of Utah's five very famous national parks 
totals about 835,000 acres for our five parks, compared to over 
3 million for two landscape national monuments. The lands 
within Grand Staircase and Bears Ears are not only vast and 
breathtakingly beautiful, but they are harsh, arid, and 
unforgiving.
    The bravely determined individuals who settled these lands 
at the behest and with the encouragement of the Federal 
Government somehow overcame these obstacles to establish 
families, livelihoods, and communities that sparsely populate 
the areas today. The individuals who now live on or near these 
monuments are largely directly descendants of early 
homesteaders, farmers, miners, and ranchers.
    So, what does the creation of a national monument on these 
lands do to people's lives and culture?
    First of all, overnight their relationship with their 
beloved environment and their land-based cultures are changed.
    Extractive industries which have, for over 100 years, 
provided jobs for residents and revenues for businesses and 
local governments are now prohibited.
    The Grand Staircase Monument locked up over 11 billion tons 
of recoverable coal, and forced the shutdown of a fully 
permitted coal mine in Kane County. The creation of these huge 
monuments has unnecessarily had significant and negative impact 
on traditional uses of these lands. The stated objective, both 
of Bears Ears and Grand Staircase, is to properly protect 
Native American ancient cultural sites from looting and 
desecration.
    However, archeological studies worldwide reflect the fact 
that greater access to antiquities sites leads to greater, not 
less, destruction. This phenomena has, in fact, been documented 
on existing national monuments in the Southwest; and the 
problem is greatly exacerbated with the sheer size of the 
monuments and the number of antiquities sites.
    A 1987 GAO report considered problems associated with 
protecting monuments in the Four Corners area. It recognized 
that, given the vast area, it was virtually impossible to 
provide any type of physical protection. What this tells us is 
that the creation of million-acre-plus national monuments to 
protect thousands of archeological sites is counterproductive. 
It is doing the wrong thing for the right reason, and it 
violates the mandate that the monuments be appropriately small.
    Any perceived benefits from the designation of huge 
landscape-scale monuments needs to be weighed against the 
impacts that are suffered by those who rely on the lands. 
Landscapes do not disappear, but jobs and artifacts do. 
National monuments should be judiciously employed so as not to 
do unwarranted damage to the local lives and cultures, either 
past or present.
    Thank you for the opportunity to share my testimony.
    [The prepared statement of Ms. Clarke follows:]
  Prepared Statement of Kathleen Clarke, Director, Utah Public Lands 
                       Policy Coordinating Office
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee, thank you for this opportunity to speak with you about 
National Monuments, a subject that is of intense and emotional 
discussion. More specifically, I want to focus on two recently created 
``landscape'' national monuments in the state of Utah: Grand Staircase 
Escalante (1996) and Bears Ears (2016). I do not wish to go into the 
legality of the presidential proclamations that established these 
monuments under the Antiquities Act. Nor do I intend to address the 
politics that fostered them, although I am convinced that, in both 
cases, politics was a greater factor than was the protection of 
antiquities. What I want to discuss with you this morning are the 
actual effects these monuments have had and will have upon the 
individuals and communities that are directly impacted, and upon the 
very objects that they are ostensibly intended to protect. I believe my 
service as BLM Director under President Bush, as well as my present 
position of Director of Governor Herbert's Public Lands Policy 
Coordinating Office, give me unique insight into these impacts.
    I enthusiastically join in the chorus in recognizing that Utah's 
five National Parks have been great assets to the state, as are the 
other national monuments and recreation areas within the state. 
However, Utah has been both a beneficiary and a victim of designations 
under the Antiquities Act. With respect to the Grand Staircase and the 
Bears Ears, the burdens outweigh the benefits, largely due to the 
enormous size of these monuments.
    To put the enormity of these two monuments into perspective, the 
area of all five of Utah's National Parks (Zion, Bryce, Canyonlands, 
Arches and Capital Reef) combined totals some 835,000 acres, far less 
acreage than in either Grand Staircase (1.9 million acres) or Bears 
Ears (1.3 million acres). Another way to look at it is that five Rhode 
Islands, or two and one-half Delawares, would fit within the combined 
areas of these two monuments.
    The lands within the Grand Staircase and the Bears Ears are not 
only vast and breathtakingly beautiful, but are also harsh, arid and 
unforgiving. The bravely determined individuals that settled these 
``waste lands,'' at the behest and with the encouragement of the 
Federal Government, somehow overcame these obstacles to establish 
families, livelihoods and the communities that sparsely populate the 
areas today. The individuals who now live on or near these monuments 
are largely direct descendants of the early homesteaders, farmers, 
ranchers, miners and timbermen that had only these Federal lands to 
sustain them. Many local residents today still live, work and draw 
their incomes from the very lands stewarded by their ancestors.
    So what does the creation of a national monument on these same 
lands do to these people's lives and their culture? First of all, 
overnight their relationship with their beloved environment and land-
based cultures are changed. Both proclamations creating the Grand 
Staircase and Bears Ears withdraw these millions of acres from all 
``entry, location, selection, sale [or] leasing.'' Extractive 
industries which have for over a hundred years provided jobs for 
residents and revenues for businesses and local governments are now 
prohibited. Government reports indicate that there are an estimated 
11.375 billion tons of recoverable coal on the Kaiparowits Plateau that 
are now inaccessible. One large coal project in Kane County that was 
fully permitted to tap this resource was abandoned upon the creation of 
the Grand Staircase.
    Families that have lived for generations in affected communities 
find their families torn apart due to lack of employment opportunities 
for the next generation. Populations are declining. In the 20 years 
since the creation of the Grand Staircase, school enrollment in 
Escalante has gone from 150 to 57 students. Neither seasonal employment 
associated with tourism and recreation, nor the rotating positions of 
BLM employees, contribute to the overall stability of these small 
communities.
    Even industries that remain authorized, such as grazing, find 
themselves under mounting pressures and restrictions. A survey 
conducted by Utah State University into economic impact on local 
communities of livestock grazing in the Grand Staircase concluded that 
(1) livestock grazing is essential to the economies of the Kane/
Garfield Counties economies and (2) that tourism and recreation cannot 
replace livestock grazing in the Grand Staircase without substantial 
additional investment. Yet, under pressure from NGOs that are committed 
to the removal of all grazing on the public lands, AUMs (animal unit 
months) have been decreased on the Monument by 25 percent. One 
permittee has had 917 of his permitted 1,302 AUMs suspended.
    The creation of these huge monuments has unnecessarily had 
significant and negative impacts upon the traditional uses of these 
lands and upon the lives and livelihoods of the local populations that 
have stewarded the lands for generations.
    The stated objective of both the Grand Staircase and the Bears Ears 
is to protect Native American ancient cultural sites from looting and 
desecration. However, due to the sheer size of these monuments, and the 
enormous number of antiquity sites within them, the inevitable result 
will actually be more looting and desecration.
    Keep in mind that Grand Staircase is 1.9 million acres and Bears 
Ears is 1.3 million acres. Each of these monuments is estimated to 
house upwards of 20,000 sites. Bears Ears could contain as many as 
100,000 sites depending upon site definitions. We don't really know for 
certain because only 10 percent to 20 percent of the monuments have 
been inventoried. These sites date back some 700 to 900 years, and are 
still there for two primary reasons. First, the areas are remote, 
somewhat inaccessible and have been lightly populated. Second, to the 
Native American, these sites have spiritual significance and are to be 
left alone.
    Archeological studies worldwide reflect the fact that greater 
access to antiquity sites leads to greater, not less, desecration. This 
phenomenon has been found to occur on existing national monuments in 
the Southwest. A 2009 study of factors contributing to antiquity site 
desecration and defacement at Canyon de Chelly National Monument in 
Arizona (Laris, J., A Perfect Pothunting Day (2009)) found that the 
greatest contributors were increased access together with its 
corollary, increased visitation. A 1997 paper that considered the 
impacts of the creation of the Grand Staircase on archeological sites 
within the Monument (Tipps, B., Archeology in the Grand Staircase 
Escalante National Monument: Research Prospects and Management Issues 
(1997)) confirmed the effects of increased visitation, concluding that: 
``Increased visitation significantly accelerates impacts to 
archeological sites.''
    This problem is greatly exacerbated by the sheer size of the 
monuments and the number of antiquity sites. A 1987 GAO Report 
(Problems of Protecting and Preserving Federal Archeological Resources 
(1987)) looked at the problems associated with protecting archeological 
sites in the Four Corners Area. It recognized that, given the vast area 
and the number of sites, it is virtually impossible to provide any type 
of physical protection. It also identified the several laws already in 
place that make looting and desecration a crime. The problem with the 
enforcement of these laws is with staffing and funding levels, not with 
whether it is a monument. While larger staffs may improve enforcement, 
it will remain impossible to truly protect the thousands of sites if 
access or visitation is dramatically increased. More people will always 
mean more looting and desecration.
    What this tells us is that the creation of million-acre plus acre 
national monuments to protect thousands of archeological sites is 
counter-productive. It is doing the wrong thing for the right reason. 
The Antiquities Act requires the monuments be ``confined to the 
smallest area compatible with the proper care and management of the 
objects to be protected.'' Neither the Grand Staircase nor the Bears 
Ears meets this test.
    The intent behind the Antiquities Act is laudable and a great deal 
of good has been accomplished nationwide through its exercise over the 
last 110 years. But there should be limits upon the nature of the 
objects that may be protected, and the size of monuments should be 
limited to that which allows optimal protections for those objects. Any 
perceived benefits from the designation of huge ``landscape'' monuments 
need to be weighed against the impacts suffered by those who have 
traditionally used the lands. Landscapes don't disappear, but jobs and 
artifacts do. Creating national monuments that will bring visitors from 
around the world won't protect antiquities, it will hasten their 
defacement and destruction. Southern Utah is not just a playground; nor 
is it just a science lab. Its lands have provided sustenance to those 
who have had the courage to make it their homes for hundreds of years. 
National Monuments should be employed judiciously so as not to do 
unwarranted damage to the lives and cultures, either present or past. 
The landscape monuments at the Grand Staircase and the Bears Ears as 
presently configured violate this mandate.

                                 ______
                                 

 Questions Submitted for the Record to Kathleen Clarke, Director, Utah 
                Public Lands Policy Coordinating Office
          Questions Submitted by Subcommittee on Federal Lands
    Question 1. What changes, if any, should be made to the Bears Ears 
National Monument to ensure it is properly managed and protected?

    Answer. The Public Lands Policy Coordinating Office does not have 
responsibility or authority to make recommendations on behalf of the 
state for modifications to the Bears Ears National Monument. The 
state's elected officials, including the Governor and congressional 
delegation, upon request from the President and the Secretary of the 
Interior, may provide recommendations regarding changes to effectively 
address the state's concerns regarding the monument lands and 
resources. Ultimately, the President will make the final determination 
regarding what changes, if any, are appropriate for the Bears Ears 
National Monument.

                  Questions Submitted by Rep. Hanabusa
    Question 1. A coalition of scientific and preservation groups--not 
to mention tribal governments--urged the President to designate the 
Bears Ears National Monument after the Public Lands Initiative 
legislative process faltered.
    They have publicly stated that, ``Bears Ears is one of the most 
significant cultural landscapes in the United States. It contains more 
than 100,000 cultural and archaeological sites associated with the 
Navajo, Ute, Hopi, and Pueblo people who consider this region their 
homeland . . . [it includes] Ice Age hunting camps, cliff dwellings, 
prehistoric villages and petroglyph and pictograph panels that tell the 
diverse stories of 12,000 years of human habitation.''
    Your testimony states that designating landscape size monuments to 
protect Native American antiquities is doing ``the wrong thing for the 
right reason'' and that ``we don't really know for certain because only 
10 percent to 20 percent of the monuments have been inventoried.'' 
Should the Federal Government prioritize the conservation of Native 
American cultural sites and objects? Is the size of national monument 
designations your main concern?

    Answer. The Federal Government should, and already has, prioritized 
the conservation of Native American cultural sites and objects. The 
national monument will do nothing to further the conservation of these 
items and, as explained in my original testimony, will in fact put 
these sites and objects at greater risk. The issue is not one of 
protection, but one of enforcement. It is not only the size of the 
national monument that causes concern, but also, among other things, 
the fact that proclaiming the Bears Ears National Monument will harm 
the resources it purports to protect.
    First, cultural resources are already protected by a host of laws. 
Additional regulation, instead of enforcement, will not conserve Native 
American cultural sites or objects. Second, Native American cultural 
practices are protected by law and executive order. The Bears Ears 
National Monument proclamation does not enhance these uses and may 
instead burden them. Third, a national monument proclamation does not 
mean that the area will receive additional funding, meaning that funds 
that could have been used for enforcement may instead be used in 
preparing a new management plan and promulgating more regulations. 
Finally, the nature and extent of archaeological resources in the Bears 
Ears National Monument is largely unknown because less than 10 percent 
of the Monument had been inventoried at the time the proclamation was 
issued. The Antiquities Act was never meant to apply to unknown 
objects.
    Proponents of the proposed national monument claimed that the land, 
including its archeological sites, is unprotected, despite the 
existence of several state and Federal statutes and regulations 
protecting various historical and archeological resources. These laws 
include the Antiquities Act, 54 U.S.C. Sec. Sec. 320101 et seq.; the 
Utah Antiquities Act, Utah Code Ann. Sec. Sec. 9-8-301 et seq.; the 
National Historic Preservation Act, 54 U.S.C.A. Sec. Sec. 300101 et 
seq.; the Archaeological Resources Protection Act, 16 U.S.C. 
Sec. Sec. 470aa et seq.; and the Native American Graves Protection and 
Repatriation Act, 32 U.S.C. Sec. 3001, et seq. These laws are more than 
sufficient to protect cultural resources if they would merely be 
enforced.
    As explained in my original testimony, National Monument 
designations do not further the protection of Native American cultural 
sites and resources. As discussed by Utah's Governor, Gary R. Herbert, 
in testimony before the U.S. Senate Committee on Energy and Natural 
Resources:

        In 2015, the Grand Staircase-Escalante had 1,400 reported cases 
        of vandalism. According to the BLM, there have been only 25 
        cases of vandalism reported in the Bears Ears region since 
        2011. That means the Grand Staircase, with its monument 
        designation, currently experiences 140 times the rate of 
        vandalism as does the Bears Ears region.

        Please do not misunderstand me: a single case of vandalism in 
        this area is too much. But the point remains, if we wish to 
        protect and preserve this area, drawing lines on a map that 
        will encourage increased visitation without a corresponding 
        increase in law enforcement and land management resources is 
        not a solution to vandalism and desecration problems. Indeed, 
        it will like [sic] worsen them.

    Accordingly, the worst thing that can be done for these sites, 
which have been preserved because of their remote location and lack of 
visitors, is to invite unsupervised visitors to an un-policed area 
where enforcement of existing land use protections are sorely lacking. 
There are many significant and stringent laws on the books protecting 
Native American resources; the issue is enforcing those laws rather 
than creating national monuments that will adversely affect the 
cultural resources within its boundaries.
    Second, a national monument proclamation will not increase 
protection of traditional Native American practices or activities. A 
monument proclamation is not needed to recognize such activities or 
allow them to continue; if anything the proclamation may be used to 
inhibit or burden the exercise of religious freedoms. Moreover, Native 
American religious practices are protected by law and executive order. 
The American Indian Religious Freedom Act, 42 U.S.C. Sec. 1996, 
provides that it is ``the policy of the United States to protect and 
preserve for American Indians their inherent right of freedom to 
believe, express, and exercise the traditional religions of the 
American Indian . . ., including but not limited to access to sites, 
use and possession of sacred objects, and the freedom to worship 
through ceremonials and traditional rites.'' Similarly, Executive Order 
No. 13007 (May 24, 1996) provides that ``[i]n managing Federal lands, 
each executive branch agency with statutory or administrative 
responsibility for the management of Federal lands shall, to the extent 
practicable, permitted by law, and not clearly inconsistent with 
essential agency functions, (1) accommodate access to and ceremonial 
use of Indian sacred sites by Indian religious practitioners and (2) 
avoid adversely affecting the physical integrity of such sacred 
sites.''
    Management restrictions, such as group limitations and permit 
requirements, may inhibit the exercise of Native American religious 
practices. In the Grand Staircase-Escalante National Monument, for 
example, without a permit groups over 25 people are allowed in only 4 
percent of the Monument, and in 65 percent of the Monument group sizes 
are limited to 12 people. Fuel wood harvesting is only allowed in two 
very small areas and collection of natural materials by Native 
Americans is allowed only pursuant to a BLM permit.
    Third, the Antiquities Act grants no authority whatsoever for the 
President to fund the national monument designation. National monument 
designations do not automatically result in funding and at least one 
Member of Congress has proposed refusing to fund the Bears Ears 
National Monument. What limited funding available for the land and 
resources in the Bears Ears region will likely be applied to preparing 
the management plan and regulations mandated by the proclamation, not 
enforcing existing laws. No amount of additional regulation will 
protect the resources without enforcement of existing laws that more 
than adequately protect the resources.
    Finally, the Antiquities Act was never meant to apply to unknown 
objects or to allow for large, landscape level reservations. It is 
impossible to reserve the smallest area compatible with the care and 
management of the object when you don't know what the object is or 
where it is located. As of early 2017, there were 8,480 known 
archaeological sites in the Bears Ears National Monument and 27,734 
known sites county-wide. Accordingly, the assertions regarding 100,000 
archaeological sites are merely estimates of the number of sites that 
may exist. Approximately 9 percent of the land within the Bears Ears 
National Monument's boundaries has been inventoried, meaning that 
around 90 percent of the Monument has not been inventoried and unknown 
archaeological sites in uninventoried areas cannot be used as the basis 
of a reservation.
    The Antiquities Act allows the President to ``reserve parcels of 
land as part of the national monuments,'' but limits these reservations 
to ``the smallest area compatible with the proper care and management 
of the objects to be protected.'' 54 U.S.C. Sec. 320301(b). By its 
express terms, the Antiquities Act prescribes an ``inside out'' 
approach. This means that the national monument objects must be 
identified first, followed by a reservation of land that is the 
smallest necessary to protect those objects. If the location of the 
objects is unknown, unsurveyed, or uninventoried, then a reservation of 
land for their care and management is inappropriate. The Antiquities 
Act does not allow for the drawing of an arbitrary boundary followed by 
a description of whatever items may be located on the land.
    This ``inside out'' approach was used in early proclamations, but 
has been abandoned in recent years in favor of locking away large 
parcels of land. For example, Devil's Tower, the first National 
Monument, is a singular monolith for which just over 1,000 acres was 
reserved. Other early monuments include El Morro National Monument, 
which is a lone sandstone bluff containing inscriptions spanning 
hundreds of years; Montezuma Castle, which is a small area containing 
isolated Native American ruins; Petrified Forest, an area containing 
large petrified wood trees; Chaco Canyon, a solitary canyon containing 
numerous large ruins; Cinder Cone and Lassen Peak National Monuments, 
which included two volcanic peaks, a lava field, and two lakes; and 
Gila Cliff Dwellings, which is a small area containing Native American 
ruins. More recent designations, on the other hand, have used an 
``outside in'' approach, which first identifies the area that various 
special interest groups would like to see designated as a monument and 
then catalogues every item that may potentially be located on that 
land, regardless of whether the location is known or fixed. This method 
of drawing the reservation first and then identifying what objects 
might exist in that reservation, is inconsistent with the Antiquities 
Act's express terms and a gross abuse of the limited reservation 
authority that was granted.
    The recent Bears Ears National Monument is a prime example of the 
outside-in approach adopted in recent years. Using boundaries largely 
borrowed from proposed legislation, the proclamation catalogues every 
item that may be located inside the Monument, regardless of whether its 
location is fixed or known. Items identified in the proclamation 
include intangible qualities such as star-filled nights, natural quiet, 
and deafening silence and common plants and animals such as greasewood, 
sagebrush, mule deer, coyotes, and porcupines. Less than 10 percent of 
the Monument has been inventoried for archaeological resources, which 
have been showcased as the primary justification for the Monument. 
Given that the location of items identified in the proclamation is 
largely unknown and unfixed, the boundaries could not possibly be the 
smallest area compatible with the objects' care and management. The 
ambient, common, unfixed, and unknown items, along with many other 
potential monument objects identified in the proclamation, are well 
outside the original intent of the Antiquities Act.
    The Grand Staircase-Escalante National Monument, proclaimed in 
1996, suffers from many of the same defects as the Bears Ears National 
Monument. Grand Staircase-Escalante contains 1.7 million acres of land 
and was proclaimed, in part, to prohibit a proposed coal mine. The 
items mentioned in the proclamation, which are argued to be ``objects'' 
under the Antiquities Act, include ``clearly exposed stratigraphy and 
structures''; ``1,600 square miles of sedimentary rock''; ``cultural 
resources discovered so far . . .'' and ``undocumented sites''; 
``unusual and diverse soils''; ``pinon-juniper communities''; 
``abundance of packrat middens''; and ``wildlife.'' These common 
objects do not warrant reservation of 1.7 million acres for their 
protection. It should be noted that portions of the descriptive 
language from the Grand Staircase-Escalante National Monument 
proclamation were later recycled and incorporated into the Grand 
Canyon-Parashant National Monument proclamation, showing the generic 
nature of the proclamation.

    Question 2. The notion that Antiquities Act designations are a 
``Federal land grab'' is a myth propagated by opponents of national 
monuments. Barring a land exchange, like the one authorized by Congress 
following the designation of Grand Staircase-Escalante National 
Monument, national monument designations only affect existing Federal 
land and do not change the status of any state, school trust, or 
private lands.
    Can you confirm that the Bears Ears National Proclamation, like the 
Proclamation establishing the Grand Staircase-Escalante National 
Monument, did not `take' any non-Federal land or control its 
disposition?
    Can you also confirm that the Antiquities Act does not give the 
President authority to nullify, cancel or otherwise appropriate valid 
existing rights?

    Answer. While bare legal title before and after the national 
monument proclamation has remained in the United States, property 
interests and incidents of ownership, including multiple use of the 
land, have been taken from the state and the public and reserved to the 
United States. This retraction of rights previously available and open 
to the state and public is apparent from the reservation clause in the 
Bears Ears National Monument proclamation, which proclaimed that:

        All Federal lands and interests in lands within the boundaries 
        of the monument are hereby appropriated and withdrawn from all 
        forms of entry, location, selection, sale, or other disposition 
        under the public land laws or laws applicable to the U.S. 
        Forest Service, from location, entry, and patent under the 
        mining laws, and from disposition under all laws relating to 
        mineral and geothermal leasing, other than by exchange that 
        furthers the protective purposes of the monument.

    The Grand Staircase-Escalante National Monument proclamation 
contains a reservation clause that withdraws and appropriates Federal 
land and interests ``from entry, location, selection, sale, leasing, or 
other disposition under the public land laws, other than by exchange 
that furthers the protective purposes of the monument.''
    Accordingly, uses and property interests available before a 
monument, such as the establishment of new roads and rights of way, 
timber harvest, mineral location, entry, and patent, and mineral 
leasing have been removed or severely restricted by the proclamation. 
For example, any new trails or roads for motorized vehicles purportedly 
must be for public safety or protecting monument objects. The national 
monument proclamation, and management directives, therefore expressly 
control the disposition and use of and take from the public various 
property interests and incidents of ownership that were previously 
expressly allowed and regulated by law and regulation.
    It is true that the Antiquities Act does not give the President any 
authority whatsoever to nullify, cancel, or otherwise appropriate valid 
existing rights. Monument proclamations, however, significantly affect 
valid existing rights. As explained by Professor James R. Rasband, 
``Making the withdrawal of Federal land `subject to valid existing 
rights' offers less protection to the holder of a right in Federal land 
than might initially appear. The reason is that the existing rights are 
not absolute but subject to a variety of restrictions.'' James R. 
Rasband, Utah's Grand Staircase: The Right Path to Wilderness 
Preservation?, 70 U. Colo. L. Rev. 483, 518-521 (1999). Protection of 
valid existing rights has been interpreted to mean only that the 
restrictions cannot `` `make economic development completely 
unprofitable': essentially, as long as it does not constitute a Fifth 
Amendment taking.'' Id. at 519-20. Accordingly, ``[i]n the end, 
therefore, the `valid existing rights' language probably does more to 
protect the Federal treasury than rights holders. The language ensures 
that the withdrawal itself will not be construed as a taking, but 
allows a variety of restrictions to avoid degradation or impairment of 
the lands within the Monument.'' Id. at 520-21. ``Understood in this 
light, the rights holder might be better off, in many cases, if the 
withdrawal purported to eliminate her valid existing rights because 
just compensation would be available.'' Id. at n.172.
    Monument management, as a practical matter, often results in 
management activities that result in the curtailment of or inability to 
exercise pre-existing rights. See e.g. Raymond B. Wrabley, Jr., 
Managing the Monument: Cows and Conservation in Grandstaircase-
Escalante [sic] National Monument, 29 J. Land Resources & Envtl. L. 253 
(2009) (detailing disputes over grazing management in the Grand 
Staircase-Escalante National Monument). As explained above, 
restrictions on the nature and extent of activities, along with the 
requirements for permits for many other activities, burden activities 
that were previously enjoyed within the monument. Unreasonable 
limitations reduce access and activities on monument land.
    Monument proclamations also adversely affect inheld property, such 
as state trust lands. State trust land tracts that were previously 
surrounded by multiple-use land are now surrounded by land that, in 
many cases, are managed to promote preservation and conservation. With 
these management objectives come increasingly burdensome and 
restrictive regulations, especially with respect to access. Monument 
proclamations often contain restrictions on the construction of new 
roads or trails. Access to state parcels, to the extent it has not 
already been established, will likely require expensive environmental 
analyses and result in protracted litigation. Even when access is 
recognized, it may be difficult to develop the small sections owned by 
the state instead of having the opportunity to extract the entire 
available resource. With fluctuating commodity markets and ever-
increasing costs of administrative review, many resources may never be 
developed.

                                 ______
                                 

    Mr. McClintock. All right, thank you very much for your 
testimony. Next the Committee welcomes Mr. Lucas St. Clair, 
president of Elliotsville Plantation, Incorporated, for 5 
minutes.

     STATEMENT OF LUCAS ST. CLAIR, PRESIDENT, ELLIOTSVILLE 
                PLANTATION INC., PORTLAND, MAINE

    Mr. St. Clair. Good morning, and thank you, Chairman 
Bishop, Chairman McClintock, Ranking Member Hanabusa, and 
Grijalva, and distinguished members of the House Subcommittee 
on Federal Lands. It is an honor to speak with you this 
morning. What I would like to talk to you about are national 
monuments, and particularly the creation of Katahdin Woods and 
Waters National Monument in Maine.
    My name is Lucas St. Clair, and my family and I donated 
87,500 acres of land and $40 million to the National Park 
Service for the creation of Katahdin Woods and Waters National 
Monument. We care deeply about the Katahdin region, where I was 
born and raised, and the National Park System, as a whole. We 
have worked hard to continue this Monument and make it a 
success, and that work continues today.
    The land for the Monument was purchased at market rates 
from timber companies who sold it to our foundation. It is 
private property given to the National Park Service for the 
benefit and enjoyment of all people.
    The work to create a national monument began many years 
ago, and over time has changed as more and more people became 
involved. We held dozens of outreach meetings, one-on-one 
conversations, and public forums dating back to 2011 and 
before. There were public debates and an open and honest 
conversation. Those meetings included a field hearing by this 
Committee, followed by a town hall meeting led by 
Representative Bruce Poliquin, who represents the Monument. At 
this meeting, supporters of the Monument outnumbered opponents 
4 to 1.
    At the invitation of U.S. Senator Angus King, National Park 
Service Director Jonathan Jarvis held two meetings in Maine. 
The larger of the two was attended by over 1,400 people, the 
vast majority of whom spoke in support of the National 
Monument.
    Through years of public input, the idea of the National 
Monument got better by including more and more local voices. 
And, thanks to public input, traditional outdoor activities 
such as hunting, snowmobiling, fishing, and cross-country 
skiing, are forever protected and guaranteed on Monument lands, 
and why the overall size of the Monument was reduced from 
150,000 acres to 87,500, the smallest area that adequately 
protects the natural and cultural resource.
    The voices of the people were heard. Hunting and 
snowmobiling are an important part of our state's heritage, and 
that is why we had to make sure that they were protected in the 
Monument. Our foundation is committed to a $40 million 
endowment to help support the operations and maintenance of the 
new Monument, and that public-private partnership has led to 
make sure monument lands were open to the public on Day 1 after 
the designation, and that infrastructure improvements are 
ongoing.
    In October, Maine pollster, Critical Insights, asked Maine 
their opinion about the National Monument, and 72 percent say 
they support the Katahdin Woods and Waters. Polling has 
consistently shown strong support for the Monument.
    The Monument has won the support of the Katahdin Area 
Chamber of Commerce. The President, Gail Fanjoy, is here today, 
along with others, to represent the support of business leaders 
from the region. Businesses are starting to grow and expand. 
Jobs are being created. Real estate prices have started to 
rebound. And there are new significant private-sector 
investments, including plans for a $5 million outdoor 
recreational school underway.
    The local non-profit group which is leading the effort to 
redevelop a closed mill site near the Monument tells me that 
the presence of Katahdin Woods and Waters is a selling point, 
as potential investors recognize the value it provides at 
attracting employees to the region's quality of life. Even 
long-time opponents have started to come around, as they have 
begun to recognize the benefits of having a National Monument 
near their communities.
    Katahdin Woods and Waters is a beautiful and amazing place, 
and much more than just views of Mount Katahdin or cutover 
land, as Governor LePage has suggested. It is culturally and 
historically significant, both to the history of logging and to 
Maine's Native American communities, who consider the area 
sacred.
    Katahdin Woods and Waters National Monument is a model of 
how the Antiquities Act should work. It can be used to protect 
land of national significance, spark economic activity and job 
creation, and take into account the broad range of ideas.
    I hope that you will one day visit Katahdin Woods and 
Waters and you will see for yourself a community revitalized 
and hopeful about a stronger and better future. Thank you very 
much.
    [The prepared statement of Mr. St. Clair follows:]
    Prepared Statement of Lucas St. Clair, President, Elliotsville 
                            Plantation Inc.
    Good morning and thank you Chairman Bishop, Ranking Member 
Grijalva, Chairman McClintock and Ranking Member Hanabusa for the 
invitation to testify before the House Natural Resources Federal Lands 
Subcommittee. I'm pleased to speak with the Committee about an 
important conservation law, the Antiquities Act, that has preserved 
some of the most incredible natural wonders including the Grand Canyon 
and Death Valley National Parks, Native American sites like Mesa Verde, 
and sites where major historical events took place including Birmingham 
and Stonewall. We are fortunate that President Teddy Roosevelt had the 
foresight and wisdom to preserve a broad array of public lands where 
all Americans can access these places they own, be inspired, pray if 
they wish, learn and enjoy in perpetuity.
    I'm a native Mainer, born and raised. From a young age, the woods 
were my playground where I climbed hills and mountains, fished in ponds 
and streams, learned to kayak and hunted woodcock and grouse. Today, I 
serve as President of Elliotsville Plantation Inc. (EPI), a private 
operating foundation whose mission is the acquisition and conservation 
of land and the preservation of open space for the benefit of the 
public and the conduct of educational and stewardship programs. Over 
two decades, EPI purchased forestland in northern Maine to further this 
conservation mission.
    In 2011 when I became President of EPI, my focus was working with 
citizens in Maine to develop a proposal to turn our privately-owned 
land into a donation to the Federal Government for a national park 
unit. Our proposal was accepted by the Federal Government and last 
August, the Katahdin Woods and Waters National Monument was established 
by presidential proclamation. This Monument includes key features that 
were essential to gain public support including hunting and 
snowmobiling on the east side of the East Branch of the Penobscot 
River. In addition, our foundation will donate $20 million and raise 
another $20 million toward an endowment to manage the Monument. I 
appreciate the opportunity to share my thoughts about our community-led 
effort to donate land for our fellow Americans to enjoy and importance 
of the Antiquities Act.
    Let me provide some background on our state where roughly 92 
percent of the land is in private ownership. To keep the size of 
Katahdin Woods and Waters National Monument in perspective, its 87,500 
acres is less than 0.4 percent of the land in Maine, and less than 1 
percent of the largely undeveloped 10 million-acre area known as 
Maine's North Woods. While our donation is large enough to help 
preserve a piece of the North Woods for posterity, it barely registers 
compared to privately-held land in Maine.
    Maine is known for thick, lush northern forests and an unrivaled 
coast teeming with lobsters. We are proud of these amazing natural 
resources that have shaped our history, our love for the outdoors, and 
our economy. In the mid-19th century as timber harvesting grew so did 
the population in northern Maine. Land was sold to timber barons and 
the demand for paper and wood products grew at the turn of the century. 
Mills were built, logs were run down rivers including the Penobscot 
River, and the timber industry fed Maine's economy.
    In my lifetime, I didn't witness the aforementioned heyday. 
Instead, I grew up in a small town called Dover-Foxcroft with a 
population of 4,500 people and witnessed a different economic 
situation. I watched Millinocket, a nearby town where most working-aged 
men worked in either the paper mill or in the woods supplying the mill, 
start a slow decline. By 2008, the paper mill in Millinocket closed 
followed by more mill closures in the region.
    Many of my friends moved out of northern Maine seeking jobs further 
south or elsewhere. Northern Maine is not thriving and the population 
continues to shrink. This incredible region that so many of us care 
about is struggling. Let me share with you a couple of sentences from a 
Bangor Daily News editorial (2015) endorsing a national park proposal 
for northern Maine:

        Maine North Woods national park has been the subject of debate 
        for more than two decades. In that time, the economic landscape 
        of the Katahdin region has shifted dramatically--for the 
        worse--and the ownership of much of the timberland stretching 
        from Millinocket to the Canadian border has changed hands. A 
        long tradition of mill jobs available to area residents right 
        out of high school and open access to mill-owned land has 
        gradually eroded, leaving an uncertain future . . .

        The reality in the area is stark. Employment in the paper and 
        forest products industries has dropped by more than half in the 
        last two decades. In early 2015, about 5,500 people were 
        employed by all of Maine's paper mills, according to the Maine 
        Department of Labor. That's about the number of people who 
        worked in the Great Northern Paper Co. mills in Millinocket and 
        East Millinocket alone in the GNP heyday. Mill operators have 
        put the future of more Maine mills in doubt since the 
        Department of Labor's last count, which is bound to further 
        depress employment.

    This is northern Maine's reality. Mills are closed and sold for 
scrap metal. Houses and commercial real estate sit on the market 
indefinitely. You don't need a degree in business or a certificate of 
election to know what has been happening to the economy in northern 
Maine. It's obvious.
    My family began acquiring and conserving land in 2000. Timber 
companies approached us to buy their land near Baxter State Park in 
full view of the majestic Mt. Katahdin. The land includes three 
important waterways--the East Branch of the Penobscot River, Sebeois 
River, and Wassataquoik Stream. As many of you who share my passion for 
the outdoors can guess, these waterways have fantastic brook trout and 
smallmouth bass. The watersheds provide wildlife habitat for lynx, 
bears, moose and bird species like gray jays, boreal chickadees and the 
American three-toed woodpecker.
    The land tells the story of the Wabanaki people who migrated 
between the property my family donated and the coast to hunt and fish 
during the year. The land tells the story of the lumberjacks rolling 
logs down the rivers to the mills. The land tells the story of Teddy 
Roosevelt who in 1879 summited Katahdin after hiking nearly 40 miles 
from Island Falls, Maine. Roosevelt and his party crossed the East 
Branch of the Penobscot River and Wassataquoik Stream in an experience 
that sparked a life-long commitment to conservation.
    My family cares deeply about conservation and felt the best way to 
preserve the outdoors, tell the stories of the people of northern 
Maine, and help the economy was to donate our land to the National Park 
Service.
    Starting in 2011, I met with neighbors, business owners, 
politicians, hotel owners, timber industry executives, snowmobilers, 
anglers, hikers, skiers, river guides, teachers, mill workers and many 
other Mainers who care about the future of our local communities and 
state. I joke about the amount of coffee I drank over 5 years--more 
than I care to admit. I sat in many living rooms and heard in great 
detail what folks wanted if a national park were going to be 
established in northern Maine. I took every conversation to heart and 
designed a proposed park that responded to what I heard.
    Access to hunting, snowmobiling, skiing, and hiking were on the top 
of the list. Amenities and expectations for the property were very 
important--more toilets, campgrounds, improved roads and bridges. 
Essentially, we needed a national park unit with opportunities for 
sightseeing, hiking, river running, mountain biking and cross country 
skiing, and also for hunting and snowmobiling. It was essential to 
include hunting and snowmobiling--two activities that cannot always be 
counted on from year to year on private land. We needed to ensure that 
the opportunity for these uses would be guaranteed and supported in 
this park unit. We consulted with national park experts to determine 
whether this homegrown conception could become a reality, and developed 
a national park proposal that provided a range of activities across the 
landscape from Baxter State Park to the gateway communities.
    The national park proposal gained support from important regional 
business and civic groups including the Katahdin Area Chamber of 
Commerce, the Katahdin Rotary Club, the Greater Houlton Chamber of 
Commerce, the Bangor City Council and the Maine Innkeepers Association. 
More than 200 Maine businesses in the Katahdin, Houlton, Presque Isle, 
Bangor and Acadia regions--endorsed the park proposal.
    In April 2015, a Critical Insights poll showed that 67 percent of 
residents of Maine's 2nd congressional district (northern, western and 
eastern Maine) supported the proposed national park unit. In November 
2015, advocates delivered more than 13,000 signatures in support of the 
proposed park unit from residents of 371 Maine towns and 50 states to 
Maine's congressional delegation.
    After the proposal gained momentum in northern Maine, we began 
exploring a national monument designation. Senator Angus King invited 
the National Park Service Director to meet with and answer questions 
for folks in the region. There were several meetings and some impromptu 
gatherings. The culmination was a well-publicized public meeting in 
Orono, Maine with over 1,400 Mainers from all over the state, where the 
vast majority supported our proposal for a national monument managed by 
the National Park Service. In a state where the population of 60 
percent of our towns is less than 2,000 residents--this was an 
impressive turnout. In addition, of the roughly 400 handwritten 
comments collected at the meeting, approximately 95 percent supported a 
national monument.
    I can't overemphasize the amount of transparency and community 
engagement that preceded the establishment of Katahdin Woods and Waters 
National Monument. I made many trips to Washington, DC and met with 
some of you and your colleagues over the years. I met with our 
delegation in Maine. Based on the strong support demonstrated for our 
proposal, we offered to donate our properties along the East Branch of 
the Penobscot River to the National Park Service. The National Park 
Service indicated that the properties fully met its criteria for units 
of the National Park System. Once the donation was complete and the 
title transfers occurred, the land was declared Katahdin Woods and 
Waters National Monument by the president under his authority in the 
Antiquities Act.
    Do all 87,000 acres meet the criteria under the law? As the 
proclamation establishing the Monument demonstrates, this very special 
natural and cultural landscape meets these criteria without question.
    The objects of historic and scientific interest occur throughout 
the landscape, in all the 13 deeded parcels we donated. They include 
remarkable geology, undeveloped watersheds and stunning hydrological 
features, significant biodiversity and connectivity for plants and 
animals, and extraordinary opportunities to observe and study all this 
natural wonder. The objects also include the history of human activity 
in this landscape, include its significance to the Wabanaki people, 
loggers and timber companies, recreationists including hunters, 
anglers, and hikers, artists including John James Audubon and Frederic 
Edwin Church, and historic figures including Henry David Thoreau and 
Theodore Roosevelt whose lives were changed by these North Woods. All 
the land included in the national monument encompasses, and is 
essential to the proper care and management of, these objects.
    Whether it's the wild rivers, critical wildlife habitat, historical 
significance, awe-inspiring scenery, or night skies and northern 
lights--the area is a natural and cultural wonder that Americans should 
visit and embrace much like Acadia National Park on Maine's coast. Like 
Katahdin Woods and Waters, Acadia started as a National Monument 
proclaimed by President Wilson after private land had been donated for 
it. Without the Antiquities Act, neither of these places that are 
quintessentially Maine would have had a fighting chance to be preserved 
for all Americans.
    I have heard the notion that the Antiquities Act should only be 
used in the face of an imminent threat. While nothing in the Act so 
states, the Act is a very important tool when there is some urgency for 
protection. So, was there urgency to protect Katahdin Woods and Waters 
National Monument? Yes, there were lands that were up for sale, and 
there is economic urgency. Our community needs investment and quickly. 
My family chose to focus on a national monument as a way to diversify 
the economy while saving some of the region's defining characteristics. 
We hope other philanthropists, business owners and real estate 
investors follow our lead in promoting the regional economy. We have 
reason to hope this could happen. Last summer, Federal Commerce 
Department experts came to the region to provide support. A recent news 
report from centralmaine.com describes this effort:

        The team, requested by U.S. Senators Angus King and Susan 
        Collins, is a rare instance of the Federal Government 
        marshaling Federal resources to assist a region experiencing 
        economic distress. Modeled after the national Disaster Recovery 
        Framework, it has been deployed 30 times nationwide in its 40-
        year history, including to address the Deepwater Horizon oil 
        spill and the collapse of New England's fisheries.

        It also comes with $7.7 million in Federal money to invest in 
        the forest products industry and to support and track the 
        results of the team's visit to Maine.

        The state's congressional delegation is part of the team, but 
        no state government officials are. The Maine planning committee 
        is made up of representatives from the private sector.

        Much planning and research went into the 3-day tour that 
        concluded Friday, according to officials, who said the 
        involvement of Federal agencies and their work did not end this 
        week, but rather will continue for the next 3 years with the 
        development of an ``action plan'' and specific goals for the 
        industry.

        Collins, King and U.S. Rep. Bruce Poliquin, in a joint 
        statement Friday, thanked the Commerce Department and members 
        of the team for their efforts over the last 3 days and said 
        their work is ``an important first step and the beginning of a 
        longer-term process among industry, local stakeholders, and 
        Federal agencies that can revitalize this critical pillar of 
        our economy.''

        The statement did not mention the response from state 
        government.

    We hope the engagement with the Commerce Department expands and 
grows. We hope the state government participates. It is critically 
important for the region to get Federal assistance to design strategies 
to grow our forest products industries and we believe those efforts are 
entirely compatible with the Katahdin Woods and Waters National 
Monument.
    In other hopeful news, since the designation of the Katahdin Woods 
and Waters National Monument, the towns around Katahdin Woods and 
Waters National Monument are witnessing economic improvement. Real 
estate sales have picked up, multi-season visitation is increasing and 
business investments are happening. A foundation is making a $5 million 
investment to build an outdoor education facility just south of the 
National Monument. EPI continues to work with the National Park Service 
to make infrastructure improvements to the monument as well as raise 
money toward our commitment of a $40 million endowment for the 
monument.
    National monuments are one component of the communities which they 
are a part. Some provide recreation opportunities, some protect sacred 
sites, some preserve the stories of our past, and some protect our 
natural resources for the future. They can support tourism or new 
residents to an area. In our case, I hope the monument attracts a 
variety of industries so some of my old friends are able to find jobs 
and move back to the region to raise their families. These communities 
need diversified economies. The days of one industry dominating an area 
are long gone.
    There was great wisdom in designing a law to allow a president to 
preserve our heritage for future generations. It has been working for 
over 100 years and there are more than 150 places that prove the 
success of this law. I'm grateful that Katahdin Woods and Waters 
National Monument is a shining example No adjustment is necessary.

                                 ______
                                 

Questions Submitted for the Record to Mr. Lucas St. Clair, Elliotsville 
                               Plantation
          Questions Submitted by Subcommittee on Federal Lands
    Question 1. How much money have you, your family, or organizations 
associated with your family spent on lobbying, consulting, or public 
relations for Federal protection for your property (what is now the 
National Monument)?

    Answer. First, let me thank you Chairman Bishop, Ranking Member 
Grijalva, Chairman McClintock and Ranking Member Hanabusa for the 
invitation to testify before the House Natural Resources Federal Lands 
Subcommittee. It was a great opportunity to explain to you and the 
public the tireless work that my family and I did to meet the public 
interest while establishing a new National Monument on the private land 
that we donated to the national park service. We are thrilled to see 
the economic, recreation, and conservation enhancement that is already 
happening in this beautiful region of Maine. Below, you will find my 
responses to the questions that you had asked as a followup to my 
testimony.
    My family's donation of nearly 90k acres of our private land to the 
public was a large land-based gift to the National Park Service for 
Mainers and all Americans to enjoy for future generations. Implementing 
our donative intent required many resources, including hiring 
consultants, attorneys, scientists, financial advisors, realtors and 
others. As I stated in my verbal testimony, my family began acquiring 
land in 1998. In addition to those people hired to facilitate this 
effort, many business owners, elected officials, recreationists and 
others made countless in-kind donations of their time to support a 
national park unit for our property. Any quantification wouldn't do 
justice to people who supported the effort to create Katahdin Woods and 
Waters National Monument. It would be impossible to monetize all of 
these activities.

    Question 2. Your organization donated the land on August 12, 2016 
and it was accepted by the Federal Government on August 17, 2016. 
However, the National Monument was not designated until a full week 
later on August 24, 2016. When were you first notified that the 
President intended to designate the Katahdin Woods and Waters National 
Monument? Who notified you of this decision?

    Answer. Because we were private landowners attempting to transfer a 
large amount of our property, including land, buildings, and other 
assets, to the Federal Government, we spoke to a variety of entities 
within the Federal Government over many weeks and months. I can't tell 
you precisely when the President made the decision to move ahead with 
the designation. I was notified by staff at the Council on 
Environmental Quality when the Secretary of the Interior was prepared 
to accept our donation of property for the Monument.

    Question 3. Regarding the pledged $40 million endowment for the 
Katahdin Woods and Waters National Monument:

  a.  What date was the endowment established?

  b.  How much of the additional $20 million Elliotsville Plantation 
            pledged to raise has actually been donated to the endowment 
            as of May 2, 2017?

  c.  Where is the endowment housed?

  d.  Who runs the endowment and what is the structure of its Board of 
            Directors?

  e.  What is the annual spending rate of the endowment?

  f.  Can money from the endowment be used to acquire additional land 
            for the National Monument?

  g.  Who would make a final decision on closing the endowment?


    Answer. Our family has gifted a $20 million dollar endowment to the 
National Park Foundation and created a Friends Group that will be 
responsible in raising an additional $20 million. Please direct any 
other questions you may have to the National Park Foundation, the 
entity that houses and administers the endowment.

                                 ______
                                 

    Mr. McClintock. Thank you.
    We now recognize the final witness for this morning, Mr. 
Knox Marshall, the Vice President of Resources for the Murphy 
Timber Investments Company.

STATEMENT OF KNOX MARSHALL, VICE PRESIDENT OF RESOURCES, MURPHY 
             TIMBER INVESTMENTS LLC, EUGENE, OREGON

    Mr. Marshall. Good morning. Thank you all for the 
opportunity to speak here today. My name is Knox Marshall. I am 
a third-generation forester, born and raised in a small logging 
community in McCloud, California. I have practiced forestry 
professionally in the Pacific Northwest since 1990 in the 
politically charged regions including those in Southern Oregon 
and in Northern California, including the Redwoods on the 
coast.
    I currently am the resource manager for Murphy Company, 
headquartered in Eugene, Oregon. Murphy Company is led by 
third-generation president John Murphy, and we have been in the 
forest product industry since 1909. Our company focuses on 
processing logs into veneer-raised products, predominantly 
engineered lumber and high-end decorative hardwood panels and 
softwood plywood. We have five manufacturing facilities 
starting in southern Oregon; a veneer plant in White City; a 
softwood plywood mill in Rogue River; an engineered wood 
facility in Southerland, Oregon; a hardwood plywood mill in 
Eugene, Oregon; and finally, a veneer processing facility in 
Elma, Washington.
    Murphy Company currently employs over 750 people with 
family grade wages in rural communities where we operate, and 
many more, indirectly. Our wood products enterprise is 
dependent upon consistent, sustainable production of forest 
products from our western forests. We procure in excess of 140 
million board feet annually to sustain our businesses and the 
people we directly and indirectly employ. Approximately 50 to 
60 percent of the logs we use are produced from public 
forestlands.
    We are a multi-generational company, and we support 
responsible forest management, where the long-term health of 
our forests is the top priority.
    The management of Federal lands in southern Oregon has been 
in steady decline for the last 20-plus years. The forest health 
on these lands has continued to decline rapidly, and the 
solution will need to have forest restoration as its primary 
objective. Pace and scale of these restoration efforts needs to 
be ramped up, and the forests are on a clear trajectory to be 
at risk to catastrophic fire and permanent loss.
    On January 12, 2017, President Obama, by proclamation, 
expanded the Cascades-Siskiyou National Monument. First, the 
Monument removes over 40,000 acres of O&C lands from the 
timberland base managed by the BLM, which were specifically 
designated by Congress in the O&C Act of 1937 for permanent 
timber production. These lands are in desperate need of 
management, and a significant acreage need immediate forest 
restoration, which is no longer an option.
    The communities in southern Oregon, where we have invested 
significant capital and the 400-plus family grade wage they 
support, are again going to be at risk. We have known this for 
the past 5 years, and the emphasis on managing the high-risk 
forests in southern Oregon was not a priority because they were 
too highly controversial. Because of that, we made a leap as a 
company in 2014, led by myself and our owner, John Murphy, to 
invest and purchase 50,000 acres of timberland. This was to 
provide some certainty for our manufacturing facilities and the 
jobs that they support.
    The expansion of this Monument included within its boundary 
2,100 acres of our own timberlands, as well as adjacent to 
another 1,900 acres, where we believe the restrictions on 
forest management are going to directly correlate to increased 
risk of catastrophic wildfire.
    The expansion of this Monument has significantly decreased 
the operable land base in southern Oregon on Federal lands and 
puts our own private lands at risk to catastrophic fire and 
other infestations of diseases. Murphy Company purchased these 
timberlands to sustain our manufacturing operations, and the 
Monument expansion has a direct impact on a significant portion 
of them.
    We have a continued commitment to the southern Oregon rural 
communities, and will be focused on working toward solutions. 
Rural communities in Oregon need help. The small community of 
Rogue River in 2009 was in tough economic condition. With 
Murphy Company's purchase of the bankrupt plywood mill in 2010, 
we employed 240 people. Without a sustainable flow of the 
forest products, communities like Rogue River may suffer again, 
like many others are suffering right now in the state.
    Decisions need to be done thoughtfully with all 
stakeholders involved, so that reviving and sustaining some of 
these small rural communities with responsible management of 
our Federal lands continues. Creation of the Monument under the 
Antiquities Act is generally ill-suited to reach durable 
compromising solutions. These decisions have far-reaching 
impacts, and should be handled through a legislative process. 
Thank you.
    [The prepared statement of Mr. Marshall follows:]
          Prepared Statement of Knox Marshall, Murphy Company
    My name is Knox Marshall and I am the Vice President of the 
Resources Division at Murphy Company, a family-owned wood products 
manufacturer headquartered in Eugene, Oregon. Murphy Company is a long-
time Oregon employer that dates back to 1909 and is presently lead by 
CEO John Murphy, the grandson of one of our founders. We employ over 
750 workers in family wage jobs at four wood products manufacturing 
plants in Oregon and one in Washington. The Oregon facilities include a 
veneer plant in White City, a softwood plywood plant in Rogue River, a 
hardwood plywood specialty plant in Eugene and a laminated veneer 
lumber (``LVL'') facility in Sutherlin. We are especially proud of the 
LVL plant in Sutherlin, which demonstrates our commitment to staying 
efficient and innovative in the North American wood products industry 
that continues to be pressured by international competition. In 
Washington, we own and operate a veneer plant in Elma to augment our 
supply of raw material for our Oregon plants.
    From a raw material standpoint, all five of our manufacturing 
plants depend upon a consistent quality log supply flowing to our two 
veneer plants, which in turn produce the veneer utilized in the value-
added plywood and LVL manufactured at our three secondary production 
plants. On an annual basis, I am responsible for coordinating the 
acquisition of 140 million plus board feet of logs to meet the raw 
material needs of Murphy Company's manufacturing operations. In 
southern Oregon, we depend upon public forests for approximately half 
of the annual raw material needs of our White City veneer plant. 
Approximately 20 percent of this volume is timber harvested from lands 
managed by the Bureau of Land Management, and predominately from O&C 
lands, which are the focus of my testimony today.
    President Obama's January 12, 2017 proclamation expanding the 
boundaries of the Cascade-Siskiyou National Monument jeopardizes our 
company's continued operations in two ways. First, the Monument 
expansion removes over 40,000 acres of O&C lands from the timberland 
base managed by BLM, lands which were specifically designated by 
Congress in the O&C Act of 1937 for permanent timber production. Over 
the last 15 years, we have seen an 80 percent drop in the timber 
harvest levels from USDA national forest and BLM lands. In timber-
dependent counties where Federal forests account for more than half of 
the acreage in that county, there has been a precipitous decline in 
quality logging and wood products manufacturing jobs that has both 
devastated the social fabric of our rural communities and crippled 
county finances. Douglas County in Oregon, for example, has recently 
closed its entire public library system because timber sale revenues 
that previously funded those libraries and a robust set of other public 
services have largely disappeared.
    The loss of another 40,000 acres of productive forestlands from 
ongoing, active management will cause a further reduction in the supply 
of timber sold annually by BLM, which jeopardizes Murphy Company's log 
supply and the jobs of over 400 employees at our four Oregon 
manufacturing plants. Prohibiting responsible forest management 
activities will only exacerbate the forest health crisis already 
threatening these forests and neighboring communities.
    In expanding the Cascade-Siskiyou National Monument almost entirely 
with O&C lands managed by BLM, President Obama ignored past legal 
advice from the Department of the Interior's Office of Solicitor that a 
president has no authority to include in a monument lands which 
Congress has clearly designated for another purpose. In 1940, when 
President Roosevelt was considering expanding the nearby Oregon Caves 
National Monument to include O&C lands, the Solicitor made clear that 
the president had no such authority because it would be inconsistent 
with the utilization of O&C lands ``as directed by Congress.'' In other 
words, the top legal officer in the Department of the Interior 
concluded that it was impossible to reconcile the permanent timber 
production purpose of the O&C Act with the preservation purpose of the 
Antiquities Act. Despite the clarity of this legal advice dating back 
to 1940, President Obama forged ahead with a monument expansion that 
did not have the support of the local community and which violates the 
clear designation of these lands for permanent timber production.
    Murphy Company feels so strongly about the illegal character of the 
Cascade-Siskiyou National Monument Expansion that it has filed a 
lawsuit in Federal court in Oregon seeking a judicial order vacating 
President Obama's Proclamation 9564. Two other organizations, the 
Oregon Association of O&C Counties (AOCC) and the American Forest 
Resource Council (AFRC) have filed their own cases challenging the 
Monument Expansion, which are pending in Federal Court in the District 
of Columbia. AFRC and AOCC have also submitted written testimony for 
this hearing, both of which I hope will be included in the hearing 
record.
    There is a second way that the Monument Expansion hurts Murphy 
Company. One of the strategic approaches that our company has taken to 
address the massive decline in Federal timber harvests in southern 
Oregon is to invest in the purchase of company timberlands. In 2014, we 
purchased almost 50,000 acres of southern Oregon timberland in Jackson, 
Josephine, Klamath and Douglas Counties. President Obama's Proclamation 
also included 2,101 of these acres within the boundaries of the 
expanded Cascade-Siskiyou National Monument. We also own almost 1,900 
additional acres that are immediately adjacent to the boundaries of the 
Monument Expansion. I know from the experience of timberland owners in 
the original Cascade-Siskiyou National Monument that the value and 
productivity of private timberland decline significantly whenever those 
lands are included within the boundaries of a national monument. Access 
is lost because BLM decommissions or abandons its road system within 
the Monument and refuses to cooperate with private forestland owners on 
road access issues. The private timberland owner within a national 
monument also experiences a dramatic increase in the risk of 
catastrophic wildfires, insects, and disease outbreaks on monument 
forestlands, which will not be actively managed or thinned to address 
these risks. This is a very serious threat to our company's 
timberlands, which represent a major investment for our company.
    In conclusion, Murphy Company appreciates the efforts of the House 
Committee on Natural Resources to provide vigorous oversight of 
President Obama's use of the Antiquities Act. As the Committee 
considers its next steps, please consider writing both President Trump 
and Interior Secretary Zinke urging them to direct the Department of 
Justice attorneys defending the three lawsuits challenging the Cascade-
Siskiyou Monument expansion to concede that the expansion illegally 
included O&C lands.

                                 ______
                                 

    Mr. McClintock. Thank you very much. That concludes the 
testimony of our witnesses. We thank them again for being here, 
and we will now begin with 5-minute questions, beginning with 
the Chairman.
    I read in my opening statement the three over-arching 
objectives of this Committee: restore public access to the 
public lands; restore proper management of the public lands; 
and restore the Federal Government as a good neighbor to those 
communities affected by the public lands. Governor LePage, I 
wonder if you could comment on how the designation in your 
state affects these three objectives, starting with public 
access.
    Governor LePage. Well, I would say this, that I expect that 
the endowment for $40 million offered by the Quimby family 
would be spent much faster than they anticipate. As compared--I 
would like to talk about how Acadia National Park in Maine has 
a deferred maintenance backlog in 2015 of over $60 million. And 
I want to emphasize Acadia National Park has already burned 
down flat back in 1948.
    So, I think it is very, very important, and I will tell you 
that states manage their forestland much better than the 
Federal Government does.
    Mr. McClintock. Do you expect to see greater public access 
because of the restrictions in the national monument 
designation, or----
    Governor LePage. No, my original objection to this whole 
monument and national park was the fact that the Quimby family, 
before it became designated, blocked closed roads, blocked 
roads, prevented people from using snowmobiles, ATVs, hunting, 
and fishing. So, talk is cheap, actions speak a lot louder.
    I would urge this Committee to go to Google Earth, look at 
Baxter State Park that abuts the Monument, and then look at 
this designation.
    Mr. McClintock. Great. Mr. Marshall, could I ask you the 
same questions of the designation in Oregon? How does that 
affect public access, proper management, and the Federal 
Government's relationship with the local communities?
    Mr. Marshall. The access is probably going to be little to 
no change. There will be less vehicular access, I am sure, over 
time. The management of those----
    Mr. McClintock. Vehicular access is how people get into 
these areas to enjoy them, correct?
    Mr. Marshall. Some do. Some walk, as well. I mean, so they 
are still going to be open to the public, they are public 
lands. But the management of these lands and all the land 
adjacent to it, I mean, they are very much overstocked. They 
are needing forest restoration enhancements to put some 
resiliency back into these forests. We have had major fires all 
around the Cascade-Siskiyou National Monument. And it is just a 
matter of time before they are potentially at risk, as well.
    And for us, the restriction of those types of management 
activities certainly reduces the amount of land base. And the 
land base is what is important, and what drives our economic 
engines that support these communities.
    Mr. McClintock. That was my next question. You have heard 
the testimony, ``Oh, don't worry, even though it is going to 
cost a lot of timber and other jobs, it will make it up on the 
tourism.'' What we found is restrictions on public use reduce 
public visitation, and the jobs we lose are high-paying, full-
time jobs, and they are replaced with low-wage, seasonal jobs. 
Is that essentially your observation?
    Mr. Marshall. I grew up in these small rural communities 
within the Pacific Northwest. As to the loss of jobs, I will 
bring one example. I grew up in McCloud. In McCloud, there was 
a very vibrant forest products industry--several mills located 
within the town. And since then, they have all been washed 
away.
    And the use of the lands is diminishing quickly. The actual 
jobs supported by those responsible industries are gone. There 
are three people--plus or minus--in the high school at McCloud 
now. It is no longer making families. It is a bedroom 
community----
    Mr. McClintock. So, people are fleeing.
    Mr. Marshall. People are fleeing.
    Mr. McClintock. Governor LePage, the research on the deeds 
for the Katahdin property, we found that 60 percent of the 
National Monument is now closed to hunting, 80 percent is 
closed to snowmobiling. Do you expect this access to increase 
or decrease?
    Governor LePage. I expect it to decrease. And I will say 
that I have spent most of my career, prior to becoming governor 
of the state of Maine, in the forest products industry. I was 
part of a management team that managed over 1 million acres of 
land in Maine and in Nova Scotia, purchased many, many acres of 
forestland.
    And I will say that a working forest is good stewardship, 
working forest meaning that you take all--hunting, fishing, 
hiking, snowmobiling, all of the above need to be part of the 
forest. If you restrict it----
    Mr. McClintock. We discovered that in the Sierra, as well.
    Mr. St. Clair, final question. According to our staff 
report, after your family acquired land for the proposed site, 
you evicted campers, burned down cabins, and closed the area to 
hunters and to the snowmobilers who had long relied on it for 
north-south access. Residents in the surrounding communities 
overwhelmingly oppose creating the national park due to 
concerns over limiting historic uses, such as snowmobiling and 
hunting and the effect of the designation on the local timber 
industry. I am out of time, but I don't see how that comports 
with public access to the public lands.
    And now I will yield to the Ranking Member for 5 minutes.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. St. Clair, maybe you want to comment on what the 
Chairman just asked.
    Mr. St. Clair. I would like to. When we started a public 
research project in 2011 to find out where public interest was 
as a respondent to the national monument idea, or the national 
park idea, we quickly learned that hunting and snowmobiling 
were integral in the cultural heritage of the region.
    Therefore, we started advocating for it, so much to the 
point where we created the first national park monument that 
incorporates and allows for hunting and snowmobiling. We 
quickly realized how important it was to the local communities, 
and made sure it was protected into perpetuity.
    Ms. Hanabusa. Thank you. May I call you Lucas?
    Mr. St. Clair. That is fine.
    Ms. Hanabusa. Lucas, this is a very unusual situation. 
Because, first of all, let's all be clear: the 87,500 acres was 
originally private. In other words, your family foundation is 
who purchased those lands. Correct?
    Mr. St. Clair. That is right.
    Ms. Hanabusa. So, unless I am mistaken, I don't believe 
Maine has a law--or does it have a law--that would somehow 
allow Maine to tell you what to do with your lands.
    Mr. St. Clair. It does not.
    Ms. Hanabusa. So, whether it has access or not, it would 
seem that, since it has become a monument, and it is basically 
under the control of the National Park Service, the concerns 
that your governor has should be addressed like any other 
monument. Because if you were to still hold it, you could deny 
access completely. Isn't that correct?
    Mr. St. Clair. We could.
    Ms. Hanabusa. Now, they also mentioned the fact that you do 
not have roads and so forth. That is not correct, as I 
understand it, because your family foundation has invested 
quite a bit in infrastructure. Could you explain that?
    Mr. St. Clair. Sure. We realize that people had not had 
access to this land for quite some time, due to the limited 
amount of infrastructure. So, over the last 5 years, our family 
foundation has invested between $8 and $10 million in 
infrastructure, rebuilding roads, widening roads, building 
bridges, building viewpoints, bathrooms, campgrounds, boat 
launches, et cetera, to make it available for the public. And 
in the last 5 years, and, more specifically, in the last 8 
months since it became a National Monument, we have had 
increased visitation beyond anything that the landscape has 
seen.
    Ms. Hanabusa. The other interesting component is, even the 
fact that you have given the land to the Federal Government, 
and it is, by the Antiquities Act, then subject to becoming a 
Monument, you, your family--or your foundation--has endowed $40 
million for its upkeep and maintenance. Isn't that also 
correct?
    Mr. St. Clair. That is right.
    Ms. Hanabusa. And that is something that is not going to 
end because it is a Monument. That is something that is tied to 
the fact that it has become a Monument. Isn't that also 
correct?
    Mr. St. Clair. That is right. We have seen the backlog of 
maintenance at other national parks, and recognized that they 
needed to be supported both by the Federal Government and also 
by the private sector.
    Ms. Hanabusa. So, your other governor, your prior governor, 
who has probably long passed, is also a very interesting 
person, and that is Governor Baxter, who was very committed--he 
may not have liked the Federal Government, but he was 
definitely committed to the fact that it would always be 
preserved in wilderness, and that is the 200,000 acres that he, 
in 1931, gave to the state of Maine. Isn't that also correct?
    Mr. St. Clair. That is right.
    Ms. Hanabusa. And your lands, which have now been the 
Katahdin Woods and Waters National Monument, is also adjacent 
to that. Correct?
    Mr. St. Clair. That is right.
    Ms. Hanabusa. So, wouldn't it be--for the people of Maine, 
and the people of the United States who want to visit, they now 
have the benefit of about 28,000, almost 300,000 acres of land 
that they can access and visit.
    Mr. St. Clair. That is right. And Baxter State Park and 
Katahdin Woods and Waters provide a really fantastic complement 
to one another.
    And the thing that Percival Baxter and our family have in 
common is that we bought this land from the timber industry, 
from willing sellers, and we were willing buyers. And we paid 
fair market value for that land, and then worked long and hard 
to put it into the public trust.
    And similar to Katahdin Woods and Waters, there was 
resistance locally, there was resistance in the legislature, 
but ultimately prevailed. And now Baxter State Park, as the 
Governor mentioned, is one of our most beloved crown jewels in 
the Maine landscape, along with Acadia National Park.
    Ms. Hanabusa. And that is exactly how I wanted to end, by 
saying that--and I am almost out of time, but I wanted to end 
by saying thank you because, believe me, states like Hawaii are 
always looking for ways in what we consider the creation of our 
legacy lands, and we found that joining with private 
foundations who are willing to either buy or share is the best 
way that we have been able to accomplish that.
    So, thank you very much, and thank your mother, your 
foundation. And I yield back.
    Mr. McClintock. Thank you. Next the Chair recognizes Mr. 
Westerman of Arkansas for 5 minutes.
    Mr. Westerman. Thank you, Mr. Chairman, and thank you to 
the witnesses for being here today.
    Mr. Chairman, monuments are a very important part of our 
culture, serving as a reminder of our history, and 
memorializing significant historical events. There is probably 
no better example of a monument than the large obelisk that is 
constructed out on the Mall that we affectionately call the 
Washington Monument.
    Not long ago, I visited the USS Arizona Memorial 
constructed in Pearl Harbor. These cherished monuments and 
memorials exemplify the dictionary definition of a monument: a 
statue, building, or other structure erected to commemorate a 
famous or notable person or event.
    The fact that we have living, dynamic forests that are now 
being designated as monuments should raise a flag, in of 
itself. We have a process to establish parks, reserves, and 
wilderness areas. And the fact that we are designating 
forestland--which is, again, living and dynamic--a monument, 
causes me great concern. It tells me that we are going around 
the process and using something that was never intended to set 
aside forestland to do just that in the Antiquities Act.
    Mr. Marshall, given the challenges facing forests in Oregon 
and California, including drought and insects like bark beetle, 
what will the elimination of basic forest management techniques 
like just even thinning do to the forest health and resiliency?
    Mr. Marshall. The pace and scale of the forest management 
now is on a pretty slow path, and the expectation to overcome 
all the issues associated out there are directly correlated to 
your question. I mean we are seeing some minor progression in 
the use of forest restoration activities.
    But the forests are definitely in decline, from a health 
perspective. They are overstocked, they need treatment. The 
treatments can be done in a collaborative way, where the 
processes get a lot of support. We never can please everybody. 
And, certainly in some of the areas we operate, it is more 
difficult--southern Oregon being one of those.
    Most of our timber sales are under protest, and they 
typically--the ones from Federal lands--they typically take a 
long time to go through a major litigious process. But in the 
absence of the restoration activities, because of the absence 
of fire, we definitely have a big backlog that we have to take 
care of, or we are going to see more catastrophic fires at a 
pace we are not all happy with.
    Mr. Westerman. A monument is put in place to preserve. That 
is why they are usually built out of stone and metals. But a 
forest is dynamic, and it is changing. If we don't protect 
forest health--you talked about catastrophic wildfires--what 
could essentially happen to these monuments if we get a 
catastrophic wildfire?
    Mr. Marshall. The wildfires in this particular region can 
be extremely large. The monument could burn. I mean it is not 
unrealistic to say that the entire Cascade-Siskiyou National 
Monument is on a trajectory to potentially burn.
    Mr. Westerman. So, we could have a nice charcoal landscape 
to memorialize?
    Mr. Marshall. We have several hundred thousand acres in 
this area that are already that way.
    Mr. Westerman. What would be the economic impact to local 
communities and small businesses, if a catastrophic wildfire 
came through the National Monument?
    Mr. Marshall. We have examples right now where the 
catastrophic wildfires have been devastating to the 
communities----
    Mr. Westerman. Do you see a lot of tourist activity, people 
going to look at the charred landscape?
    Mr. Marshall. Not a lot, no.
    Mr. Westerman. Right. So, long after a catastrophic 
wildfire has been extinguished, communities can experience the 
negative consequences of the wildfire for years to come, 
including flooding, mudslides, insect infestations, disease 
outbreaks, and land and water degradation impacting communities 
and sensitive species alike.
    What impact will this designation have on Federal land 
managers' ability to mitigate for the consequences of 
catastrophic wildfire?
    Mr. Marshall. On the Federal lands, there have been little 
to no reforestation efforts. So, the lands go into kind of a 
natural process of restoring themselves. But it is a very, very 
long process, and the process is something that is not 
necessarily acceptable and, really, has a negative economic 
impact to the long-term sustainability of these rural 
communities, especially where they produce jobs in the forest 
products industry.
    Mr. Westerman. I yield back, Mr. Chairman.
    Mr. McClintock. All right, thank you. Next is Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you to our 
witnesses for being here today. As we discuss the importance of 
the Antiquities Act, it is rooted in the fact that our Nation 
has made a commitment that our most significant historical, 
cultural, and natural sites should be preserved in perpetuity. 
That means for generations to come, so that all Americans have 
the opportunity to relish that which is ours, and has made us 
this uniquely great country.
    Since Theodore Roosevelt's designation of the first 
national monument, presidents from both parties have used the 
Antiquities Act to protect some of America's best-known and 
loved landscapes, as well as cultural sites. Many national 
monuments created through the Antiquities Act have since become 
some of our greatest national parks. So, they are just a step 
along the way.
    Not only do national monuments protect our Nation's most 
treasured public lands, but they also directly benefit rural 
economies. Headwaters Economics, a non-partisan, independent 
think tank from Montana, found that, on average, counties with 
protected public lands, including national monuments, see 
increased economic performance, including increased employment, 
personal income, and growth in population.
    A study released by the Small Business Majority also found 
that national monuments designated by President Obama have 
provided significant boost to small businesses in rural 
communities who are otherwise suffering, driving $156 million 
in annual revenue, and creating more than 1,800 jobs a year.
    I also want to emphasize that the Antiquities Act may only 
be used to create national monuments on existing Federal lands. 
No monument designation has ever been used to seize private 
property, and it does not change what a private landowner can 
or cannot do on their private land. This is not a land grab.
    In some cases, land has been generously donated to the 
Federal Government, and then designated as a National Monument. 
And we are fortunate to have you, Lucas St. Clair, here with us 
today, whose family has made a once-in-a-generation gift to the 
American people, and will continue to support the Monument with 
a $40 million endowment, a very generous act, indeed.
    So, Mr. St. Clair, I want to go back to the discussion of 
the public outreach process leading up to President Obama's 
designation last summer, and your outreach in crafting the 
private land donation that would be made to the Federal 
Government. You mentioned in your testimony that your focus 
from the start was to engage the local community in building 
support for the Katahdin Woods and Waters National Monument.
    So, can you reiterate how you engaged with the public? And 
as you did, give some examples of the specific problems that 
were identified as a result of that outreach and how, as a 
result of that, you were able to resolve differences in the 
public?
    For example, you have talked about the reduction in 
acreage. You have talked about allowing snowmobiling and 
hunting, initially not something that was top of mind. So how, 
in the course of that public outreach, you were able to hear 
what people had to say, and then come to some accommodation.
    Mr. St. Clair. Sure. In the winter of 2012, we began by 
having listening sessions in the Katahdin region. We had 4 
focus groups and 80 in-depth interviews with stakeholders 
throughout the northern Penobscot County. We learned that size 
was important. It couldn't be too big. It couldn't infringe on 
the forest products industry. The hunting, fishing, and 
snowmobiling were vital to the region and the outdoor economy 
in the region, so we knew all those things were very important.
    And to be clear, we started this as a legislative 
objective. We worked with our congressional delegation for 4 
years, drafting legislation that we hoped would be introduced 
into Congress. This is the way we felt would be the most 
effective and the most transparent process.
    We worked with our congressional delegation until the 
summer of 2015, when they had decided they did not feel 
comfortable introducing legislation. So, at that point we let 
them know that we were going to start working with the White 
House to see if they would be willing to take this gift.
    With our first meetings with the White House, they told us, 
``It is very generous. However, you have to prove that there is 
public support.'' That public support then took a year to 
identify, and it was with public meetings, town hall listening 
sessions, letters to the editor, letters to the congressional 
delegation, to the White House, and to the Department of the 
Interior.
    Over the course of that year, we were able to show hundreds 
of interest groups, sportsmen organizations, businesses, and 
individuals who supported it, and ultimately, were able to take 
all of the public use and access into account, and shape 
something that was very unique to the Katahdin region, and 
incorporated all of the things that people wanted.
    Mr. McClintock. All right, thank you very much. The 
gentlelady's time has expired.
    I should note it is traditional on this Committee to 
introduce Members in order of seniority. But those lists are 
occasionally modified by the Majority or the Minority. So, we 
will next go to Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. I appreciate each one 
of you being here today.
    First I would like to submit for the record 29 letters of 
support of reducing the footprint of the Organ Mountains 
National Monument.
    Mr. McClintock. Without objection.
    Mr. Pearce. When it was announced that there was an ongoing 
effort almost 12 years ago in the Organ Mountains, pretty early 
on we submitted a bill of 60,000 acres that protected the 
footprint of the Organs.
    That was then sort of the small position in the whole 
discussion that lasted for almost a decade. And even when the 
Democrats had full control and a filibuster-proof Senate, they 
could not pass the big, expansive bill that eventually got put 
into place by Executive Order because they knew the local 
people were in deep disregard of the 600,000 acres that 
eventually got put into the Organ Mountains-Desert Peaks 
National Monument. The consensus in the community was, yes, we 
want to protect that, but we also don't want to take away the 
economic potential. So, I hear this mantra, that if you have 
public lands your pay increases. It is one of the strong 
Democrat counties in my district that keeps pointing out--Grant 
County is the home to the Gila National Forest, or the Gila 
Wilderness. That was the first wilderness put into protected 
status. And they tell me, ``We don't need more wilderness here, 
because that is choking off our economic potential.'' That is 
in an area that typically doesn't look at things from a 
Republican point of view, and yet they are alarmed at this grab 
going on by the government that has played out in the West. The 
economic potential does not increase.
    In fact, the day the Executive Order was signed that set 
aside the desert, the Organ Mountains, then the largest kind of 
off-road competition in the entire Nation decided to leave the 
area, and they announced they were pulling out. Because of that 
designation, they would have been able to get in and do their 
off-road sport, but it just was not going to be worth the 
effort.
    That cost the local community of Las Cruces $5 million 
right off the bat. And that has not been replaced. The ranchers 
invite me out to look through the 600,000 acres and see if 
there are any cars out there at all. We will drive around it, 
and we will be the only car there. I will just tell you that 
when you get past Texas into these wide-open lands of the West, 
they are pretty routine, and people don't come out to look at 
the sagebrush.
    So, I think all that is being suggested in this discussion 
in the hearing and then later, in the presidential actions, is 
just to retreat back to the footprint that the law initially 
calls for. The law says you can protect objects. But again, the 
Organ Mountains designation was very light on object 
description, and very heavy on prose. And that was what was not 
supposed to occur.
    So, I do think there is a valid reason for reviewing the 
designations, and there is a valid reason for, in certain 
cases, when the law has not been followed, that we should, in 
fact, reduce the acreage.
    Now, Ms. Clarke, you have probably seen as closely as 
anyone, as former director of BLM. Can you tell me what your 
perspective is on the effect of the public lands in many of 
these western states. And I am not talking about oil and gas 
lands, and those, just the broad, open ranges. Can you talk a 
little bit about how that affects, either plus or minus, the 
economies?
    Ms. Clarke. Interestingly, I arrived at the BLM at the tail 
end of the Clinton administration, and many monuments were 
created in the proceeding months. I visited many communities 
and their new monuments, and talked to very distressed locals 
who were upset about it, who were upset that they were not 
consulted, who were concerned about the economic impacts.
    Again, I think these communities work to have a good 
relationship, and this destroyed all that trust.
    Mr. Pearce. I appreciate that. And just one last thing, Mr. 
Chairman, before I yield back. The former Sector Chief of both 
the El Paso and Tucson sectors of the Border Patrol highlights 
how security of the Nation is affected by these designations, 
and much of the Organ Mountains Monument lies along our 
southern border. So, we see what happens to the Organ Pipes 
over in Arizona. That is also going to happen in that 
designation.
    I thank Ms. Clarke for her comments, and thank the Chairman 
for his indulgence. I yield back.
    Mr. McClintock. Thank you. Next is Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. And welcome, 
Governor LePage.
    My question is, one of the aims of our system of national 
monuments is to protect and interpret historic, scientific, and 
environmental assets that need to be protected in perpetuity. 
Those assets include cultural, ethnic diversity, identity. Do 
you, as governor, agree that this is an important goal?
    Governor LePage. Let me qualify this by saying I think 
preservation for a forest is devastating. I think conservation 
of a forest is the proper way to approach it. I think a forest 
is like a garden----
    Mr. Grijalva. I know, but my time is--Governor, my 
question----
    Governor LePage. From a cultural point of view, this 
monument is doing just the opposite of what Maine is used to 
with its culture. We have had----
    Mr. Grijalva. Well, this hearing is about the Antiquities 
Act, and it is particular to the designation that just occurred 
in your state. But do you think it is important to protect 
iconic places that tell the story of, for instance, civil 
rights, gay rights in this country?
    Governor LePage. Oh, absolutely. I believe that it is 
important to protect the culture of the United States. And this 
designation does not do that.
    Mr. Grijalva. Just for my own, and the Committee's, what 
percentage, Governor, of your state's income is based on 
tourism, if you were to----
    Governor LePage. I am sorry, I didn't----
    Mr. Grijalva. What percentage of your state's income is 
based on tourism?
    Governor LePage. I couldn't tell you that, sir. Between 
tourism and pulp and paper, I would say tourism probably has a 
slight edge, but we are still the Number 3 largest paper 
producer in the United States of America.
    Mr. Grijalva. If I may, Ms. Clarke, is it true that no 
administration, whether it is the Grand Staircase or now the 
discussion about Bears Ears--that no administration, including 
the one in which you served, has ever attempted to revoke a 
monument, an existing monument?
    Ms. Clarke. That is my understanding.
    Mr. Grijalva. Do you believe the president, this president, 
has the authority to unilaterally abolish national monuments?
    Ms. Clarke. That notion has not been challenged in court. 
So, I am not going to opine as to whether he has that authority 
or not.
    Mr. Grijalva. And, Secretary Zinke, in the review that was 
mandated to him by the President of the designations for the 
last 10 years of national monuments, do you think, as you 
indicated in part of your testimony, do you think that the 
Secretary on this review is going to do and recommend to the 
President, should he have public hearings in all of these 
sites, all 20, 30 that he is reviewing, public hearings, 1, 2 
in each one?
    Ms. Clarke. He has been given a very limited time to 
complete a very demanding process, and I don't know how that 
will be designed. I am sure he will be reaching out to people 
in communities.
    Mr. Grijalva. Thank you. To the whole panel, one of the 
biggest threats, if not the biggest threat, to our public lands 
is climate change. And we just witnessed this week millions of 
Americans calling for action on climate change.
    Though I oppose President Trump's Executive Order on 
monuments, do members of today's panel think these reviews 
should focus on the growing negative impacts of climate change 
on our parks and national monuments--I will go down the line, 
beginning with the Governor, if you don't mind, sir.
    Governor LePage. I would say that climate change has a big 
impact on our planet. But even worse is poor management of our 
forests.
    Mr. Grijalva. So, that would be a yes?
    Governor LePage. No. I would say that more important than 
climate change to our existing forests, particularly in Maine, 
is the management of our forests, which preservation does not 
do.
    Mr. Grijalva. Please, Ms. Clarke----
    Ms. Clarke. I am not sure that any of the monument managers 
or those states can avoid the changes in climate. And, 
obviously, those are going to be a consideration in management 
decisions.
    Mr. Grijalva. Mr. St. Clair?
    Mr. St. Clair. I believe the protection of national 
monuments, and certainly the national monument that was created 
in Maine, provides fantastic adaptation and mitigation for 
climate change, going forward, yes.
    Mr. Grijalva. Sir?
    Mr. Marshall. I think forest conservation, as the Governor 
said, is an important part of the absolute mandates that need 
to be addressed, because forest conservation will be a part of 
the discussion in climate change, absolutely. Preservation 
typically leads, in our area, to a catastrophic fire, which has 
a massive release of carbon.
    Mr. Grijalva. Thank you, Mr. Chairman. One yes, one almost 
yes, and two maybes.
    [Laughter.]
    Mr. McClintock. And no more time. Next is Chairman Bishop.
    Mr. Bishop. I appreciate all of you being here. Many of you 
had difficulty with our names. I want you all to know that you 
got the name Bishop correct.
    [Laughter.]
    Mr. Bishop. Thanks for everything.
    Kathleen, let me talk to you first. Amongst your resume, 
you were the Federal Bureau of Land Management Director here in 
Washington between the monuments--the designation of Grand 
Staircase and the Bears Ears catastrophe. I have 20 minutes of 
questions I am going to get done in 4 minutes and 34 seconds 
with all of you, so I am going to do these quickly.
    Ms. Clarke, the Utah Geological Survey estimated that the 
State School Trust Fund had about $17 to $25 billion worth of 
potential revenue coming from Grand Staircase-Escalante. What 
could that have done to the school kids of Utah?
    Ms. Clarke. That would have been an absolute boon to the 
kids, and they desperately are in need of increased funding.
    Mr. Bishop. So, SSTL, or the State School Trust Lands, has 
only 6 percent of Utah. But in Bears Ears, there are 109,000 
acres of SSTL lands that are locked in there with nothing else 
to do about it. What is that going to do to the trust fund for 
the school kids of Utah?
    Ms. Clarke. Well, clearly, that is going to, again, 
diminish opportunity. And that is a very significant part of 
the expectations for budget revenue.
    Mr. Bishop. And I did just talk to Representative Pearce 
while he was here.
    And to Ms. Tsongas, your statement that there were no 
private lands, that is inaccurate. There are 8,000 acres of 
private lands that are locked up in the New Mexico one, within 
the boundaries, that have not been adjudicated, they don't know 
how to try and get that through. That is why Antiquities Act 
designations are so desperately bad.
    Ms. Clarke, let me come back to you. The Grand Staircase-
Escalante designation--when that happened, there were 81 
grazing jobs that were lost, as well as the shutdown of a plant 
where 1,100 jobs were lost.
    Ms. Clarke. Eleven hundred jobs. The grazing----
    Mr. Bishop. Is there anything in the tourism community that 
has equaled that down there?
    Ms. Clarke. No, it certainly has not substituted. There are 
a lot of part-time tourism jobs, taking care of activities in 
motels and restaurants. But those are seasonal. You go to some 
of these little communities in December, you cannot even find a 
place to eat.
    Mr. Bishop. Let's go to San Juan County, then. It has one 
national monument, one national forest, one national recreation 
center, three national monuments. Despite that, it is still the 
poorest county in the state of Utah. It has doubled the 
unemployment rate, or the people living in poverty in Utah. 
Will one more national monument help that county prosper?
    Ms. Clarke. Absolutely not.
    Mr. Bishop. And that is the bottom line of what we are 
doing.
    Governor, let me thank you once again for being here, and I 
appreciate it very much. If I could ask you a couple of simple 
questions. When Pew did their environmental report on this--on 
what you have up there, they had some negative things to say 
about it. And one of the things they said, ``Nonetheless, 
unless a long-standing tradition is suddenly broken, creating 
any new Federal designation regarding the level of protection 
it provides must have the backing of key local and statewide 
constituencies, and a majority of Maine's political leaders.''
    ``Based on our''--this is still Pew--``Based on our 
interviews, we do not find a strong core support for creating a 
national park in Maine's north woods, or any new Federal 
designation for land in that region.'' Are they off point?
    Governor LePage. No, they are right on the money. Matter of 
fact, one of my recommendations to this Committee and to the 
Congress is, if you are going to do anything with the 
Antiquities Act, make sure that the state in which the 
monuments or the parks are going to be designated from, that 
they have a dialogue with their legislature, with the public, 
and with the governor.
    Mr. Bishop. So, let me get this right. The governor posed 
it, the state passed a bipartisan bill against the monuments. 
The Senators and the Congressmen sent letters expressing 
serious concerns about the reservation--73 out of 75 local 
elected officials opposed the National Monument in the only 
Park Service listening session that they had up there.
    We have something here that--this was created by fiat. 
Nobody in the delegation, who actually even introduced a study 
resolution--and I appreciate the fact that some of the people 
in Maine wouldn't take no for an answer, but that was 
essentially the no.
    Also, the Elliotsville Plantation, Incorporated did an 
evaluation on a proposed national park up there. And their 
evaluation judged the proposal met in all aspects and criteria 
except for feasibility. Do you believe that the Elliotsville 
Plantation did not press the Members of Congress to introduce a 
bill on feasibility because their own report said they did not 
meet the needs of that study?
    Governor LePage. They did not meet the needs.
    Mr. Bishop. I am sorry, that was--thank you. You gave a 
short answer; I gave a long question. There are more long 
questions to do in the next 19 seconds. No, I can't do it.
    Mr. St. Clair, I do have a question for you. Thank you for 
being here. I wish you had been at the other, earlier hearing 
that we had that you called a sham. I am glad that you are 
finally here for this one. But there are some concepts I have 
specifically about the $40 million, as well as some of the 
concepts you said about deeds. And I will be asking that at a 
later time, or maybe for the record. I yield back.
    Mr. McClintock. Thank you.
    Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman.
    First of all, thanks to all four of you for being here, 
taking the time and the preparation to come here. I know it can 
be difficult. So, thank you very much; I appreciate it.
    I hail from the central coast of California, the 20th 
congressional district there--Monterey, Santa Cruz, Salinas, 
what I would consider one of the most beautiful areas in the 
Nation. And I think, because of that, we have had three 
national monuments in my district: the Fort Ord National 
Monument; the California Coastal National Monument; and 
recently we had the Pinnacles National Monument, which then 
became the 59th State Park recently, the latest state park--
national park, excuse me, the Pinnacles National Park.
    All three of those national monuments contributed greatly, 
and continue to contribute greatly to the economic and 
environment impact of that area. There is no doubt about it. I 
mean if you look at the Fort Ord National Monument, which was 
created--20,000 acres created on the former Fort Ord, now we 
have biking, we have hiking, we have horseback riding, we have 
trail guides, and have a number of businesses and a number of 
jobs that have been created because of that national monument.
    Pinnacles now-National Park has an economic impact of over 
$13 million to the local communities each year. Yes, mainly, 
that can be contributed to the fact that it became a national 
park recently. But there were a number of visitors there, 
prior, when it was a national monument.
    And environmentally, it is where my family, my grandfather, 
who was an Italian immigrant, came to that area. My father was 
raised there, I was raised there, my daughters are going to be 
raised there. I look at these national monuments. They are 
basically living postcards that we can send to our future 
generations. And I am fortunate for that.
    So I feel, despite what we have heard today, that, at least 
on the central coast of California, there are a number of 
benefits that these national monuments can have on certain 
areas. So, I guess my question would be to Mr. St. Clair, what 
would you say would be the positive economic benefits, or 
environmental benefits, to the national monuments that you 
discussed earlier?
    Mr. St. Clair. Well, the National Monument that was created 
in Maine lives in the National Park System, and so the 
legislation that created the National Park Service, the Organic 
Act, says to conserve unimpaired for future generations and 
enjoyment.
    So, not only does it talk about the conservation 
implications, but it is for people. And that is the piece that 
brings people and jobs and boosts the economy around national 
parks. We are very fortunate to have those benefits, and in the 
short 8 months since the creation, already have started to feel 
the increase in visitation and the increase in jobs.
    Mr. Panetta. Great. Now, you talked earlier about--a 
question was posed to you about the input that you received 
from the local communities, correct?
    Mr. St. Clair. Yes.
    Mr. Panetta. And you actually did polling, as well, is that 
true?
    Mr. St. Clair. Several polls, yes.
    Mr. Panetta. How did that turn out?
    Mr. St. Clair. They were never--they were always in 
support. And, as the years went on, support increased.
    Mr. Panetta. The information that you gathered from your 
outreach and input that you took in from the local communities, 
did you provide that to the executive branch when you were 
lobbying them?
    Mr. St. Clair. Absolutely. And, to make the point more 
clear, the report that Pew did that was referenced by Chairman 
Bishop was done in 2011. That was when I began work in the 
Katahdin region. And to see our body of work was the amount of 
support that started with very little in 2011 to a lot in 
August of 2016.
    Mr. Panetta. Great. Thank you. I appreciate it. And, once 
again, thanks to all four witnesses.
    Mr. St. Clair. Absolutely.
    Mr. Panetta. I yield back my time.
    Mr. McClintock. Thank you. Next is Congressman Thompson.
    Mr. Thompson. Thank you, Chairman. And thanks to the 
members of the panel that are here.
    Mr. Marshall, according to your testimony, the entire 
public library system in Douglas County needed to be shut down 
for the lack of revenue from the Federal forests. If this 
expansion results in further decline of timber production, what 
other public services could the surrounding communities lose?
    Mr. Marshall. Yes, you are referencing the O&C lands. The 
O&C lands directly--the funds from the timber harvest paid by 
the timber companies go directly into the counties for funding 
for essential public services, including libraries, police 
protection, and other things like street maintenance, et 
cetera.
    There is a full suite of public services that, as the land 
base continues to diminish, and the outputs continue to go 
down, that are impacted directly by the lack of funding.
    Mr. Thompson. Because of the decline in revenues and 
increased restrictions in the national monument, much of the 
infrastructure is either deteriorating or blocked off by the 
BLM. In the event of a catastrophic wildfire, what challenges 
could this create for firefighters?
    Mr. Marshall. Infrastructure is critically important to 
initial attack to put out these fires. The first designation of 
the Cascade-Siskiyou National Monument included an expansion 
into the wilderness and further putting roads back off the 
grid, actually decommissioning roads throughout the landscape. 
So, initial attack becomes a very big challenge. In our western 
forest landscapes, if you are not there in the first critical 
moments of a fire, the expansion becomes very fast and very 
aggressive in these overstocked forest stand conditions.
    Mr. Thompson. With your background and, Governor LePage, 
your background in forest products, isn't it true that a forest 
that has good, healthy, active management is basically a carbon 
sink? It is not carbon-neutral, it is carbon-negative, whereas 
a forest that is locked up, preservation, unattended to, not 
actively managed actually becomes a carbon emitter? Is that 
correct?
    Governor LePage. That is correct. As I tried to say 
earlier, a forest is like a garden. It just takes a lot of 
years to grow. If it is not properly managed, it will get 
weeds, you get blow-downs, dead wood, it covers the bottom 
floor. It becomes a very, very risky proposition, and a nasty 
objection that I have to preservation versus conservation. 
Conservation keeps a healthy forest, keeps the young growth 
healthy and growing, keeps the older growth, the class balance 
of your forest growing.
    A working forest has a good class-age distribution. And 
that is what I think you lack when you preserve. And you can 
see that in some of our national parks, and that is why some of 
the wildfires we have are catastrophic.
    Mr. Thompson. Some have said that the forest products 
industry is in decline, but the mills still provide good jobs 
in this area. And Maine's forest products industry contributes 
$8 billion annually to the economy, based on what I read. How 
does this designation affect local businesses struggling to 
survive and limit future growth in the forest product industry, 
and Maine, generally?
    Governor LePage. Well, particularly in this area, here, 
right now we have on the drawing board a very large investment 
that is being proposed. The problem is you are taking land out 
of production that is near to this facility.
    This region of Millinocket, East Millinocket and Medway, 
has been hit very, very severely with the loss of two paper 
mills. We have investors interested in coming back to the 
region, but they need to have the availability of resource. 
With the Baxter State Park and the Monument, it is taking a lot 
of land off the rolls. And therefore, they are just going to 
have to look at other areas, which leaves this particular area 
vulnerable for growth.
    Mr. Thompson. Thank you, Chairman. I yield back.
    Mr. McClintock. Thank you. Next, Mr. Brown of Maryland.
    Mr. Brown. Thank you, Mr. Chairman. I do want to thank the 
members of the panel. This hearing is focused primarily on 
large-scale monuments, specifically on large forests and the 
management of and public access to them. However, the Executive 
Order on the review of designations under the Antiquities Act 
includes a confusing clause that leaves open the possibility of 
a review of any monument of any size declared since 1996 that 
the Secretary personally determines was established without 
sufficient local input. This leaves any monument open to 
review.
    Maryland is home to both the Chesapeake and Ohio Canal 
National Historic Park and the Harriet Tubman Underground 
Railroad National Historic Park. Like many national parks, 
these areas first began as monuments created by presidents 
under the Antiquities Act, to be preserved for their historic 
and cultural significance. The use of the Antiquities Act made 
certain that these areas would be preserved in the public 
domain indefinitely, and to be kept accessible for generations 
to come, so that they could experience that cultural and 
historical significance.
    Monuments such as those for Harriet Tubman are particularly 
important. National monuments tell our story, as Americans. 
And, as of 2014, only 26 monuments recognized the achievements 
of the African-American community; 19 monuments for the Latino 
community; and 8 for women. The Antiquities Act is a critical 
tool used in ensuring under-represented communities are 
commemorated for their contributions to American history.
    In addition to the Harriet Tubman Underground Railroad 
National Monument, President Obama used the Act for sites 
commemorating Cesar Chavez, a National Monument in California; 
Colonel Charles Young and the Charles Young Buffalo Soldiers 
National Monument in Ohio; the Belmont-Paul Women's Equality 
National Monument in Washington, DC; the Hanalei National 
Monument in Hawaii; and the Stonewall National Monument in New 
York. Together, these tell the diverse story of America, 
interwoven from the experience of so many different people from 
all nationalities, creeds, and backgrounds.
    Mr. Chairman, I now ask unanimous consent to enter into the 
record testimony from Ms. Stephanie Meeks, President and CEO of 
the National Trust for Historic Preservation. In her testimony, 
Ms. Meeks further outlines the need to protect the Antiquities 
Act to preserve our national landscapes, as well as our 
cultural monuments that show who we are, as a country, and how 
far we have come.
    [Pause]
    Mr. Brown. Unanimous consent to enter----
    Mr. McClintock. Oh, I am sorry----
    Mr. Brown. No, that is OK.
    Mr. McClintock. Yes, without objection.
    Mr. Brown. OK, Mr. Chairman, I yield back the balance of my 
time.
    Mr. McClintock. OK. That is what I was waiting for. Next is 
Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman, and thank you for 
holding this hearing today. And thank you, all of you, for 
being here.
    Since I was first elected to Congress in 2010, I have 
introduced legislation in each Congress to amend the 
Antiquities Act. I know that I am not the only Member who has 
introduced legislation related to this. But, Governor, you will 
be happy to know that I am reintroducing my bill today that 
will require states to approve monument----
    Governor LePage. Thank you.
    Mr. Labrador. And I hope that we can have a hearing soon on 
it, and have it pass in the Senate.
    I am pleased that last week President Trump ordered a 
review of national monument designations designated by his 
predecessors. But we cannot stop there. I am hopeful that this 
Congress will build on the President's actions and re-assert 
its authority over our public lands, and pass legislation to 
permanently reform the Antiquities Act.
    Individuals who live near our public lands and state and 
local elected officials know how to best protect our cherished 
lands more than any bureaucrat in Washington, DC, or any think 
tank, or any other group like that, or even the President of 
the United States. We must make sure that those who live and 
work on and near our public lands have a voice when it comes to 
decisions regarding the designation of national monuments.
    Governor, did the state of Maine or any of the localities 
around the Monument support President Obama's decision to 
designate the National Monument?
    Governor LePage. Not that I am aware of. It was not a very 
pleasant time for the state. In fact, they had a public hearing 
at the University of Maine in Orono about the Monument. People 
were bussed in, proponents were bussed in, while the opponents 
had to come at their own expense. And that was telling, really 
telling to me, when you have to bus people in from southern 
Maine up to the university, so that you can have a public 
hearing, and then most of the people that showed up were people 
from the general community, surrounding communities, who were 
opposed to having it.
    Mr. Labrador. But Mr. St. Clair just said that all their 
data shows that the public supported it.
    Governor LePage. Well, I'll tell you, he also said--I heard 
somebody say that information was given to the executive, and 
that is clearly not true. I just met Mr. St. Clair for the 
first time this morning.
    Mr. Labrador. Were you or any other state or local elected 
officials involved in the development of the proposal?
    Governor LePage. No. And when Secretary Salazar came to 
Maine to visit, they deliberately forgot to invite the 
Governor's Office or to let the executive know he was in town.
    Mr. Labrador. Because governors don't matter that much, 
right?
    Governor LePage. That is right.
    Mr. Labrador. Were you asked to provide feedback as the 
Monument was being developed?
    Governor LePage. No, never.
    Mr. Labrador. What recourse do you have, now that President 
Obama has designated the Monument?
    Governor LePage. The only recourse, I believe, the solid 
recourse would be Congress changing the Antiquities Act and 
taking a hard look at it. Second--because I do believe that if 
a president can unilaterally take action, then I think another 
president should also be able to take unilateral action.
    Mr. Labrador. According to Mr. St. Clair, there have been a 
bunch of jobs created because of the Monument. What has been 
your experience, as the governor of the state?
    Governor LePage. Well, the area that he is speaking about 
is one of the highest unemployment areas in the state of Maine. 
And I will say this--the state of Maine's unemployment right 
now is at 3 percent, which is very, very pleasant. And we are 
trying to get people to Maine to take some of these jobs.
    So, I will say this to Mr. St. Clair. The growth in the 
state of Maine is on the coast. Between May 31 and Labor Day we 
will have 40 million visitors, but they will be to the coast. 
Very few are going to be in the----
    Mr. Labrador. Ms. Clarke, again, thank you for being here 
to testify. Based on your experiences in Utah, does the 
creation of a national monument boost economic activity?
    Ms. Clarke. I do not believe it does at all, because it 
shuts down the kind of economic activity that pays good jobs 
and supports families.
    Mr. Labrador. Can you provide some examples of the negative 
economic impacts of national monument designations?
    Ms. Clarke. Gateway communities near the Grand Staircase 
National Monument are dying. Last year, the County 
Commissioners in Garfield County sent a letter to the Governor, 
asking him to declare a school disaster, an education disaster 
in the county, because his schools have lost so many students 
that they are not getting enough funding to keep them 
supported. Right now there are only 57 students in those 
schools. Families are leaving.
    Mr. Labrador. Are there better ways to protect these areas, 
instead of a designation of a national monument?
    Ms. Clarke. You know, these areas in Utah are bold and they 
are not going anywhere. They are not fragile. And the locals 
have been there and cared for them for generations.
    I think, as I stated in my testimony, the designation, if 
anything, brings folks in and they do more harm than good.
    Mr. McClintock. Thank you.
    Mr. Labrador. All right, thank you.
    Mr. McClintock. Next is Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman.
    Mr. St. Clair, it seems that we are playing a little bit 
what came first, the chicken or the egg, here. And it has me a 
little bit confused as to exactly how much public input--it 
appeared from your statement that community went all out and 
provided for a lot of input.
    Can you respond to some of the comments that were made by 
the Governor? Oftentimes, our big egos in government get hurt 
if we don't receive a special invitation. Was he not given a 
special invitation to attend any of these hearings?
    Mr. St. Clair. Well, we did reach out to the Governor's 
Office a number of times, and he was invited to all the public 
meetings, including the field hearing that this Committee had 
in the Katahdin region, where the Governor did come.
    I had met with his chief counsel every day a number of 
times, sat next to him at the public meeting that Senator King 
and Director Jarvis had in Orono, and sent numerous letters of 
support from the local chambers of commerce, Rotary, hospital 
boards, and elected officials from the Katahdin region and 
Penobscot County directly to the Governor.
    So, we had done our best to make clear that support was 
there and, in fact, growing.
    Mrs. Torres. So, in your opinion, the community came out to 
build up this monument, to create something to leave back for 
future generations? It appears to me now, in hearing some of 
the testimony and some of the comments, that this is now a 
Congress-created paranoia to tear down this monument, to take 
away what the community had built for all of these years of 
open hearings and community outreach.
    Mr. St. Clair. Yes, that is right. And many of the 
community members are here in the audience today who supported 
the Monument. And ultimately, we would have liked to have seen 
legislation pass through Congress, and that is still our goal. 
I think that is the most effective way to do this.
    Mrs. Torres. The proclamation for the Katahdin Woods states 
that there is significant opportunity for scientific discovery 
because much remains to be discovered about Native Americans 
who once lived in the area.
    How do you respond to the statements that monuments are too 
big, when much is unknown still, and this violates the smallest 
area compatible portion of the Antiquities Act?
    Mr. St. Clair. Well, the exact inverse is true in Maine, 
where our initial proposal and the proposal that got public 
support was for 150,000 acres. And when we started working with 
the White House, they said, ``Look, the only way that we will 
do this is if it is the smallest possible area, and only land 
owned and donated by your foundation.'' So, ultimately, it 
became quite small.
    Mrs. Torres. Thank you. I am going to yield my 2 minutes to 
our Ranking Member.
    Ms. Hanabusa. Thank you, Mr. Chair. I assume that that is 
OK with you.
    Mr. McClintock. It is.
    Ms. Hanabusa. Mr. Chair, one of the things that has been 
said is--and we want to clarify this--that in the case of 
monuments, just like in parks and forests, they can and do 
include what is called Federal in-holdings. The monument does 
not alter the rights of those non-Federal owners. And that is 
why local landowners support the Cascade--I am going to say 
this wrong--Siskiyou Monument.
    For that reason, Mr. Chair, I ask that the document, 
Cascade-Siskiyou Monument Expansion 2016 Campaign--and these 
contain letters of support--be included in the record.
    Mr. McClintock. Pronounced Siskiyou.
    Ms. Hanabusa. Siskiyou. I got it.
    Mr. McClintock. Without objection.
    Ms. Hanabusa. Thank you. And I yield back.
    Mr. McClintock. Does the gentlelady yield back? Mrs. 
Torres?
    Mrs. Torres. I will ask one more question.
    The mission statement of the Department of the Interior 
literally says that the Department protects and manages the 
Nation's natural resources and cultural heritage; provides 
scientific and other information about those resources; and 
honors its trust responsibilities, or special commitments to 
American Indians, Alaska Natives, and affiliated island 
communities.
    Mr. St. Clair, in your opinion, how does the shrinking of, 
or rescinding of, a national monument designation help the 
agency fulfill its obligations?
    Mr. St. Clair. I don't think it would. I think that it is 
important that--certainly, the native Penobscots, in the case 
of Maine, their sacred land is protected and interpreted to the 
best of the agency's ability.
    Mrs. Torres. Can you speak to the impact the designation 
has for the--I am going to say this probably wrong--Wabanake 
people? And particularly the Penobscot Indian Nation.
    Mr. McClintock. I am afraid that is going to be a yes or 
no. The time has expired.
    Mr. St. Clair. It has been positive.
    Mrs. Torres. Thank you.
    Mr. McClintock. Great, thank you. Next is Mr. Tipton of 
Colorado.
    Mr. Tipton. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I thank our panel for taking the time to 
be able to be here.
    I would actually like to be able to follow up, because I 
think it was a pretty good segue in regards to the Ranking 
Member's statement, saying that the designation of a monument 
does not alter the rights of the landholders.
    Living in Colorado, we have had in-holdings on those lands. 
And, Mr. Knox, would you maybe speak to this? I think you had 
cited a solicitor general opinion earlier in regards to, once 
we have a presidential designation, not going through the 
legislative process, not having Congress involved in the 
process, you do catch up private lands that are then included 
in a designation. Can you speak to that?
    Mr. Marshall. I think your question is twofold. The O&C 
lands are unique, and they are designated by Congress under the 
O&C Act of 1937 to be dedicated to permanent timber production. 
That is one question of the president proclaiming them for 
another use.
    The private landholdings I will speak to. We are an owner 
that has the boundaries. The ownership in the Cascade-Siskiyou 
National Monument is checkerboard. Within that are access 
agreements with the BLM that basically give us opportunities to 
move and remove our forest products.
    With the access--the management guidelines for the Monument 
do not run parallel to the management guidelines of industrial 
forests. So, the forests are going to be subject to long-term 
restrictions on access and long-term increased threat of 
wildfire from the neighbors' activities, which will not be for 
forest resiliency and forest health. It will be for forest 
preservation.
    So, it is true that we still have rights to do some of the 
things we want to do removing these lands. But within this 
checkerboard--all four of our boundaries of some of our lands 
are national monuments now--we are going to see limitations on 
access, and we are going to see conflicts with the use next 
door.
    And I say it simply as, we have the Pacific Crest Trail 
that runs through these properties, and they are going to be 
walking through one section of a monument at risk to 
catastrophic fire. Then, the next section will be industrial 
forestlands. They are just not parallel uses.
    Mr. Tipton. I don't want to put words in your mouth, and 
you can comment on this--would it have been perhaps a more 
effective way, a more deliberate way, to--if we were going to 
designate an area as a monument, to have gone through the 
legislative process to be able to explore some of the 
challenges, some of the access issues, some of the cooperation 
that you were citing?
    Mr. Marshall. Yes, I absolutely believe so. I think a good 
forest conservation effort would look at the entire landscape. 
It would not just simply recognize section lines.
    The process--we did engage with folks and said if we really 
are looking at protections, and we are looking at the 
scientific and the ecological value structure of these 
landscapes, they need to be inclusive of all the lands, not 
just necessarily the lands withheld in the ownership.
    So, things like trades, boundary adjustments, et cetera 
would have been a good thing to have in a discussion in front 
of Congress, so that we could have made some progress to make 
some of the decisions more clear and more beneficial to the 
ecosystem.
    Mr. Tipton. Thank you, Mr. Knox.
    And Ms. Clarke, maybe you could speak. We happen to have a 
common boundary along the Colorado and Utah borders they are 
going through. Just exclusive even of a designation process 
that is going in, let's go back to what I was just visiting 
with Mr. Knox on.
    When the President, the executive branch, unilaterally 
makes a decision, what forethought is going into what some of 
the needs are going to be needed for enforcement, for the 
resources that are going to be available to actually address 
those needs? Is there any forethought that goes in when we have 
unilateral designation by the President?
    Ms. Clarke. I doubt there is forethought. There certainly 
isn't any provision made for those communities. And they 
immediately feel a need for increased police presence. In the 
Grand Staircase, they have done a lot of search and rescue. 
That is an expensive operation. The communities have people 
coming and going. Their waste systems are challenged. But there 
is no additional money.
    So, I think they do put burdens on those communities, and I 
think they are created without regard to those more practical, 
mundane situations.
    Mr. Tipton. Do you think it would be useful for Congress to 
maybe be playing a role, if something is to be designated, does 
have community support, to think those issues out beforehand?
    Ms. Clarke. I absolutely think Congress should do this. And 
if Congress is unwilling, that should send a very clear message 
that this is not a good idea, and we should not embrace it 
through another means.
    Mr. Tipton. Thank you, Ms. Clarke. My time has expired.
    I yield back, Mr. Chairman.
    Mr. McClintock. Great, thank you.
    Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman. And thanks to our 
witnesses here today.
    I think it is important to remember that the Antiquities 
Act has historically always been a strongly bipartisan piece of 
public policy. And it was just a few years ago that I wrote an 
Op Ed on the Antiquities Act with a Republican colleague, Chris 
Gibson of New York. We talked about not only the conservation 
benefits of this legislation, but also the significant economic 
boost that it invariably gives to local communities.
    Governor LePage, I listened carefully to your testimony, 
and I heard you paint a fairly dark picture about the impacts 
that some of these out-of-state visitors presumably would bring 
to this National Monument. You talked about them being 
uninspired by the cutover lands, maybe spilling over and 
overburdening the nearby state park. You talked about traffic 
and safety implications. It was almost reminiscent of one of 
your more colorful statements about outsiders coming into Maine 
and causing other problems.
    Governor LePage. You mean drug problems?
    Mr. Huffman. I am sorry?
    Governor LePage. Yes, you are talking about the drug 
problem comment?
    Mr. Huffman. I did note a similar theme. You didn't 
mention----
    Governor LePage. People die every day, sir.
    Mr. Huffman. You didn't mention impregnating young white 
girls, as you did previously. But certainly you are laying a 
lot of blame on outsiders coming in to Maine.
    And I noted you didn't talk about any benefits at all to 
this National Monument designated. Do you see no economic 
benefits, no benefits at all to----
    Governor LePage. Sir, I will say this. The Acadia National 
Park, right now, which is a jewel in the state of Maine, has 
$65 million in arrears, and I am afraid what is going to happen 
to that park in my lifetime will be what happened in 1948, 
because it is not properly managed.
    What is going to happen to this Monument, which borders and 
abuts one of our jewels in the state of Maine, a State Park, is 
going to make it vulnerable to catastrophic fires because, sir, 
the Federal Government----
    Mr. Huffman. My question, though----
    Governor LePage. The Federal----
    Mr. Huffman. My question, Mr. Governor, is do you see any 
economic benefit----
    Governor LePage. Sir, let me finish please.
    Mr. Huffman. You have mentioned----
    Governor LePage. Let me finish, please.
    Mr. Huffman. I heard your testimony about the fire risk.
    Governor LePage. Sir----
    Mr. Huffman. My question to you is do you see any economic 
benefit.
    Governor LePage. Not in this area, not in my lifetime.
    Mr. Huffman. Thank you.
    Governor LePage. Not until this forest grows up again.
    Mr. Huffman. Fair enough. Thank you. You also talked about 
the trade-off between the tourist economy and pulp and paper. 
If you had to look into the future for the economy of Maine, do 
you see a lot of upside in paper? Do you see----
    Governor LePage. Tissue paper, yes.
    Mr. Huffman [continuing]. Paper as a growth industry?
    Governor LePage. Tissue paper, yes. I think printing paper, 
no.
    Mr. Huffman. I noted that a couple years ago we hit peak 
paper, and that now, on an annual basis, we and the rest of the 
world are consuming less paper each and every year.
    Governor LePage. Printing paper.
    Mr. Huffman. OK.
    Governor LePage. Because nobody is reading newspapers. But 
there are all kinds of other papers making--like tissue paper, 
paper towels, waxed paper. The economy in Maine--we are now 
seeing people going away from plastic in grocery stores, and 
coming back to waxed paper.
    So, yes, I think there is a big growth in the paper 
industry, and I think we should be on the forefront of it.
    Mr. Huffman. All right. Mr. St. Clair, could you speak to 
this view that there is no upside whatsoever to the monument 
designation, only downside?
    Mr. St. Clair. Sure. Well, we are already experiencing 
increase in visitation, and the economy is starting to come 
back through real estate values, through expansion of existing 
businesses, and the opening of new businesses. We have seen 
that in just the 8 months.
    And I also want to be clear, this is not a zero-sum game. 
This is not that we cannot have a tourism industry without the 
forest products industry, and we cannot have a forest products 
industry with a tourism industry. They both work hand in hand. 
This is a region that has lost 5,000 jobs in the paper industry 
in the last three decades, so attention needs to be brought to 
the region, both for new forest products industry jobs and for 
tourism.
    Mr. Huffman. All right. It has been mentioned that somehow 
forestlands are inappropriate for national monument designation 
under the Antiquities Act. I just want to point out that I 
represent a forest that was one of the first monument 
designations, Muir Woods National Monument. That was Teddy 
Roosevelt himself who did it in 1908. I think he probably had a 
pretty good handle in 1908 about what the Antiquities Act 
meant.
    And I note that we have numerous times since then 
designated forests. I know that Giant Sequoia National Monument 
is another great example. If I could, in the remaining seconds, 
what is so special about these forestlands?
    I know that Gifford Pinchot himself was inspired by the 
fact that we had abused a lot of the Northeast forests and 
created the National Forest Service. Why do you and your family 
want to protect these forestlands?
    Mr. St. Clair. It is not only the----
    Mr. McClintock. The gentleman's time has expired, so be 
very brief.
    Mr. St. Clair. Sure. It is one of the last intact forests 
in the East. It has incredible waterways--the Penobscot, the 
Seboeis streams--and an incredible amount of cultural heritage, 
including a place where a young Theodore Roosevelt learned 
about being an outdoorsman.
    Mr. McClintock. Thank you. Mr. Gosar.
    Dr. Gosar. I thank the gentleman. The President's ability 
to set aside land for monuments and national parks comes from 
the outdated Antiquities Act of 1906, which was originally 
intended to protect prehistoric Indian ruins and artifacts on 
Federal lands in the West.
    More than 100 years later, the original intent of this law, 
which included language to limit these designations to the 
smallest area compatible with proper care and management of the 
objects, has been significantly abused.
    Would the staff bring up the first graphic.
    [Slide]
    Dr. Gosar. This is a pie chart compiled from information 
the Washington Post obtained from the Department of the 
Interior. And as you can see, this 1906 law has been abused by 
presidents of both parties.
    However, President Obama exceeded the intent of the 
Antiquities Act more than any other president in the history of 
this country.
    And now the second one.
    [Slide]
    Dr. Gosar. Wow. During his presidency, President Obama 
designated or expanded 34 national monuments, locking up 544.7 
million acres of water, and 8.8 million acres of land. In the 
past, national monument designations on the Antiquities Act 
have significant consequences, negatively affecting grazing 
rights, water rights, wildfire prevention management, as well 
as hunting, fishing, and other recreational activities.
    Ms. Clarke, recently, former Secretary Sally Jewell was 
quoted by the Salt Lake City Tribune as saying, ``Every member 
of Utah's delegation and Governor's office knew for years we 
would use the Antiquities Act by the end of the Obama 
administration if they were not successful at getting 
legislation passed. None of this was a surprise.''
    However, when I asked Secretary Jewell in a March 2016 
hearing whether the President intended to use the Antiquities 
Act, she said he had given her absolutely zippo about what 
designations he planned to make.
    Given your expertise in the Governor's Office, and the 
former BLM's director, can you describe the amount of 
transparency the Administration had before this designation?
    Ms. Clarke. My understanding is it was zero. I believe 
there was a report put out by the Minority party that detailed 
a whole lot of exchange of information and e-mails. That had 
nothing to do with the monument designation. Those were all 
about something called the Public Land Initiative that was a 
grassroots effort to find ways to both conserve areas and make 
other areas available for development or community expansion. 
So----
    Dr. Gosar. Did they consult with your office about maps, 
legal descriptions, specific details of the proposal before the 
designation?
    Ms. Clarke. Absolutely not. We heard none of that.
    Dr. Gosar. Well, that is enlightening. Because also in 
March of 2016, I pressed BLM Director Neil Kornze on the 
coordination between the White House, Federal land management 
agencies, Democrats, and extremist environmental groups. 
Director Kornze initially testified that no coordination was 
taking place.
    When I reminded him that he was under oath, and asked if my 
FOIA request would support his statements, his face went pale. 
He mumbled something about maybe they had a few meetings, and 
then he subsequently refused to testify before Congress ever 
again.
    I would now like to submit minutes obtained from the Grand 
Canyon Trust October 2016 meeting for the record.
    Mr. McClintock. Without objection.
    Dr. Gosar. The minutes show coordination was taking place 
between the Obama administration, Federal land management 
agencies, and environmental groups.
    Specifically on page 35, the minutes reference a proposed 
1.7 million-acre monument in Arizona, stating, ``The Grand 
Canyon Trust is now playing a central role in the campaign, 
coordinating closely with Congressman Grijalva's office, Sierra 
Club leadership, and leadership with the Department of the 
Interior and the Department of Agriculture.''
    Ms. Clarke, is it safe to say that, rather than 
coordinating with states and local stakeholders like they 
should have been, the Obama administration instead was 
coordinating with special interest groups that supported the 
misguided far-left agenda in order to lock up more land and 
water?
    Ms. Clarke. I absolutely concur.
    Dr. Gosar. Now I am going to end with my long last 
question. Mr. St. Clair, let's do a civics lesson.
    The Antiquities is an Executive Order, is it not?
    Mr. St. Clair. That is right.
    Dr. Gosar. So, it can be rescinded by an Executive Order, 
right?
    Mr. St. Clair. I don't believe it can.
    Dr. Gosar. Yes, it can. And so can Congress. As any other 
aspect that we have seen with an Executive Order, one Executive 
Order can trump another one. The only thing is it just has not 
been done. Let's get back to civics.
    I yield back.
    Mr. McClintock. Thank you. Next is Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman, very much. And thank 
all of you for being here. I have almost as many questions as 
Chairman Bishop, so I would appreciate maybe one-paragraph 
answers.
    Mr. Marshall, did the Pacific Crest Trail Community support 
the monument designation? And are you really making the case 
that those hikers and riders would rather ride through your 
cutoff lands, rather than the parks and the monuments?
    Mr. Marshall. I don't know what they represented. But I 
will tell you--a managed forest for conservation values can be 
just as attractive as an industrial forest. And the Pacific 
Crest Trail folks may or may not want to walk through fire-
prone landscape. But if they do, the landscapes over time are 
going to change.
    Mr. Beyer. It seems like the common theme here from the 
Majority witnesses is catastrophic fires. The last Ice Age 
ended 11,000 years ago. Forestry came to this country 300, 400 
years ago. What about those intervening 10,500 years? What did 
we do about catastrophic fires then? Why does nature somehow 
now require men to manage it?
    Mr. Marshall. Because men stopped the fire cycle, and the 
fire cycle was very important to the resiliency of the forest. 
We, as citizens, decided that fire was not attractive, so we 
stopped managing the forests, and letting them progress 
naturally. So, now the forests have grown in. It is like the 
Governor said, it is a garden. And we have let the garden 
become overstocked. And those overstocked gardens need to be 
managed, and they need to be put back on a trajectory so that 
they are healthy.
    And you know what? We, as citizens, love to have forest 
products in our buildings, in our homes, so we need to have 
some sort of----
    Mr. Beyer. I am not a professional forester, but why not 
allow the fire cycle to continue, as is happening in many 
places around the world?
    Mr. Marshall. I think what you see is these catastrophic 
fires are truly that. I mean it is not just a simple term to 
use. They are burning at a rate that is unnatural. So, the 
process of elimination of fire is an unnatural consequence, and 
we are seeing some of these things lead to deforestation. The 
forests are not coming back in these landscapes.
    Mr. Beyer. Mr. St. Clair, how do you reconcile the positive 
polling the new Katahdin worked with the referenda in East 
Millinocket-Medway----
    Mr. St. Clair. Well, the votes that were taken in those 
three towns were a small fraction of the total population of 
the town, so it was not a great representation of the 
population.
    Mr. Beyer. Could your family simply not have put a 
permanent easement on those 90,000 acres, also?
    Mr. St. Clair. We could have. We could have also blocked 
access--I mean it was private property. We could have done just 
about whatever we wanted with it.
    Mr. Beyer. Governor, you mentioned that, in trying to 
attract a forester back to Maine, that it was sort of sad that 
Baxter State Park and the new Katahdin Monument took all that 
forestry out----
    Governor LePage. Well, Baxter State Park does cut logs. 
They manage the forest. So, that is a working forest. It is 
different than the Federal Government, where they make it in 
preservation. Baxter State Park does allow for management.
    Mr. Beyer. Ms. Clarke, in your testimony you talked about--
let me see if I can quote--that increased access, increased 
visitation, leads to greater desecration. Governor LePage had 
the opposite thing, that they are closing the campsites, 
closing the ATV and snowmobile trails, closing the forest 
roads.
    So, is it too much--too many visitors, or too few visitors? 
Too much visitation?
    Ms. Clarke. The visitation in the Grand Staircase Monument, 
we can document that there have been more problems, more 
damage, artifacts we believe are being taken.
    So, we think if your goal is to protect artifacts, and 
Indian artifacts, more people are going to cause you more 
problems and more degradation.
    Mr. Beyer. Mr. Marshall, you talked a lot about the insect 
infestation. How much impact has the gradual warming of climate 
change impacted that--as an Oregon forester?
    Mr. Marshall. The exact science around that is in debate 
still, and it is developing. I mean this is a new topic, and we 
are going to follow it through. Again, I believe forest 
management has a place in the discussion. I think the overstock 
stands are nature's way of bringing them back to a stocking 
level that is in equilibrium with their actual capability--one 
of the methods is the infestation of bugs.
    Now, those things spread rapidly. Once they start, they are 
really hard to get stopped, and they continue to eat up more of 
the forest in the West Coast. Whether or not that is a specific 
reaction from the overstock conditions or climate change, I 
think we will see that prove out in science over the next 
couple of decades.
    Mr. Beyer. Yes. Every study I have seen shows that as the 
temperatures continue to go up, the insects continue to move 
north.
    Mr. McClintock. Thank you.
    Mr. Beyer. Thank you, and I yield back.
    Mr. McClintock. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. I am glad we can have 
this hearing today. It is a long time coming on an issue that 
has been controversial to this Committee.
    We see that the vast majority of this has been affecting 
the West, with these new Antiquities Act monument designations, 
although Governor LePage makes very strong cases how negatively 
it affects his state, as well, in trampling the views of the 
people who actually live and work in those rural areas.
    I think the whole concept with the monuments, which I would 
not have nearly the problem with, is the size of the 
designations. And size matters. So, if you have a particular 
area within the scope that needs protecting, I think we can 
find a lot of positive ground there. But indeed, many, many 
thousands or millions of acres is very detrimental to the 
locals.
    So, a key element of this--with the consent of the governed 
is when these things should happen. In my district, the 
previous administration designated thousands of acres of 
monument land in Siskiyou County, as was noted a while ago, 
over the direct protest of the residents and local governments. 
The county is so concerned with the impacts it sent a letter, 
which, Mr. Chairman, I would like to submit for the record a 
letter from the Siskiyou County Board of Supervisors.
    Mr. McClintock. Without objection.

    [The information follows:]

                  COUNTY OF SISKIYOU, CALIFORNIA,  
                              Board of Supervisors,
                                          Yreka, California

                                                  February 14, 2017

President Donald J. Trump
The White House
1600 Pennsylvania Avenue NW
Washington, DC 20500

Subject: Expansion of the Cascade-Siskiyou National Monument

    Dear President Trump:

    We write this letter to draw attention to the irresponsible and 
potentially illegal expansion of the Cascade Siskiyou National Monument 
(Monument), approved by President Barack Obama on January 12, 2017. The 
Monument was originally established by Presidential Proclamation 7318 
under President Bill Clinton, and encompassed approximately 66,000 
acres within its boundaries in Southern Oregon. In October 2016, Oregon 
Senators Ron Wyden and Jeff Merkley reached out to Secretary of the 
Interior, Sally Jewell, proposing to expand the Monument by 
approximately 65,000 acres, 10,000 of which are located in Siskiyou 
County, California.
    The expansion is likely to affect the natural resources, economy 
and citizens of Siskiyou County, through the restrictions that are put 
into place after Monuments are designated. In many instances roads 
within Monument boundaries are no longer allowed for use and are not 
maintained, timber harvest is prohibited, wildfire outbreak becomes 
more prevalent as a result of non-management, public grazing lands are 
eventually severely restricted, and private lands included in Monument 
boundaries are turned over to federal agencies due to pressure to 
include these lands in the Monuments management policies.
    We raise three main issues concerning the legality and process for 
expansion of the Monument, the first being the lack of public 
engagement that took place prior to approval of the expansion. As part 
of their process in reaching out to the Department of the Interior, and 
the Department's subsequent involvement in the expansion, Oregon 
Senators Wyden and Merkley held a public hearing in Ashland, Oregon on 
October 14, 2016. There were no other attempts by the Senators, or the 
Department of the Interior, to hold any other public meetings, and 
specifically there were no hearings or meetings held in California. In 
an attempt to garnish public input, the Siskiyou County Board of 
Supervisors held their own meeting on November 17, 2016, and submitted 
all written and verbal comments provided during that meeting to the 
Department of the Interior for consideration. It seems extremely 
unprofessional that there were no attempts by the proponents of the 
expansion to hold public meetings in the state in which a portion of 
the Monument would encompass, and appears to be an attempt to stifle 
public engagement and input.
    Second, the original Monument and the expansion were both 
designated under the Antiquities Act through Presidential Proclamation 
7318, which allows the President of the United States to approve 
Monuments by signature. However, the intent of the Antiquities Act is 
to protect archeological and Native American areas by giving the 
President of the United States power to declare as Monuments ``historic 
landmarks, historic and prehistoric structures, and other objects of 
historic or scientific interest'' while at the same time limiting that 
designation to the ``smallest area compatible with proper care and 
management of the objects to be protected.'' Based on this direction, 
it is our position that the broad designation of the Monument and the 
expansion under the Antiquities Act is misuse of the Act itself, and 
does not follow the spirit and intent of the Act.
    Lastly, we believe that the Monument expansion is potentially 
illegal as it does not meet Article 1, Section 10 of the United States 
Constitution stating that ``No state shall, without the consent of 
Congress . . . enter into any agreement with another state . . .'', and 
Article IV, Section 3, Clause 2 which states that ``The Congress shall 
have power to dispose of and make all needful Rules and Regulations 
respecting the Territory or other Property belonging to the United 
States . . .'' An example of a situation where Congress was needed to 
approve such an action is Congress' approval of the Tahoe Regional 
Planning Agency, which was required before engaging the States of 
Nevada and California in mutual planning processes. The designation of 
the Monument expansion triggers the need for the states of Oregon and 
California, and state and federal agencies, to be formally engaged 
together in management responsibilities for the Monument; however no 
such approval through Congress was ever established.
    We hope that as time allows you are able to have some time to look 
into this issue. We look forward to the opportunity to work with you 
and provide additional information on this matter.

            Sincerely,

                                 Michael N. Kobseff, Chair,
                                              Board of Supervisors.

                                 ______
                                 

    Mr. LaMalfa. OK, thank you. They are concerned about the 
impacts of the designation on the increased wildfire risk, 
decreased timber harvest, restriction on road maintenance, 
limited access associated with the Monument, and noted that the 
Obama administration held exactly zero public forums on the 
issue in California.
    The order by President Trump to review monument 
designations will shed new light on the over 500 million acres 
that the Administration previously unilaterally imposed Federal 
control over. I think we will find a common theme that these 
designations were made over the protests of those affected by 
that.
    And Siskiyou County points out that their designation, as 
has been the theme today, should be the smallest area 
compatible with proper care and management of the objects to be 
protected. Based on this direction, their position in Siskiyou 
County, the designation is a misuse of the Act, and does not 
follow the spirit and intent of the Act. So, we have a giant 
problem here.
    So, from the panelists, just quickly, we see that--well, to 
the Governor there, the Katahdin designation was touted as 
protecting hunting and angling access, yet hunting is only 
allowed on approximately 40 percent of the impacted land. Does 
that jive with you, Governor?
    Governor LePage. Yes.
    Mr. LaMalfa. Yes, 40 percent--so promise semi, mostly 
broken. California, the Castle Mountain Monument was included 
in a designation that claimed to protect sporting access, yet 
the Park Service immediately closed the area to hunting.
    So, for each of our panelists--and I have to go quickly 
here, so a yes or no would be appreciated--would you support 
legislation asserting that hunting and angling is allowed at 
every monument, if it was allowed prior to the designation, 
please?
    Governor LePage. Absolutely.
    Mr. LaMalfa. Thank you.
    Ma'am?
    Ms. Clarke. Absolutely, because hunting and angling is a 
big economic force, as well as a recreational activity.
    Mr. LaMalfa. OK.
    Mr. St. Clair. Also, yes.
    Mr. LaMalfa. OK.
    Mr. Marshall. Yes, absolutely.
    Mr. LaMalfa. OK, thank you. What continues to mystify me on 
this is that, if you have the great lands of Maine or other 
areas of the United States that people are attracted to, how is 
a monument designation being listed in a book going to somehow 
have people that would not normally have been attracted to 
those lands say, ``Oh, I am going to go there now because it is 
now designated a monument,'' where in many cases they are 
actually cut off to access, less roads, roads are taken out, 
all these things that make it harder for people to use them.
    So, with that, Mr. Chairman, I would like to yield my time 
back to the Chairman, Chairman Bishop. I will hold there, I 
will yield back.
    Mr. McClintock. The gentleman yields back?
    Mr. LaMalfa. I yield back.
    Mr. McClintock. As the Chairman said, we have a request for 
a second round of questions, which is an indication of the 
Committee's interest in this subject and the quality of our 
witnesses. I will begin the second round with Governor LePage.
    When residents in Maine expressed concerns that the 
Administration would listen to Ms. Quimby over the voices of 
local people, due to her status on the National Park Foundation 
Board, the National Park Service Director Jonathan Jarvis said 
the following, ``So, let me explain who the National Park 
Foundation is. They are wealthy people. We like wealthy people, 
because they give us their money, and they know other wealthy 
people who also give us their money.'' Do you believe the 
Administration paid as much attention to local residents in 
rural Maine as they did to donors with deep pockets?
    Governor LePage. No, not at all. In fact, I think that they 
ignored the will of the governed.
    Mr. McClintock. And that will was expressed in what way?
    Governor LePage. Expressed--Mr. St. Clair said that there 
was a small vote in the referendum. Well, as people show up to 
vote, they express their feelings. It is no different than a 
poll. In fact, I would argue that the people that vote is a 
much larger poll than those----
    Mr. McClintock. Well, according to his testimony, he was 
unable to find Democrats or Republicans holding Federal office 
in Maine who were willing to take this bill to the Congress.
    Governor LePage. That is correct.
    Mr. McClintock. Does that reflect the public will?
    Governor LePage. That is correct. They ignored the will of 
the governed. And this is what I find the most disconcerting 
about what is happening in these Federal lands, and this whole 
process.
    The people of Maine would welcome this Katahdin Woods if 
they would have worked with the Baxter State Park and made it 
work together, because it is a crown jewel. One of the biggest 
concerns that we have----
    Mr. McClintock. Which, I might add, is why Congress, and 
not the President, is given the authority under the 
Constitution to manage the Federal lands.
    Governor LePage. That is correct. And our biggest fear--and 
I have expressed it once before, maybe several times today--is 
the lack of management that the Federal Government provides on 
their lands. And it borders onto Baxter State Park, which is 
properly managed. And as I said earlier, Acadia is one of my 
biggest fears, because of the deferred maintenance that is 
going on to that national park.
    Mr. McClintock. We have already established that the jobs 
that are being destroyed are high-paying, full-time jobs, and 
the tourism jobs that are being promised are, at best, part-
time seasonal jobs. Of course, you have a background in the 
lumber and paper companies before your time as governor. Could 
you talk about the types of jobs in the forest products 
industry that we are losing because of these actions?
    Governor LePage. Oh, yes. We are losing paper makers. I 
mean these are career jobs. These are people that raise 
families, generation after generation in this industry. And the 
tourism jobs--which I don't make light of them, they are very, 
very important--but, as you said, they are working in 
restaurants and hotels, and they are not a job, they are more 
of an entry-level job, rather than a career development----
    Mr. McClintock. I might add that is precisely the 
experience we have had in the Sierra Nevada. These restrictions 
have not only killed our forests, they have destroyed the 
economies of our local communities that used to thrive on the 
harvest of surplus timber.
    As one forester told me, all that excess timber comes out 
one way or another. It is either carried out or it burns out. 
When we carried it out, we had healthy forests and a healthy 
economy. And since these restrictions have been imposed, we 
have seen dying forests and a languishing economy.
    Mr. Marshall, Franklin Roosevelt's Solicitor General, when 
he wanted to designate O&C lands as a national monument, his 
Solicitor General said, ``You can't do that. That is clearly 
against the Constitution,'' and the President backed off. 
President Obama has done the same thing with Cascade-Siskiyou, 
40,000 acres of O&C lands, but in defiance of that Solicitor 
General's approval.
    Can you explain the ways the President's designation 
contradicts the congressionally mandated use of this land?
    Mr. Marshall. I am no particular expert on the exact 
limitations that it imposes, but that the designation does 
forbid future forest production.
    Mr. McClintock. Right. One more question maybe for the 
future edification of Mr. Beyer. He says that it is global 
warming that is causing the bark beetle infestation, also 
acknowledging it has been going on for 11,000 years.
    Question--how did trees normally defend themselves against 
a bark beetle?
    Mr. Marshall. They normally defend themselves by using 
their pitch in their systems to actually pitch out the bugs----
    Mr. McClintock. They can do that as long as they are 
healthy, as long as they are not----
    Mr. Marshall. As long as they are healthy and have a 
satisfactory amount of water. The overstock conditions in the--
--
    Mr. McClintock. But if the forest is desperately 
overcrowded, trees do not have enough room to grow and thrive. 
They are fighting for their lives against other trees. In that 
stressed condition, do they lose their defense against the bark 
beetle?
    Mr. Marshall. They do, and they are suffering for water to 
continue.
    Mr. McClintock. Great, thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. And I do want to thank 
all of you for being here today. I went into the questions the 
last time failing to do that.
    Mr. Marshall, what is the relationship between Murphy 
Company and Murphy Timber Investment, LLC?
    Mr. Marshall. Murphy Company is our manufacturing 
operation, where all our manufacturing assets are held. Murphy 
Timber Investments is where we started a new business to 
actually start acquiring lands and managing them for the 
production of forest products.
    Ms. Hanabusa. So, that is the one that you mentioned that 
you have 50,000 acres.
    Mr. Marshall. Correct, it is under Murphy Timber 
Investments.
    Ms. Hanabusa. On February 17 of this year, both of those 
entities sued Donald Trump, President Trump, in the U.S. 
District Court in the District of Oregon. I assume it is about 
this designation somehow. Can you explain what it is that is 
the--what we call the prayer, the relief that both of those 
companies are seeking?
    Mr. Marshall. Again, we are 100 percent dependent on the 
yield of the forest in the area where we operate. The yield of 
the forest from the excessive litigation and the lack of 
management on the Federal lands has reduced the available wood 
products for our facilities. That is why we made the leap to 
invest in the timberlands, so the claim is twofold.
    We see a reduction in the available lands to produce forest 
products from the Federal lands, plus they incorporated the 
lands we have. We are a multi-generational company, we look out 
into the long term. The prior ownerships within the first 
monument yielded a very difficult situation to continue to 
manage those lands. And they were actually eventually 
transferred and put back into the Monument.
    So, the reduction of the landscape is difficult. We do not 
want to see the landscape shrink. We want to see it be 
entirely, as much possible, utilized for forest conservation. 
There are certain areas that need to be protected, and there 
are certainly areas that need our help for forest restoration. 
And that is where we think there needs to be a broader 
discussion.
    Ms. Hanabusa. So, the companies have taken it to Federal 
court--that is the bottom line--to get this determination.
    Mr. Marshall. We have, correct.
    Ms. Hanabusa. Thank you.
    Governor LePage, I am kind of confused and I would just 
like to know from you straight on--if the Elliotsville 
Plantation, the Quimby family, had, in essence, given this land 
to the state like Governor Baxter did, you would have no 
objection to that. Am I understanding you correctly?
    Governor LePage. No, we would have negotiated some 
positions. If they would have given the land and it could be 
operated as Baxter State Park, with the same conditions and 
managing the forest--in other words, the working forest--we 
would have been far more receptive to it.
    Ms. Hanabusa. So, you would not just want land. It is not 
that you would think that it is in Maine's interest to have a 
land like--and I understand that Governor Baxter said it is to 
be preserved, basically, as a wildlife kind of refuge.
    Governor LePage. Right. It is a working forest.
    Ms. Hanabusa. So, that is what I find confusing, that you 
would not want the lands from the Elliotsville Plantation. You 
want it under certain conditions? Is that what you are saying?
    Governor LePage. What I am saying--it abuts Baxter State 
Park; and as a Federal monument, we know that Federal lands are 
not managed to the same level as we do the Baxter State Park.
    Ms. Hanabusa. That is what I am saying, Governor, in all 
due respect, is that if you could have the lands, you would be 
fine with it. But because it is Federal lands, you don't want 
it.
    Governor LePage. No. What I am saying is if it is land that 
is properly managed, it is valuable. If it is land that is just 
going to be put into preservation, it is dangerous.
    Ms. Hanabusa. So, you are saying that because it is a 
monument, and because of Acadia, you are assuming that it will 
not be managed properly. Is that correct?
    Governor LePage. Well, I am just--no, nationally. 
Nationally, the deferred spending on our parks and our 
monuments is in the billions of dollars. And that is what I 
fear.
    Ms. Hanabusa. But you do know that there is an endowment 
that comes with----
    Governor LePage. Forty million dollars for a forest is--
just Acadia alone is already deferred of $60 million.
    Ms. Hanabusa. How large is Acadia?
    Governor LePage. I don't know, I am really not certain.
    Ms. Hanabusa. So, it is like you are saying that all that 
they are saying is we are going to give $40 million, which is 
more than what the Federal Government--you know, the Federal 
Government is also giving money to the management of these 
lands, so that is an additional $40 million. And you are still 
not convinced that it will be managed properly.
    Governor LePage. That is correct, ma'am.
    Ms. Hanabusa. All right. Thank you. I yield back.
    Mr. McClintock. The Chair is informed Acadia is 49,000 
acres.
    Mr. Bishop, Chairman Bishop, to close.
    Mr. Bishop. Thank you again. As a lead-in to that, it is 
the issue of management of these areas, because that is what I 
would like to go to--Ms. Clarke, I would like to talk to you 
about the management of these areas again.
    In 2015, Garfield County declared a state of emergency, due 
in large part to the Federal land management practices. And it 
indicates the problems with the Antiquities Act. Instead of 
working out what the practices will be ahead of time, you 
declare a monument and then you try and go back and figure it 
out later on. And no one is actually ever sure what those 
managements will be. And I think, Governor, that is what you 
were saying, that you cannot guarantee what those future 
managements will be.
    Governor LePage. That is correct.
    Mr. Bishop. I want Ms. Clarke to address Bears Ears again, 
because there has been another false narrative out there that 
this is the first time that Native Americans will be in a co-
management situation on a national monument.
    You were the BLM Director. You understand that instead of 
actually giving them the ability of making decisions, they have 
a planning advisory committee----
    Ms. Clarke. Yes.
    Mr. Bishop [continuing]. That is there. Do planning 
advisory committees actually have the ability of making final 
decisions, or do you even think it has the propensity of making 
final decisions?
    Ms. Clarke. No, absolutely not. They can advise, and then 
the Federal Government makes the decisions.
    Mr. Bishop. So, in the decision, in the monument 
declaration that President Obama did, even though he said they 
were giving them management, there is no real management.
    Ms. Clarke. That is right.
    Mr. Bishop. And I understand that, because he has no power 
to do that. Only Congress can do that, and that is one of the 
reasons why we would like this thing to be a do-over, so that 
we can actually establish it at the right size, with the 
management practices stated up front, and truly give co-
management authority to the Native Americans who live in San 
Juan County to manage their area. And it hasn't happened, 
doesn't happen, can't happen, and the statements that it did 
happen are just flat-out inaccurate.
    So, basically, who do you think actually benefits the most 
from these designations, the local community? Or is it the 
tourists who go there? Or the special interest groups that 
advocate for it?
    Ms. Clarke. I think it is the special interest groups. They 
certainly are the ones that have promoted this. We were aware 
of people that were bussed in from Texas to some of the 
hearings, because they were offered 2 nights at a nice motel, 
and meals along the way. And they said, ``Boy, that is a 
deal,'' and they didn't know why they were there.
    Mr. Bishop. My kid was down there. He met them, as well. 
They were promised a free road trip to Utah, they took it, they 
had no idea what Bears Ears was.
    Ms. Clarke. That is right.
    Mr. Bishop. Neither did the President.
    All right, so let's talk about this. Three months after the 
designation, in March of this year, one of the environmental 
groups sued to block an ATV trail that the county and BLM had 
been working on for a decade, and the BLM had already 
previously approved. Do these designations then solve these 
problems forever, or do they exacerbate them?
    Ms. Clarke. They exacerbate them, absolutely. My experience 
is as soon as you designate an area as a monument, or an ACEC, 
or something special, it is a target; and every multiple use in 
that area will be challenged. And ultimately, they die away 
because of those pressures that come from the agency, as well 
as from environmental groups.
    Mr. Bishop. All right. Governor, I am looking at this as 
spur of the moment here. I am sorry. Give me your indication--
we talked about management here, we talked about what the 
tourism will be. Can you give me just your implication of what 
you think tourism jobs will mean in the National Monument--7, 
10 months from now?
    Governor LePage. I really don't know that they are going to 
be very many. We have----
    Mr. Bishop. You said people visit the coast. To go to 
Baxter Park, you have to want to go there. To go to this new 
monument----
    Governor LePage. Yes, it is a destination.
    Mr. Bishop [continuing]. It is an end destination. You 
don't go through that to get to someplace else.
    Governor LePage. No.
    Mr. Bishop. So, you have to be wanting to be there the 
first time.
    Governor LePage. That is correct.
    Mr. Bishop. I think it is what Mr. Westerman, who is a 
trained forester, was saying about that area in which he was 
skeptical, as far as its viability.
    Mr. St. Clair, I have one last thing to tell you. You said 
in the Bangor News last week that you thought restrictions in 
the deed prohibit the transfer of this land. The Congressional 
Research Service looked at the claim and the deed, and they 
simply concluded the deeds neither restrict the grantee's use 
of the land to a national monument, nor otherwise expressly 
mention national monument status. Thus, nothing in the deeds 
themselves address or precludes subsequent changes in the 
status of the land as a national monument.
    They further concluded that nothing in the deeds prohibited 
administrative transfers of land to other agencies or preclude 
Congress from transferring management or ownership to the land 
anywhere else. I hope you would modify those statements that 
were inappropriately said to the Bangor Daily News, or we could 
go with that.
    I have 2 seconds left. Thank you for holding this hearing. 
Thank you guys for coming here and traveling to Washington to 
do it. I appreciate it very much.
    Mr. McClintock. Great. Thank you very much. That concludes 
our questions. I really want to thank our witnesses for being 
here today. I think you brought this issue into very sharp 
focus for us, and I appreciate your traveling all the way to do 
so.
    The members of the Committee may have additional questions 
for the witnesses. We would ask that you respond to those in 
writing. Under Committee Rule 3(o), members of the Committee 
have to submit witness questions within 3 business days 
following the hearing. The hearing record will be held open for 
10 business days for these responses.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.

    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

                             STATE OF UTAH

                         Office of the Governor

                          Salt Lake City, Utah

                                                        May 1, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul M. Grijalva, Ranking Member,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Bishop and Congressman Grijalva:

    Utah is home to five national parks, six national forests, one 
national historic site, two national recreation areas, 43 state parks, 
and eight national monuments. Roughly 37 million out of 54 total 
million acres (two-thirds) of the entire state land mass of Utah is 
public land.
    Utahns are proud of our public lands. We love their grandeur and 
beauty. We love the opportunities they create for solitude and 
recreation. While the vast majority of these lands need to remain open 
to the public for access, use, and enjoyment, we also recognize there 
are many areas that must be preserved and protected.
    Federal land policy attempts to find the appropriate balance 
between multiple use and preservation. In many cases, federal law has 
found that balance. Unfortunately, some laws have grown outdated or 
have been abused over time and strayed far from their intended use. The 
1906 Antiquities Act is one of those laws.
    Utah has a mixed relationship with the Antiquities Act. Over the 
course of its 110-year history the state has benefited from assertive, 
yet measured, presidential action using this tool. On the other hand, 
we have also felt a deep and lasting burden when the Act has been 
misused.
    Four of Utah's five magnificent national parks began as national 
monuments. Utah is delighted today to be the proud host of these 
national parks, but the associated monument designations were small, 
appropriate and fell within the clear scope and intent of the law. 
These designations encompassed the smallest area necessary to protect 
the objects in question--sometimes a few thousand acres. Additionally, 
they enjoyed the support of Utah's leaders and the local communities 
impacted by the designations.
    Utah, however, has also experienced the downside of the Antiquities 
Act as it began to be misused and abused for political purposes. The 
Grand Staircase Escalante designation and the recent controversial 
Bears Ears designation are key examples of this. The 1996 designation 
of the Grand Staircase Escalante National Monument continues to be a 
source of mistrust, frustration, and acrimony toward the federal 
government among local residents. I'm afraid the way that local 
citizens in San Juan County were ignored in the lead up to the 
designation of the Bears Ears is setting us on the same path to 
disappointment and dissension.
    In the early days of the Antiquities Act, the average size of 
national monuments was in the hundreds of acres per monument. Now it's 
not uncommon for a monument to exceed a million or more acres. It is 
hard to look at the massive landscape, million plus acre designations 
that have occurred over the past several decades and see how those 
actions square with the clear language and intent of the law.
    Based on our experience in Utah, we believe the creation of 
million-acre plus national monuments to protect thousands of 
archeological sites is counter-productive. It is doing the wrong thing 
for the right reason. The Antiquities Act requires the monuments be 
``confined to the smallest area compatible with the proper care and 
management of the objects to be protected.'' Neither the Grand 
Staircase nor the Bears Ears meets this test.
    The intent behind the Antiquities Act is laudable and a great deal 
of good has been accomplished nationwide through its use throughout the 
last 110 years. But there should be limits upon the nature of the 
objects that may be protected, and the size of monuments should be 
limited to that which allows necessary protections for those objects. 
Any perceived benefits from the designation of huge ``landscape'' 
monuments need to be weighed against the impacts suffered by those who 
have traditionally used the lands. National monuments should be 
employed judiciously so as not to do unwarranted damage to lives and 
cultures, past, present, or future. The landscape monuments at the 
Grand Staircase and the Bears Ears as presently configured violate this 
mandate.
    Thank you again for addressing this important issue. Utah stands 
ready to work with Congress and the administration to ensure that the 
Antiquities Act is utilized judiciously, appropriately, and according 
to its intended scope and use.

            Sincerely,

                                           Gary R. Herbert,
                                                          Governor.

                                 ______
                                 

 Official Testimony--Hunter Moore, Natural Resources Policy Advisor to 
                      Arizona Governor Doug Ducey
    Chairman Bishop, and honorable members of the Committee, for the 
record, my name is Hunter Moore, and I submit this testimony to you in 
my official capacity as Natural Resources Policy Advisor to Governor 
Ducey of Arizona.
    I want to express gratitude for the opportunity to provide this 
committee with testimony related to Arizona's federal nexus and 
concerns with the Antiquities Act of 1906 (Act), and the challenges to 
state management of Arizona lands under various federal land ownerships 
which account for approximately 70 percent of the total 73 million 
acres of Arizona's land base.
    Last year (2016), Congressman Paul Gosar of Arizona, hosted a field 
hearing related to a proposed monument designation of 1.7 million acres 
of land adjacent to the existing Grand Canyon National Park and Grand 
Canyon Parashant National Monument, both created by Presidential 
Proclamations and together total approximately 2 million acres.
    Several industries, individuals and state and local agencies, 
including the Arizona Game and Fish Commission, and the State Land 
Department, provided testimony for the record regarding potential harm 
from such a large-scale designation, and generally expressed ardent 
opposition to imposing land use restrictions that are inconsistent with 
the intent of the Act and defy its explicit authorities for small, 
historic set-asides. The Antiquities Act was passed in 1906 to protect 
historic landmarks, historic and prehistoric structures, and other 
objects of historic or scientific interest. The Act clearly says a 
designation shall constitute ``the smallest amount of land possible to 
protect the artifact.''
    Arizona Senators McCain and Flake also addressed the issue of a 
proposed monument in correspondence to the former President--expressing 
concerns that a ``unilateral'' designation would negatively impact 
forest and watershed management. Moreover, they stated that imposing 
land use restrictions pursuant to the Act in designating the Grand 
Canyon Watershed National Monument would have extended ``far afield 
from the intent of the Antiquities Act.''
    We concur with the concerns expressed by so many, and now must 
actively pursue remedies for the aggrieved.
    Federal special land use designations, in general, whether created 
by executive order, congressional legislation or an administrative 
action, are eroding the ability of states' and industries to capture 
revenues from longstanding investments that have been contributed to 
those federal lands and resources. Further, both consumptive and non-
consumptive industries plan for and invest a great deal of resources 
into federal lands; which helps offsetting federal costs to manage 
them. Whether those generated revenues come as a result of mitigation 
costs from extractive industries, conservation projects by hunters, or 
land treatment costs from ranchers, the benefits are realizable to all 
that enjoy Arizona's public land, and reduce federal appropriations for 
active land management. Creating spurious, unilateral restrictions, 
such as through the Act, essentially cuts-off that investment and the 
active management of each respective landscape.
    Arizona relies heavily on its ability to balance conservation and 
multiple-use principles to provide its citizens and visitors with 
economic opportunity, jobs, recreation, and an overall quality of life. 
Restrictive land prescriptions induce unfair shifts to land planning 
priorities and prior/expended private investments. These shifts are not 
only fiscally harmful to investors and businesses; they hinder the 
effective management of the natural resources that they were intending 
to protect. New management plans must be drafted at the federal agency 
level, along with their layers of bureaucracy that result in project 
delays, increased costs, increased man hours and legal challenges that 
slowly choke-out the effectiveness and general meaning of the multiple 
use doctrine. Despite claims that designations won't impact current 
uses, the clear intention is to dismantle the multi-use doctrine, which 
has been the centerpiece of public lands management for generations. 
This system afforded our nation the best recreational, wildlife and 
local economic opportunity on public lands in the history of the world. 
Those who want to reduce access, reduce recreation, reduce historical 
rural economic activity know that these designations are the quickest 
route to achieve their objectives.
    There are many examples of negative impacts on the State's ability 
to manage wildlife. Upon designation of the Sonoran Desert National 
Monument in 2001, the Bureau of Land Management was charged with 
developing an area management plan. The development of this plan took 
place over the period of 11 years during which time the Arizona Game 
and Fish Department experienced detrimental delays and prohibitions for 
critical wildlife management actions. A stark illustration of the 
specific impact this protracted process has had on the Department's 
mission can be seen in the Maricopa Mountains. These mountains, 
included in Sonoran Desert National Monument, were home to at least 103 
Bighorn sheep, as counted by department biologists in 1999. There were 
fewer than 35 counted in 2015. The Department experienced detrimental 
delays, outright prohibitions of necessary wildlife management actions 
and a crippling lack of access to the area stemming from designation of 
the monument. With no management plan to address these concerns, the 
departments found it extremely difficult to provide the sustainable 
water sources these sheep require.
    Recreational shooting, a traditional activity practiced by citizens 
since territorial days, is also being restricted in the Sonoran Desert 
National Monument, as well as other national monuments. This will leave 
Arizona's hunters with fewer places to safely and responsibly exercise 
their Second Amendment Rights.
    Arizona currently has 18 monuments, the most in the nation. 77% of 
Arizona's lands have restrictions relate to public access and 
recreational use. The State's ability to conserve, manage and protect 
Arizona's wildlife resources is negatively impacted on a total of 10.3 
million acres. Land tenure in Arizona is one of the most complex in the 
nation, with federal, state and private lands intermingled, or checker-
boarded. This complexity results in challenges for all land managers, 
and those challenges are aggravated with restrictive federal 
regulations. The State has 9.2 million acres of State Trust land, with 
nearly 350,000 acres of surface and subsurface estates trapped within 
special federal land use designations. Those trapped, encumbered acres 
were given to Arizona, by Congress, at statehood to hold in Trust for 
the benefit of 13 public beneficiaries. The Federal Government has 
failed to provide the trust with compensation for lost revenues because 
of their actions that result in forced restrictions and cutoff access.
    Arizona's current Administration is looking to advance a common-
sense approach to managing government purview, specifically reducing or 
eliminating regulations and government actions that inhibit economic 
prosperity, and waste finite resources. The Antiquities Act of 1906 is 
not an effective or appropriate tool for managing resources, and it is 
as antiquated as the historic artifacts it was and is intended to 
protect. The open and scenic landscapes of Arizona require active, 
multiple-use management from users, conservationists and industry that 
spend their dollar and time in establishing compatible plans that 
facilitate treatment for range, habitat and conservation goals. 
Government, especially local and state government, should assist with 
creating those plans, and serve as a resource to stakeholders providing 
them expertise and other forms of support.
    Designations created by the Act have not advanced collaboration 
amongst consumptive and non-consumptive users; and they have not 
resulted in sufficient land health and economic sustainability.
    We ask Congress to amend the Act to reflect its intended 
application; revisions should provide more explicit provisional 
authorities including: a more robust process for designations, more 
clearly defined application or limitation on amount of designations, 
and detailed consultation with respective states and stakeholders.
    Creating an industry and tourism-friendly environment is what all 
levels of government should be prioritizing--and moreover, government 
should be focused on opportunities, such as this hearing, to facilitate 
an open dialogue toward improving that environment through revising 
laws and administrative rules that not only inhibit future potential of 
private industries and citizens to achieve growth, but also harm 
everyone by designating lands where resources and monies have been 
invested and planned. We, as public servants, have a responsibility to 
serve our citizens through responsible, process-driven laws and 
programs that are responsive to their needs to earn a living, feed 
families and enjoy beautiful landscapes for generations.
    Unfortunately, the Antiquities Act is not balanced, nor fair and it 
enacts restrictions that are fiscally and ethically harmful. It is 
incumbent upon us, as public servants, to correct this 100-year-old 
historic course and adapt our governance to 21st century goals.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. McClintock Submissions

    --  Letter to Chairman Tom McClintock and Ranking Member 
            Hanabusa from the American Motorcyclist 
            Association.

    --  Letter to Chairman Tom McClintock and the Members of 
            the Subcommittee on Federal Lands from Edward 
            Madden and the Arizona Fish and Game Department.

    --  Testimony from the Association of O&C Counties 
            regarding the Antiquities Act.

    --  Letter to Chairman Tom McClintock and the Subcommittee 
            on Federal Lands from the Association of Oregon 
            Counties.

    --  Letter to Chairman Bishop and Ranking Member Grijalva 
            from the Douglas County-Carson City Farm Bureau.

    --  Letter to Chairman Bishop and Ranking Member Grijalva 
            from Garfield County Commissioners.

    --  Letter to Chairman Bishop and Ranking Member Grijalva 
            from Daniel Chadwick on behalf of the Idaho 
            Association of Counties.

    --  Letter to Chairman Bishop from the Jackson County, 
            Oregon Board of Commissioners.

    --  Letter to House Committee on Natural Resources, 
            Subcommittee on Federal Lands from the Klamath 
            County Commissioners.

    --  Letter to Chairman Tom McClintock from John Hinz, 
            President of KTM Group.

    --  Letter to Chairman Bishop and Ranking Member Grijalva 
            from the National Association of Counties and 
            Western Interstate Region.

    --  Letter to Chairman Bishop and Ranking Member Grijalva 
            from Tyler Massey and Steve Kopelman on behalf of 
            the New Mexico Association of Counties.

    --  Letter to Chairman Bishop and Ranking Member Grijalva 
            from Jeffery Fontaine on behalf of the Nevada 
            Association of Counties.

    --  Letter to House Committee on Natural Resources from 
            John O'Keefe on behalf of the Oregon Cattlemen's 
            Association.

    --  Letter to Chairman Bishop and Ranking Member Grijalva 
            from Barry Bushue on behalf of the Oregon Farm 
            Bureau.

    --  Letter to Secretary Zinke from former BLM director 
            Edward Shepard.

    --  Letter to Chairman Bishop and Ranking Member Grijalva 
            from Boyd Matheson and Matthew Anderson of the 
            Sutherland Institute.

    --  Letter to Chairman Bishop and Ranking Member Grijalva 
            from the Utah Association of Counties.

    --  Letter to Chairman Bishop and Ranking Member Grijalva 
            from Director Curtis Kennedy of the Utah Snowmobile 
            Association.

    --  Letter to Chairman McClintock and Ranking Member 
            Hanabusa from Rob Hendry of the Wyoming County 
            Commissioners Association.

Rep. Hanabusa Submissions

    --  Testimony from the Appalachian Mountain Club in support 
            of Katahdin Woods and Waters.

    --  Testimony from Michael C. Blumm, Professor at Lewis and 
            Clark Law School.

    --  Book containing expressions of support by various 
            parties for the Cascade-Siskiyou National Monument.

    --  Letter to Senator Angus King from Jon Ellis, owner of 
            Ellis Family Market.

    --  Letter to Chairman Bishop, Ranking Member Grijalva, and 
            the Members of the Committee on Natural Resources 
            from Gail Fanjoy on behalf of the Katahdin Area 
            Chamber of Commerce.

    --  Letter to Senators Collins and King, Congressmen 
            Poliquin and Pingree from Katahdin Region 
            Businesses in support of Katahdin Woods and Waters 
            National Monument.

    --  Book in support of Mojave Trails, Sand to Snow, and 
            Castle Mountains National Monument.

    --  Letter from Kristin Brengel on behalf of the National 
            Parks Conservation Association.

    --  Support Book for Organ Mountains-Desert Peaks National 
            Monument.

    --  Letter to Senators Udall and Heinrich, Congressmen 
            Lujan, Lujan Grisham, and Pearce from Santa Fe 
            Green Chamber of Congress, Partnership for 
            Responsible Business, and Las Cruces Green Chamber 
            of Congress.

    --  Support book for protecting the Rio Grande Del Norte 
            National Monument.

    --  Testimony from the Soda Mountain Wilderness Council in 
            defense of the Cascade-Siskiyou National Monument.

    --  Letter to Senator Angus King from Jon Ellis, James 
            Talbott, and Steve Richardson.

Rep. Grijalva Submission

    --  Letter to President Trump, Secretaries Zinke and Ross 
            from 450 organizations in support of the Monument 
            designation.

Rep. Brown Submission

    --  Testimony from Stephanie Meeks on behalf of the 
            National Trust for Historic Preservation.

Rep. Gosar Submission

    --  Report from the Grand Canyon Trust in favor of the 
            Bears Ears National Monument.

Rep. Pearce Submission

    --  Support book in favor of modifying the boundaries of 
            the Organ Mountains-Desert Peaks National Monument.

Rep. Tsongas Submission

    --  Statement for the record with testimony from the 
            Appalachian Mountain Club.

                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
